<html>
<title> - OUTSIDE PERSPECTIVES ON RUSSIA SANCTIONS: CURRENT EFFECTIVENESS AND POTENTIAL FOR NEXT STEPS</title>
<body><pre>[Senate Hearing 115-376]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-376


  OUTSIDE PERSPECTIVES ON RUSSIA SANCTIONS: CURRENT EFFECTIVENESS AND 
                        POTENTIAL FOR NEXT STEPS

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE IMPLEMENTATION AND EFFECTIVENESS OF THE SANCTIONS PROGRAM 
  CURRENTLY IN PLACE AGAINST RUSSIA AND THE EFFECTS OF THOSE SANCTIONS

                               __________

                           SEPTEMBER 6, 2018

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


                Available at: https: //www.govinfo.gov /
                
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-635 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="483827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>                       
                
                


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
BOB CORKER, Tennessee                JACK REED, Rhode Island
PATRICK J. TOOMEY, Pennsylvania      ROBERT MENENDEZ, New Jersey
DEAN HELLER, Nevada                  JON TESTER, Montana
TIM SCOTT, South Carolina            MARK R. WARNER, Virginia
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
TOM COTTON, Arkansas                 HEIDI HEITKAMP, North Dakota
MIKE ROUNDS, South Dakota            JOE DONNELLY, Indiana
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas                  DOUG JONES, Alabama

                     Gregg Richard, Staff Director

                 Mark Powden, Democratic Staff Director

        John O'Hara, Chief Counsel for National Security Policy

                      Kristine Johnson, Economist

                 Elisha Tuku, Democratic Chief Counsel

            Laura Swanson, Democratic Deputy Staff Director

               Colin McGinnis, Democratic Policy Director

                       Dawn Ratliff, Chief Clerk

                      Cameron Ricker, Deputy Clerk

                     James Guiliano, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)


                            C O N T E N T S

                              ----------                              

                      THURSDAY, SEPTEMBER 6, 2018

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    38

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     2
        Prepared statement.......................................    38

                               WITNESSES

Michael A. McFaul, the Peter and Helen Bing Senior Fellow at the 
  Hoover Institution, and Professor of Political Science, 
  Director and Senior Fellow at the Freeman Spogli Institute for 
  International Studies at Stanford University, and Former U.S. 
  Ambassador to the Russian Federation (2012-14).................     5
    Prepared statement...........................................    40
    Responses to written questions of:
        Chairman Crapo...........................................    65
        Senator Cotton...........................................    65
        Senator Tester...........................................    66
Daniel Fried, Former Coordinator for Sanctions Policy, Department 
  of State (2013-17), and former Assistant Secretary of State for 
  European and Asian Affairs (2005-09)...........................     7
    Prepared statement...........................................    48
    Responses to written questions of:
        Chairman Crapo...........................................    67
        Senator Cotton...........................................    69
        Senator Tester...........................................    70
Rachel Ziemba, Adjunct Senior Fellow, Energy, Economics, and 
  Security Program, Center for a New American Security...........     8
    Prepared statement...........................................    53
    Responses to written questions of:
        Chairman Crapo...........................................    72
Heather A. Conley, Senior Vice President for Europe, Eurasia, and 
  the Arctic, Center for Strategic and International Studies, and 
  former Deputy Assistant Secretary of State for Eurasian Affairs 
  (2001-05)......................................................    10
    Prepared statement...........................................    60
    Responses to written questions of:
        Chairman Crapo...........................................    73
        Senator Cotton...........................................    76

                                 (iii)

 
  OUTSIDE PERSPECTIVES ON RUSSIA SANCTIONS: CURRENT EFFECTIVENESS AND 
                        POTENTIAL FOR NEXT STEPS

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2018

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:02 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. This hearing will come to order.
    We welcome all of our witnesses today and appreciate your 
being willing to share your expertise with us and take your 
time to be here. Thank you.
    The Committee meets today for its second of three hearings 
on sanctions against the Russian Federation for its malign 
activities directed against the United States, its allies, and 
spheres of influence.
    I thank our panel of outside expert witnesses today, most 
of whom are former Administration officials, who will help the 
Committee better understand the current U.S. posture toward 
Russia.
    Testifying today will be Ambassador Dan Fried, now at the 
Atlantic Council, but who capped off a 40-year State Department 
career as the Obama administration's overall sanctions 
coordinator; Stanford Professor Michael McFaul, also at the 
Hoover Institution, who was U.S. Ambassador to the Russian 
Federation for the 2 years leading up to Putin's illegal 
annexation of Crimea; and Heather Conley, now with CSIS, but 
who was also a Deputy Assistant Secretary for the Russia desk 
in the Bush administration's State Department.
    Rachel Ziemba, our sole Government outsider, now with the 
Center for New American Security, will share her particular 
expertise on the interlinkages between economics, finance, and 
security issues with regard to Russia's economic resilience and 
the role of sovereign wealth in all of this.
    Two weeks ago, current Administration witnesses informed 
the Committee of efforts to implement the Countering America's 
Adversaries Through Sanctions Act, or ``CAATSA,'' which was 
enacted in August 2017 and largely crafted by this Committee, 
and what political and economic effects that implementation 
have had.
    Basically, the Administration reported that over the last 
year it had sanctioned some 230 individuals and entities 
through its use of CAATSA and its own administrative 
authorities.
    Those targeted include the heads of major State-owned banks 
and energy companies, as well as some of Putin's closest 
associates or oligarchs.
    On the issue of electoral interference, a Homeland Security 
official reported that malicious cyberoperations are not just 
State-run, not just run by a single actor, and remain one of 
the most significant strategic threats to the United States.
    Beyond any use of sanctions, which Treasury imposed against 
several Russian actors for interference in the 2016 elections, 
Homeland Security further testified that it is working 
aggressively to support State and local efforts to secure the 
2018 elections.
    They also made clear that this work must not only 
continually evolve, but never become complacent because those 
seeking to interfere and disrupt are on the cutting edge of 
technology.
    A number of the Members on this Committee, on both sides of 
the dais, encouraged the Administration to do more and soon.
    Whatever the economic effects of these sanctions have had 
over the last year, it has escaped no one's attention that 
Russia is still in Crimea and the Kremlin still exercises 
violently destabilizing activities in Ukraine and Syria.
    Moreover, since CAATSA implementation began, Putin has 
ordered the use of chemical weapons to attack citizens of the 
United States' allies at home and continues his efforts to 
subvert the democracies of the United States and its European 
allies through complex disinformation campaigns and outright 
cyberattacks.
    Getting sanctions ``right'' is a difficult exercise for 
Congress and the Administration alike.
    It took decades for sanctions to take real effect in Iran. 
And Putin's Russia is not like Iran--or North Korea, for that 
matter--at least not in any way other than its penchant for 
engaging in malicious behaviors at home and abroad.
    In the case of Russia, any constructive use of sanctions is 
complicated further by the level of Russia's integration into 
the global economy and all the attendant unintended 
consequences, contagions, and spillovers that come with it and 
which threaten to destroy the potential for needed multilateral 
application of sanctions against an economy like Russia's.
    There is no question that Putin must pay for his actions 
and that the United States has the ability to impose real costs 
against Moscow, even as it increases its own defenses against 
future attacks.
    The only question is how the United States will go about 
imposing those costs.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman.
    Today we gather to further assess Russia's persistent 
efforts to attack the U.S. and our allies via cyber, influence, 
and other campaigns directed at our most critical 
infrastructure and to develop ways to strengthen U.S. responses 
to those attacks.
    In our first hearing, senior Administration officials 
testified on sanctions and the protection of critical 
infrastructure. Directly following that hearing, all Senators 
had an opportunity to be briefed at a classified level on 
preparations by our Federal Government, working in cooperation 
with State and local authorities, to secure our electoral 
process for the upcoming midterms.
    Today we will hear outside perspectives on the 
effectiveness of U.S. sanctions and on new tools, including new 
sanctions authorities that might usefully be deployed against 
Russian attackers. Bolstering that sanctions toolbox--and 
ensuring that the tools are actually used by the 
Administration, an important consideration, to get the job 
done--is critical.
    We will hear from those outside the Administration, as the 
Chairman said, including witnesses with extensive and 
distinguished diplomatic experience in dealing with Russia 
under Republican and Democratic Administrations over decades, 
what they think will most likely dissuade the Russians from 
continuing these attacks.
    While sanctions have had some effect on Russia's economy, 
as they have been applied it is not clear they are doing much 
to, most importantly, actually change Russia's behavior. And 
that is the goal. Sanctions are a means to an end, not an end 
in themselves. We seek real and immediate changes in Russian 
behavior; we are not yet seeing it. Checking the box, as the 
Administration seems to be doing, saying they have caused pain 
in Russia, is not nearly enough.
    There is little dispute sanctions are not yet having their 
intended effect: Russia remains in Crimea, its proxies are 
still in Eastern Ukraine, it continues to support Assad in 
Syria, and to attack our elections and other critical 
infrastructure using sophisticated cyberweapons. It has 
attempted to assassinate British citizens; it has killed an 
innocent bystander in the process. It has fostered sanctions 
evasion and other illicit activity around the world.
    Some of today's witnesses--including those with bipartisan 
experience in Russia-U.S. relations--have been critical of the 
administration's efforts to date, arguing they have been 
inadequate and arguing they have been undercut by President 
Trump's reluctance to criticize Putin and his Government.
    President Trump's efforts to try to undermine what are 
established conclusions of fact by the U.S. intelligence 
community about Russia's involvement are well documented. 
Russian attacks on our elections and critical infrastructure 
like energy plants, utility systems, aviation, manufacturing, 
and private sector business systems are continuing.
    As our next elections approach, it is long past time for 
Congress and the President to send a much more powerful and 
direct message to Vladimir Putin and those within his circles: 
If you continue cyberattacks against us, you and your 
Government will pay a heavy economic, diplomatic, and political 
price.
    As Ambassador McFaul notes in his testimony, there is, 
shall we say, a tension between what sanctions professionals at 
Treasury and State are saying and doing and what the President 
is doing.
    Our Government needs to speak with one voice. The President 
should clearly state how he will use CAATSA to forcefully 
respond to Russian attacks, issue an Executive order that 
clearly outlines the sanctions consequences for continuing 
attacks, and implement that order if attacks continue.
    In addition to urging the Administration to use CAATSA more 
effectively, I think most of us agree Congress needs to do 
more. Congress crafted these tough Russia sanctions, enacted 
last August with only two dissenting votes in the Senate. We 
should build on that bipartisan consensus.
    Today we focus with these experts on the broader strategic 
questions: What active cyberattacks are the Russians directing 
against our elections and against our infrastructure? What 
range of powerful economic, trade, financial, diplomatic, and 
political tools can we deploy now to deter these attacks, these 
threats?
    What will it take to actually deter Putin, by sharply 
increasing the price he must pay for them? I know those are the 
questions my constituents ask. Our large Ukrainian community in 
Ohio knows firsthand the dangers of Russian aggression.
    This hearing should be an opportunity to get answers from 
those long involved in U.S.-Russia policy. I welcome former 
Ambassador to Russia Michael McFaul--thank you for joining us--
who has had his own recent political and legal struggles with 
Mr. Putin, but has acquitted himself gracefully throughout. 
Thank you. I welcome Ambassador Fried, former sanctions 
coordinator at State, with a distinguished record of decades of 
bipartisan service in U.S.-Russia policy. Thank you, sir.
    Ms. Rachel Ziemba has done extensive economic research on 
sanctions policies and their effects. Thank you for that. And 
Heather Conley, for her work at CSIS and her work before that 
in the Bush administration, thank you. I look forward to 
hearing what effects you think current sanctions are having on 
Russia's economy and behavior, and especially your ideas on how 
we should more forcefully confront the threats posed by Russia.
    Thank you all.
    Chairman Crapo. Thank you, Senator Brown.
    Ambassador McFaul, we will start with your testimony, then 
turn to Ambassador Fried. Then we will follow with Ms. Ziemba 
and Ms. Conley.
    I want to thank all of you again for your written 
testimony. It is very helpful to us, and it will be made a part 
of the record. I ask you to remember to honor our 5-minute rule 
and pay attention to that clock in front of you, as well as our 
Senators to remember to honor the 5-minute rule. And to our 
witnesses, if you have a Senator who just does not seem to be 
able to do that, I ask you to wrap your answers to their 
questions up quickly after the time runs out.
    With that, Ambassador McFaul, please proceed.

STATEMENT OF MICHAEL A. MCFAUL, THE PETER AND HELEN BING SENIOR 
 FELLOW AT THE HOOVER INSTITUTION, AND PROFESSOR OF POLITICAL 
   SCIENCE, DIRECTOR AND SENIOR FELLOW AT THE FREEMAN SPOGLI 
INSTITUTE FOR INTERNATIONAL STUDIES AT STANFORD UNIVERSITY, AND 
   FORMER U.S. AMBASSADOR TO THE RUSSIAN FEDERATION (2012-14)

    Mr. McFaul. Well, thank you, Chairman Crapo, and thank you, 
Ranking Member Brown, for inviting me here today. I do have a 
long written testimony--I am an academic, after all--with even 
footnotes, but I will just summarize it right now in 5 minutes.
    First, the facts, just the facts, about Vladimir Putin's 
belligerent, criminal behavior.
    In 2008, he invaded Georgia, altered the borders there. In 
2014, he invaded Ukraine, annexed Crimea. In 2015, he deployed 
his military to support a brutal, ruthless dictator who has 
committed crimes against humanity in Syria. In 2016, he 
violated our sovereignty, as we all know well. In 2018, in 
March, he violated British sovereignty as you already said, and 
international law by trying to kill Sergei Skripal. And on a 
much smaller but personal level, in July of 2018 Putin and his 
Government violated diplomatic protocol and international norms 
by calling for the interrogation and suggesting criminal 
activities against former U.S. Government officials and one 
member of the congressional staff, including me, based 
completely on invented allegations.
    You all know that list, and I could go on and on and on. 
But you do not want me to, Chairman. But I think it is 
important to remember what these issues are and that they are 
not just violations or against the interests of the United 
States of America. These are violations of international norms, 
rules that are vital to the international system. And, 
therefore, for crimes there must be punishment.
    I applaud what the U.S. Congress has done, including this 
Committee, regarding past sanctions. I urge you to do more.
    In answer to the question ``Have sanctions worked? Have 
they been effective?'' let me make three points.
    First, sanctions sometimes, and most certainly in this 
case, are the right moral punishment to take in response to 
egregious illegal activity, even if they do not change Putin's 
behavior. Sometimes you just have to do the right thing because 
it is the right thing to do.
    Second, as you alluded to in your comments, sanctions have 
produced negative effects on the Russian economy, contributing 
to its contraction beginning in 2014, scaring away foreign 
investment, fueling capital outflows, and making it 
increasingly difficult for Russian companies to borrow money. I 
know many Russians who personally, and their companies, are 
suffering because of the sanctions that have happened. And yet, 
as you pointed out in your remarks earlier, they have not yet 
compelled Putin to leave Syria or to leave Ukraine--that is 
true--or to stop his propaganda efforts against us. But that is 
not a reason to say we need to change course, in my view. That 
is a reason to increase pressure through more sanctions, not 
less.
    The third point about our sanctions working. I think the 
best evidence is the fact that Putin is annoyed by these 
sanctions. Putin is trying to overturn them and has been 
courting President Trump precisely to do that. If they did not 
matter, why would he be putting so much energy into it? And if 
it did not matter, if they were not afraid of your new 
legislation that is pending, why have they been so belligerent 
in their remarks about future sanctions? That to me is the 
strongest evidence that sanctions are having an effect.
    Now, there is one additional reason why I think there need 
to be new sanctions, and that is to disabuse Putin of the idea, 
which he still holds, that he can sweet-talk and court and 
charm President Trump into lifting sanctions. This Congress, in 
concert with like-minded officials in the Trump 
administration--and make no mistake, there are many like-minded 
officials in the Administration--must disabuse Putin of that 
hope.
    In my view, there should be several principles for future 
sanctions. I will just go through them quickly and end.
    First, ongoing illegal activity must be met with new 
sanctions. I think that is a really important principle. I do 
not know what it is like around here. If you park your car on 
the Stanford University campus and you get a ticket one day and 
you leave it there, you get a ticket the next day, until you 
move your car. That is the principle I think we need to provide 
when thinking about sanctions toward Russia when they are 
parked in places like Eastern Ukraine.
    Second, the U.S. Congress and President Trump must sign 
into law sanctions that would trigger automatically in response 
to future belligerent behavior.
    Third, sanctions should be implemented in response to 
concrete Russian actions so that a specific sanction can be 
lifted when a specific Russian action is reversed.
    Fourth, future sanctions should primarily be targeted at 
Russian Government and its proxies, not the people of Russia or 
the private sector.
    Fifth, we need to deter money laundering in this country. 
That needs to be part of what we do in the future, including 
getting rid of anonymous ownership in the United States.
    And, finally, as outlined in Section 707, the Defending 
American Security from Kremlin Aggression Act of 2018 rightly 
highlighted that the Kremlin abuses INTERPOL, red notices and 
red diffusion mechanisms for political purposes, and that must 
be stopped.
    Finally, sanctions are only one instrument. We all 
understand that it is just one in the toolbox. We need a 
bipartisan grand strategy with strategic purpose with our 
allies in order to deter and contain Putin's Russia, but new 
sanctions is an integral part of that new strategy.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Ambassador.
    Ambassador Fried.

  STATEMENT OF DANIEL FRIED, FORMER COORDINATOR FOR SANCTIONS 
  POLICY, DEPARTMENT OF STATE (2013-17), AND FORMER ASSISTANT 
  SECRETARY OF STATE FOR EUROPEAN AND ASIAN AFFAIRS (2005-09)

    Mr. Fried. Mr. Chairman, Ranking Member Brown, I am honored 
to be here.
    President Trump has noted that it would be nice if the 
United States got along with Russia. Indeed, it would. 
Presidents Bush and Obama both tried. Both failed, however, 
because Russia's conditions for good relations with the United 
States are those we cannot accept: American deference to 
Russian domination of its neighbors, including through war; and 
indifference to Russia's repression at home.
    The 20th century taught us the hard way that a country's 
malign behavior inside its borders is a reliable indicator of 
malign behavior abroad, and that spheres of influence 
established through force and repression--Russia's usual 
methods--are neither stabilizing nor self-limiting.
    Putin's system combines political authoritarianism and 
economic kleptocracy. Russia's development would require the 
rule of law, property rights, and freedom of speech and 
assembly. But the Putin regime seems unable to accept this and, 
thus, condemns Russia to stagnation. To maintain its rule, the 
regime cannot count on democratic legitimacy but must rely on 
repression, combined with chauvinistic campaigns.
    A wise U.S. policy toward Russia, therefore, would combine 
resistance to Russia's current aggression, including by working 
with our allies; efforts to reduce the risks of destabilizing 
clashes, without, however, unwarranted concessions or 
apologies; cooperation with Russia where possible, without 
expecting too much, too soon; and the anticipation of, and 
planning for, potential better relations with a better Russia.
    In the face of Russian aggression, the Obama administration 
launched sanctions, and the Trump administration has continued 
them. The Administration is reportedly preparing new measures, 
and Congress is preparing new legislation.
    So what lessons can we draw from the use of sanctions 
against Russian targets? And what are our best next moves?
    I suggest the following:
    First, work with allies. The U.S.-imposed sanctions in 
solidarity with its European and other allies, and our allies 
generally did their part. This unity of purpose extended 
sanctions power and may have frustrated Putin's expectations. 
We should maintain it.
    Second, we should prepare credible escalatory options. In 
the short run, Putin is likely to continue his aggression, and 
he may intensify it. Therefore, the U.S. should have and make 
clear to the Russians that we have escalatory sanctions options 
that are tough enough to hurt but restrained enough to use. 
These can include two types: intensified sanctions targeting 
finance, energy, defense, dual-use technology, and 
cybersectors; and additional sanctions against individuals, 
particularly those close to Putin.
    Within sectoral sanctions, I see headroom in the finance 
and cybersectors. Financial sanctions options could include 
steps against new Russian sovereign debt and other steps. In 
the cybersector, we should go after Russian bad actors and 
their sources of funding and deny exports of relevant 
technology.
    There may also be some escalatory room in the energy 
sector, but I think the U.S. should not target current energy 
production. If we did, that could panic markets and drive up 
prices, and that gives, perversely, the Putin regime a 
windfall. Mandatory sanctions on all energy projects are 
probably too broad, but we could go after future oil 
production. We could ban the export to Russia of exotic 
technology for fracking or all enhanced oil recovery 
technologies for all new energy projects.
    There is also room to target additional individual Russians 
close to Putin. CAATSA Section 241, a smart provision, mandated 
a study identifying these people--``The Kremlin Report''. It 
has considerable potential for more use. It bothers Putin. We 
should look at it hard.
    We need to maintain operational flexibility. Licenses and 
care in the use of mandatory sanctions is important.
    A final thought. Sanctions have more power if they are 
embedded in an overall policy that works, is credible, and is 
consistently expressed. Russia policy has been a challenge for 
this Administration, but the Administration has significant 
tools, and through wise legislation the prospect of more, to 
advance a strong policy resisting Russian aggression.
    A final thought. A strong Russia policy should be embedded 
in an American grand strategy which recognizes that a rules-
based world which favors democracy is in America's national 
interest. For the past 100 years, American Presidents have 
advanced such a grand strategy, and America and the world have 
benefited thereby. Putin and like-minded nationalists and 
despots stand for nothing more than power. America can do 
better. At the end of our current national debate about 
America's role in the world, I hope and believe that we will 
recall the values and purposes that propelled American world 
leadership.
    Mr. Chairman, Ranking Member Brown, I appreciate the 
opportunity to appear and look forward to your questions.
    Chairman Crapo. Thank you, Ambassador.
    Ms. Ziemba.

  STATEMENT OF RACHEL ZIEMBA, ADJUNCT SENIOR FELLOW, ENERGY, 
  ECONOMICS, AND SECURITY PROGRAM, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Ms. Ziemba. Thank you, Chairman and Ranking Member Brown, 
for the chance to share my views on the economic impact of 
sanctions and some perhaps surprising sources of resilience 
that have been building up in Russia's economy. These are very 
important as you consider potential measures.
    Sanctions imposed starting in 2014 have had economic 
impacts. They stressed Russia's economy. They amplified the 
impact of a very severe energy price shock in the global 
economy. U.S. and European measures restricted capital to many 
Russian companies and reduced what was already low levels of 
foreign direct investment. And they did contribute to a lengthy 
if moderate recession, beginning in 2014.
    But their impact has faded, and policy preferences do not 
seem to have changed. Recent targeted measures and press 
reports around legislation that this Committee is considering 
have triggered pressure on currency and other financial 
markets. But it is important to understand some of the ways in 
which even that asset market weakness can provide some 
resilience through the fiscal and external channels.
    So what are these drivers of resilience? A major one has 
been the improvement in global oil markets and the increase in 
energy revenue; also, sound orthodox economic policies adopted 
by Russia, particularly the flexible exchange rate and 
relatively restrained fiscal policy. Another factor is the 
deepening of domestic and foreign new sources of financing, 
particularly from China and the Middle East.
    Paradoxically, many of the factors that have sapped 
Russia's long-term growth for a long time are contributing to 
resilience. These include lack of competition, State 
intervention, little labor force growth, and issues in the 
business environment. These are reinforced by second-best 
funding from countries like China and the Middle East that also 
tend to have weaker governance.
    Russia may not be thriving, but it is surviving, and these 
are important factors to bear in mind when one thinks about 
additional measures. This means that attempts to impose a 
significant economic shock may require more increasingly blunt 
measures.
    I am arguing that the approach of retargeting and focusing 
and differentiating within Russian actors should be a very 
important part of sanctions measures going forward. At the end 
of the day, the goal is not solely to impose economic stress on 
Russia, but to prompt a policy change.
    Broad sectoral measures might embolden those actors in 
Russia who are already inward-looking and prefer non-Western 
finance. Repatriating capital, encouraging import 
substitution--none of these are great outcomes for Russia, but 
they could end up contributing to a further consolidation of 
power and wealth among the Putin Government. This, of course, 
would continue to be counter to U.S. interests.
    Let me briefly discuss some of the measures, some of the 
sectors targeted in pending legislation: sovereign debt, 
energy, and banking.
    Russia's lower sovereign debt issuance already reflects 
tight fiscal policy and has actually limited the degree of 
contagion risk to the global economy. Already foreign holders 
of local currency debt hold less than 20 percent of the 
outstanding debt.
    On the one hand, that limits the portfolio contagion risk 
to other emerging markets. On the other hand, it already limits 
some of the leverage of these measures.
    Proposed measures would likely add to pressure on some of 
those emerging markets I mentioned, of course, and could add to 
some appreciation pressure on the U.S. dollar. But we need to 
be clear about what the impacts might be.
    Energy financing restrictions and access to resources would 
likely dampen long-term production growth. I agree with other 
speakers about the dangers of targeting current production, 
particularly given the tightening of global energy markets and 
concurrent U.S. policy to reduce Iranian output.
    Banking sector measures should also be calibrated. State 
banks such as Sberbank already have a strong liquidity 
portfolio, and they have been gobbling up deposits from their 
private banking counterparts. The central bank has been acting 
in a very structured manner. Cutting off access to SWIFT, which 
I am glad to see is not currently in many of the pieces of 
legislation, would, I think, pose very significant risks of 
ruptures with our European allies, making it harder to monitor 
systemic risk and the payment system.
    A credible sanctions regime establishes consequences for 
malign behavior and clarifies behavior that would result in 
those sanctions being lifted. I think it is very important to 
continue to distinguish between some of the activity and to 
have a sliding set of policies.
    Finally, targeting the measures toward Government or those 
actually involved in the policies rather than just Russia as a 
whole seems to be a very important part of the sanctions regime 
going forward.
    Thank you very much.
    Chairman Crapo. Thank you, Ms. Ziemba.
    Ms. Conley.

   STATEMENT OF HEATHER A. CONLEY, SENIOR VICE PRESIDENT FOR 
   EUROPE, EURASIA, AND THE ARCTIC, CENTER FOR STRATEGIC AND 
INTERNATIONAL STUDIES, AND FORMER DEPUTY ASSISTANT SECRETARY OF 
              STATE FOR EURASIAN AFFAIRS (2001-05)

    Ms. Conley. Mr. Chairman, Ranking Member Brown, and 
distinguished Members of the Committee, thank you for this 
opportunity to share my thoughts and hopefully I can provide a 
bit of a summary of the witness testimonies.
    If my count is accurate, the U.S. currently has 58 separate 
sets of sanctions against Russia broadly across 8 lines of 
effort that date back to 2011. So what have we achieved in 
those 7 years?
    Russia is economically stable. With the recent increase in 
energy prices and depreciation of the Russian ruble, the 
Kremlin has found an equilibrium of sorts. Its GDP is estimated 
to grow this year by 1.5 percent. Moscow can blame any 
hardships on Western sanctions and not its own long-term 
economic mismanagement. And although Russia's economy will 
remain vulnerable to volatility in emerging markets and 
uncertainty in the commodities markets, our economic sanctions 
have little effect on either the regime's economy or its 
behavior.
    But, perhaps more importantly, during this time President 
Putin has effectively consolidated his leadership of a national 
security State that is prepared for a prolonged period of 
economic stagnation and decline. This is not a regime that is 
tiring. It is a regime that is ready for the long haul.
    Unfortunately, I cannot say the same for the United States 
and our European allies. I think as Ambassador McFaul and 
Ambassador Fried noted, we have sanctions policies that are in 
desperate search of a more coherent policy which is fully 
supported by our allies. I want to give you three words as you 
think through this strategy: strength, clarity, and unity. We 
must develop an enduring policy that addresses the global 
nature of Russia's disruptive and malign behavior that 
stretches from North Korea and Venezuela to Syria, but which 
focuses its most destructive intent on the United States and 
Europe. We must develop a prioritized policy that establishes a 
clear road map for Russia to return to the international legal 
norms--to which it is legally bound--as well as a clear and 
consistent path of escalating punishments as Russia continues 
to violate these legal norms.
    Our first policy priority must be the defense of the 
homeland and the need to protect the United States to the best 
of our ability against Russia's cyberenabled attacks, against 
U.S. voting systems, voter data, and other critical 
infrastructure. This also entails thwarting Russia's ongoing 
disinformation campaign and influence operations through 
greater public awareness and proactive deletion of fake social 
media accounts; and--and I will return to this--ending the 
illicit use of the U.S. financial system, affiliated 
institutions, and U.S. citizens to advance its malign influence 
and subvert our democratic institutions.
    Our second priority must be the Russian Government's return 
to international legal norms, which include the respect for the 
territorial integrity of neighboring sovereign countries 
Ukraine, Georgia, and Moldova; to return to the U.N. Chemical 
Weapons Convention and arms control treaties, including their 
ongoing violations of the INF Treaty. We must modernize the 
foundations of the Helsinki Final Act and, in particular, the 
Vienna Document, to restore the transparency of Russian 
military forces and exercises to make sure that we do not have 
any accidents against U.S. vessels or aircraft.
    And, finally, our third priority must be to restore our 
focus on promoting and prioritizing the dignity of the 
individual and the governed over the privileges of the State-
fed kleptocratic forces in Moscow. Ultimately, the success of 
U.S. foreign and security policy rests on that third pillar.
    But what has worked over the last 7 years? Of all the 
sanctions that the U.S. has imposed or threatened to impose, it 
seems to me what disturbs the Kremlin the most is the Global 
Magnitsky Human Rights Accountability Act because this act 
shines an international spotlight on the excesses and corrupt 
nature of Russia's oligarchic capitalism and how it functions 
within Russian society. And because the Kremlin has based its 
economic model and its survival on kleptocracy, sanctions and 
other policy instruments dedicated to preventing the 
furtherance of corruption--or worse yet in the minds of the 
Kremlin, providing accurate information to the Russian people 
of the extent of this corruption--are a powerful countermeasure 
to Russia's malign behavior.
    I strongly urge this Committee to quickly craft and pass 
legislation that enhances anti- money-laundering measures and 
fosters greater transparency and ultimate beneficial ownership 
with a very laser-like specific focus on Russia. I encourage 
you to think about FinCEN's robust role of the Treasury's 
Financial Crimes Enforcement Network to focus as much as they 
do on terrorism financing as illicit financing. We can do this 
with our allies. The EU is working on its fifth anti- money-
laundering directive. The U.K. is finally taking this more 
seriously. But we are given daily reminders that we are not 
doing enough. We just heard reports of a $30 billion Russian 
and other post-Soviet Nations' funds that have coursed through 
the Estonian branch of Danske Bank undetected for years.
    It is time for the United States to close the Russian 
laundromat and its affiliated enabling services that operates 
within and outside the U.S. financial system and work closely 
with our allies to drain this international response. And, 
again, think those three words through: strength in our purpose 
and our policy, clarity of that policy, and unity within our 
allies.
    Thank you.
    Senator Brown [presiding]. Thank you, Ms. Conley.
    Senator Corker.
    Senator Corker. Thank you. Like today with this panel, we 
had an outstanding panel yesterday in the Foreign Relations 
Committee talking about some of these same things, and, of 
course, every panelist, you know, man, we got to take it to 
Russia.
    Then you get into the details, and it gets a little murky. 
Let us face it. We are dealing with a country that is willing 
to assassinate people in other countries, use military power to 
create a frozen conflict in Georgia, to take Crimea, to do the 
same in Eastern Ukraine. And we are not willing to do that for 
obvious reasons. They are using military power. We are using 
sanctions. They are willing to get involved in our elections. 
They are willing to use military power in a way that we will 
not in Syria.
    So our response always is sanctions. And, you know, what we 
found in CAATSA, and thanks to outstanding staff work and 
numbers of Senators working together, we ended up with a bill 
that got it about right, but we made some mistakes. We did some 
things that have unintended consequences as it relates to 
Europe and in some ways cut our own nose off to spite our face.
    So there is all this bravado, and I really appreciate the 
effort that Senator Van Hollen has underway. He knows I 
appreciate it, and many other Senators. But I think getting 
this right matters, and I think anything we do to punish Russia 
that also punishes Europe actually accrues to Russia's benefit, 
right? I mean, we have got a President rhetorically who is 
trying to alienate Russia, and what I find that we do here is 
sometimes out of frustration, we pass legislation because our 
Commander-in-Chief conducts himself in the manner that he does, 
and we end up doing things that actually hurt the cause.
    And so what I would ask each of you is: What specifically 
should we do sanctions-wise, specifically, to punish Russia 
that will not punish Europe in any way and will not blow back 
on us? And I think that is a much harder question to ask. And I 
know, Ms. Conley, you did some of that. But whether you can 
answer that in the time we have here or whether you just want 
to send that back to me, I would appreciate it.
    So I will let some of you answer, and specifically. Do we 
really want to cut Sberbank off from the U.S. financial system? 
Tell me that. Is that specifically something we really want to 
do, or do we want to think about some of these things? Yes, 
sir.
    Mr. Fried. I will take a stab at this. No, we should not 
cut Sberbank off, but if you want to escalate in the financial 
sector, I think going after new Russian sovereign debt fits 
your criteria of hurting the Russians and not hurting us or our 
allies.
    Senator Corker. They have got like 12 percent debt to GDP. 
OK? We have got 80 percent debt to GDP, really more than that. 
So do we really want to cross that threshold of sovereign debt, 
which will have no impact on them whatsoever, but it will be 
crossing the Rubicon as it relates to potentially our debt down 
the road. Is that something we really want to do?
    Mr. Fried. Well, yeah, I would go for it. I think that the 
impact on Russia is apt to be significant. The impact on us is 
apt to be light. We hit Iranian sovereign debt, and some people 
in Treasury predicted the end of the world if we did. But we 
took that step, and the world did not end.
    In the financial area, that is where I would--that is one 
place I would go. There may be some other--I would not target 
Sberbank. I would not target all of the big Russian State 
banks. But I think going after new Russian sovereign debt or 
going after one or two selected banks may be appropriate.
    However, I want to go back to something----
    Senator Corker. I tell you what, why don't you answer the 
rest of it in writing, if you will, so I can get to the other 
folks. But thank you so much for that input, and thank you for 
your service.
    Yes, Mr. Ambassador?
    Mr. McFaul. A couple of thoughts. First of all, we are not 
a patient society, usually. We want results quickly. And 
putting on my academic hat now, I have studied the sanction 
literature. It takes time for these things to have an effect. 
It is a ricochet thing, especially when you are talking about 
an economy with the resilience we already hard about, and 
especially when you are talking about an autocracy, not a 
democracy. So that is the first point.
    Second point, concretely--because you asked concretely--
target individuals that are close to President Putin. That is 
not my view of what has happened so far. I want to hear the 
argument from somebody that Viktor Vekselberg--you asked for 
specifics. I am going to get really specific. Why was he on the 
list? I do not know. I can tell you he does not know. What was 
the intention for him? I have got 12 names here--I am not going 
to go through them all; I will provide them in writing so we do 
not go through the Kovalchuks and everything--that are much 
closer to Putin that were not there. That is number one. Go 
after the people close to Putin.
    Number two, I really like what is in the legislation in the 
DETER Act about saying right now, if you do this in 2020--2018 
is already gone. If you do this, then we will sanction 
Sberbank. I know Mr. Gref well--I see him all the time--I know 
Mr. Kostin, I know Mr. Shamalov, the heads of the three Russian 
banks. They need to be part of the deliberative process before 
the action is taken, not after, because once it is after, then, 
you know, they cannot change Putin. It is the forward-looking 
thing that this is specifically what will happen to you, German 
Gref, you know, write a letter to him, make it very personal so 
that then he says he does the lobbying before the action, not 
after the fact, because after the fact it is very difficult to 
get Mr. Putin to move off his mark.
    Senator Corker. Thanks. I know I have run out of time, but 
if you all could specifically write back.
    Thank you for being here. We appreciate it.
    I am sorry, Mr. Chairman.
    Senator Brown. Thank you, Senator Corker.
    Ambassador, I appreciate the last part of that answer. I 
think we learned that from the briefings we have had and the 
hearings we have had, to anticipate and threaten, for want of a 
better term, those sanctions.
    Let me drill down a little bit on Senator Corker's 
question. You described in your testimony, Ambassador McFaul, 
the tension between professionals on the one hand at Treasury, 
State, and the intelligence community, what they have been 
doing and saying to combat Russian aggression, and on the other 
what the President is actually doing. You urged a unified 
Administration plan and policy on Russia, noting the President 
can engage Putin without embracing him, as he clearly has.
    Would you be specific about what you think the President 
should do right away, publicly and privately, to signal what 
the consequences will be for continued Russian meddling in our 
infrastructure and in our elections?
    Mr. McFaul. I would like him to start reading the talking 
points that his advisers provide for him. I am serious about 
that. I think there is a lot of consensus in the Trump 
administration about what should be done. This is going to 
sound strange to Democrats and Republicans, but I actually see 
a lot of continuity between the Obama administration and the 
Trump administration on general policy toward Russia. And in 
some places, like lethal assistance to Ukraine, I think the 
Trump administration has rightfully gone farther than the Obama 
administration did.
    I just want to point out I left Russia the day before Putin 
invaded Ukraine. He did not do it on my watch. I left that to--
Ambassador Fried had to deal with him after I left. The problem 
is the President does not seem to agree with his own 
Administration's policy, and every now and then, when he gets 
behind closed doors, he lets you know that. I was in Helsinki 
watching what happened, and that press conference was 
extraordinary in terms of the disconnect between what the 
President was saying and what I take to be as I read and talk 
to people about what the policy is. So the simple thing is get 
in alignment with the rest of your Government.
    Senator Brown. Thank you.
    Mr. McFaul. Easy thing to say, hard thing to do.
    Senator Brown. Ambassador Fried, you talked about 
escalating options tough enough to hurt, in your testimony, 
restrained enough to use. What would be the top of your list of 
sanctions to ratchet up pressure on the Kremlin in the short 
term prior to the election for future attacks, going after 
oligarchs in St. Petersburg, sanctioning State-owned entities, 
Kremlin slush fund, Russian sovereign wealth fund? Talk in a 
little more detail about that. In the short term, how would you 
prioritize those in an escalatory approach?
    Mr. Fried. I agree with my colleagues who have pointed out 
that we should go after Putin's cronies. I think, as Heather 
said, that that bothers the Kremlin no end. I think that the 
consternation with which the Kremlin and Moscow elites greeted 
Section 241 of CAATSA, The Kremlin Report, shows that that 
bothered them. That is my personal favorite part of CAATSA, 
that classified report. I think we should use it.
    I like the DASKA provision which mandates a study of 
Putin's wealth. I think if you have that study, probably 
classified, and The Kremlin Report's CAATSA 241, there is good 
material to draw from in going after people.
    You know, Vekselberg--we do not have to talk about 
individuals, but Mike McFaul is dead right. One escalatory 
ladder that we ought to start now is going after these people. 
Another one--and Heather Conley mentioned it--is start drawing 
up the channels for dirty Russian money. Force disclosure of 
beneficial ownership of high-end real estate. The Russians park 
their money in Miami, New York, and London. We should not let 
them do it. We should expose this.
    Then the second category of sanctions are the sectoral 
sanctions. Senator Corker mentioned his concerns about going 
after Sberbank. You know, you can talk about the targets. We 
should be selective. I continue to think that going after new 
Russian sovereign debt is a good idea. We could also go after 
new debt financing for a broader swath of Russian State-owned 
companies. We also ought to go after the cybersector 
aggressively. We ought to go after technology. We ought to go 
after the cyber bad actors, and we ought to go after all of the 
funders.
    Senator Brown. Thank you.
    Let me ask a question and any of you can answer, not all 
four of you, but any--in mid-April, as you remember, U.N. 
Ambassador Haley announced that Russian companies who help 
Syria make and deploy chemical weapons would be sanctioned. 
Then those sanctions were pulled back, reportedly on orders of 
the President. Anybody have an opinion, a well-formed opinion, 
on what might have happened?
    You all have an opinion. You just do not want to state your 
opinion, apparently.
    Mr. Fried. The process, I think we have all become familiar 
with the policymaking process at the top of the Trump 
administration, and I do not think she made up--I do not think 
Ambassador Haley made up that assertion. I think the policy 
process was not as smooth as it should have been.
    With respect to Syria-related sanctions, I am for it, but I 
would keep my expectations under control. Sanctions work best 
when they are embedded in a policy that makes sense. I think as 
Mike McFaul said, this Administration's Russia policy, if you 
take out--if you subtract what the President says--I know that 
is hard, but if you do that, it could make a lot of sense. But 
I do not think the same is true with respect to our Syria 
policy, and I have never been a wild fan of Syria sanctions. We 
ought to do them, but I would not expect too much.
    Senator Brown. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chair.
    Based upon the conversation that has been repeated several 
times today with regard to where the focus should be and where 
the emphasis should be, I am just curious, and I would ask 
Ambassador McFaul and Ms. Conley to perhaps respond to this. 
Mr. Putin recently backed down from a proposal to raise the age 
eligibility for receiving a Government pension there in Russia. 
Experts attribute this decision to be related to Mr. Putin's 
popularity decreasing significantly due to this pension reform 
proposal. This would suggest that Mr. Putin know that he is 
subject to the consent of the governed and will take reasonable 
action to maintain that consent and the favorability that comes 
with it with regard to the public.
    With respect to sanctions policy, what lessons can we learn 
from this development? And how can we use sanctions and other 
foreign policy instruments to perhaps nudge Mr. Putin to make 
policy changes that are favorable to U.S. interests? I have 
heard the discussion that we should focus on the oligarchs, but 
clearly there is something else going on there as well with 
regard to the popularity issues. Are we missing an opportunity 
here simply because we think we are more direct on the 
oligarchs as opposed to impacts for other portions of the 
population within Russia?
    Ms. Conley. Thank you, Senator. I think what we are 
seeing--President Putin is well aware of the long-term negative 
trajectory of the Russian economy. It is an energy-based 
economy that has no innovation. It is a demographic collapse 
that will happen beginning in 2050. He is acutely aware of 
this. What he was trying to do was the most timid pension 
reform to continue the viability of a social safety system that 
they can no longer meaningfully maintain for the long term. 
They have not reformed their pension service since the end of 
the Second World War, since 1947. So what he is attempting to 
do is make some adjustments to that, and they are not even that 
big. And he was met with a surprising amount of unpopularity.
    There is a restlessness in Russian society. We see that 
with spontaneous demonstrations against corruption, the 
demonstrations after President Putin announced he would be 
returning to the Kremlin in 2012. But I think we cannot 
misunderstand that to mean something more significant. 
President Putin has a huge challenge to manage Russia's long-
term economic decline as China grows ever more powerful and 
around it through Belton Road and through the Arctic, and so he 
is doing what he can. And even that timid effort he had to step 
back from. He does have to manage his popularity, but I do not 
think we should question that he is concerned about his next 6 
years in office.
    Senator Rounds. OK.
    Mr. McFaul. If I can say, I think, Senator, you raise a 
very important----
    Senator Rounds. Do you have your mic on?
    Mr. McFaul. Now I do. I will hit that ``talk'' button. I am 
slow on that. My apologies.
    I think you raise a really important point about a lot of 
analytic assumptions we make about decision making in Russia 
and, therefore, the impact that sanctions have on it. That to 
me underscores we need to be careful about how smart we think 
we are about how Russia makes decisions and how Putin makes 
decisions. Everybody talks about he is really popular and he is 
going to be around forever. I agree with that. In my scenarios, 
I do not see a situation in which Putin steps down or he is 
voted out of office. I do not. However, that he does fall in 
popularity--I mean, he most certainly did after he announced 
the pension reforms, and he responded--suggests that there is 
more pressure, societal pressure in that system than we give it 
credit for.
    Number two, something to remember about the popularity of 
Putin--two things to remember. I used to coach basketball for 
my sons, and I always think about Putin's popularity as taking 
my sons' JV team and playing the Warriors. Guess what? The 
Warriors are going to crush us. Is that real competition? Is he 
really popular? Is he really so much better when he is running 
against nobody? Oh, by the way, and he controls all the 
television stations and all social media and the entire U.S. 
Senate--the equivalent--and the Congress? It is not so hard to 
be at 80 percent if you have all that on your side. So remember 
that about that system.
    Number two, remember this about that system, because all 
Russians know this. You need to understand it, too. Russia is a 
highly policed State. They have incredible capabilities to 
monitor everything you do. When I was Ambassador, I assumed 
that every email I sent, every phone call I made, and every 
movement I made in my house, a beautiful house, Spaso House--
thank you for your support for helping to pay--well, not you. 
Thank you to the American citizens for helping to pay the rent 
on that--was monitored and recorded.
    So think about this. If you are sitting out in Vladivostok 
and Ivan Ivanovich calls you from Moscow from a polling agency 
and says, ``How do you think the President is doing?'' There is 
only one rational answer to that response, right? Oh, by the 
way, all the polling firms are also controlled by the Kremlin 
except for one. So I think we inflate what is going on in terms 
of Putin's popularity by not taking those things into account.
    The last thing about the oligarchs. They are not all the 
same. We use that phrase as if they are some group that we just 
would put in this room and they all have the same preferences. 
That is not true. Many of them acquired their wealth--I did not 
say ``made their wealth''--in the 1990s. Many of those are 
those that are now externally oriented and their business 
models depend on being in the international system. But as was 
pointed out earlier by my colleagues, there is another group of 
oligarchs--or, you know, I would just call them ``Putin's 
cronies''--that acquired their property rights when Putin came 
to power. And those two groups do not have the same set of 
preferences.
    I think there is a lot of tension between those groups 
around sanctions. I know a lot of major Russian oligarchs that 
think this Russia policy, Putin's policy is bad for their 
business. They are not going to come and testify and tell you 
about it, but make no mistake, there is tension among elites, 
too, about this aggressive, belligerent policy that is 
isolating Russia today.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman Crapo [presiding]. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Thank you all 
for your testimony.
    You know, I have been doing foreign policy between the 
House and the Senate for 26 years, and I have learned one 
thing: that if you are attacked and you do not respond, an 
aggressor will attack again. Does anybody disagree with that 
proposition?
    [No response.]
    Senator Menendez. So we have been attacked by Russia, and 
we have not significantly responded to that attack. And we see 
the consequences of the international community not really 
responding. We see it--Putin made a calculated decision in 
Crimea, Eastern Ukraine. He made a calculated decision in 
Syria. It is all paying off for him at this point. So he going 
to continue to make calculated decisions based upon whether we, 
the United States, the leader of the free world, and get others 
to join us in responding.
    So I am a big supporter of my colleagues' efforts on the 
DETER Act, but that is prospective. It does not deal with all 
of the other malign, nefarious activities that Putin and Russia 
is engaged in, in violating the international order that we 
helped create after World War II and that has brought peace and 
stability for the better part of three-quarters of a century.
    So the question is--and I heard in my office my 
distinguished colleague and friend, the Chairman of the Foreign 
Relations Committee, on which I am the ranking Democrat. I know 
he has a certain degree of reticence toward sanctions. We have 
had some conversations about that. But it is the only tool of 
peaceful diplomacy that we have outside of aid and trade and 
international opinion that we can use.
    So my point is that at this point we have been attacked 
through those cyberattacks. There is no question about it. We 
are in the midst of that even as we speak. We have seen the 
violation of the international order that inures to our 
detriment in terms of our own national interest and security. 
Certainly I would argue that in Syria, at least. And so we need 
to respond, and there is a reticence, I guess, about 
responding. Now, I am all for understanding how do we refine 
our response, but responding in and of itself, we have already 
taken too long from my perspective to respond.
    So I look at this, and I appreciate, Ambassador Fried, some 
of the comments you made about DASKA, which I have joined with 
Senator Graham and others in pursuing. You mentioned good ideas 
from that legislation: targeting corrupt officials and their 
family members, restricting U.S. persons from dealing in new 
Russian sovereign debt, allowing the U.S. to designate persons 
operating in the cybersector generally, and identifying 
beneficial owners in high-end real estate deals as some of the 
elements. I agree. And on the energy questions, you know, we 
can refine some of those things. But I think what we need to do 
is to act.
    So let me ask you, Ambassador Fried, I understand that you 
led the State Department's Sanctions Coordination Office in the 
last Administration before it was disbanded in 2017 under the 
Administration. What is the value of such an office at State? 
And what are we missing now that it does not exist?
    Mr. Fried. Well, I do not want to be self-serving, but the 
office principally extends the power of sanctions by bringing 
together the peoples, the Japanese, and the other major 
democracies in common cause. That is what I did. I was in the 
best possible negotiating position because when I traveled to 
Europe, I could do handshake deals at the table and deliver 
because I had the backing of the interagency, worked very 
closely with Treasury and all the parts of the State 
Department. And so we could work with the Europeans and 
actually come to common--develop a common language on parallel 
sanctions. That is helpful.
    I would bet dollars to rubles that Putin told his people 
that we would never be able to bring the Europeans along in 
common cause on sanctions. He was wrong, and he was shown to be 
wrong, which gets to Mike McFaul's point about not all the 
Russians are comfortable with where Putin taking them.
    That office was disbanded. The people doing sanctions at 
the State Department are capable individuals. They are good 
people. But they do not have the bureaucratic clout to be able 
to bring together the interagency and work with the Europeans, 
the Japanese, the Canadians, the Australians to develop common 
positions on sanctions, whether it is Russia sanctions or DRPK 
sanctions.
    Senator Menendez. Thank you.
    My time is up, but, Ambassador, I am going to submit for 
the record questions as it relates to INTERPOL. I believe that 
the Russians are abusing access to INTERPOL to suppress 
efforts, and I would love to hear your answer on that.
    Mr. McFaul. Happy to do it. Thank you.
    Chairman Crapo. Thank you, Senator Menendez.
    Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman. Thank you all for 
appearing, and, Ambassador Fried and Ambassador McFaul, thank 
you for your service. Ambassador McFaul, thank you in 
particular for serving in Russia. You gave a small snapshot of 
what it was like to be the Ambassador there, or really anyone 
who works in the embassy, and I think few Americans realize 
what a hostile and adverse environment it is.
    Ambassador McFaul, you said, if I heard you correctly, that 
you do not see much hope for a change in Russian behavior as 
long Vladimir Putin remains President. That seems to have 
escaped most recent Presidents. The stories of Bill Clinton's 
late-night interactions with Boris Yeltsin are legion and 
legendary. They tried to get off on the right foot with 
Vladimir Putin in the late 1990s. Of course, George Bush looked 
into President Putin's soul and got a sense of--looked in his 
eyes and got a sense of his soul. Barack Obama had the Russian 
reset, and President Trump has tried to repeatedly have a 
better relationship with Vladimir Putin.
    Why does that always come a cropper no matter what the best 
intentions of Presidents of both parties?
    Mr. McFaul. That is to me?
    Senator Cotton. Yes, it is.
    Mr. McFaul. Well, I would say two things. One is it is not 
continuity over that 30-year history. I want to emphasize that. 
There have been times in the U.S.-Russia relationship where it 
has been genuinely cooperative. No one should mix up what we 
did with the Russians in the 1990s, cooperative things we did 
with them, versus where we are at today. It has to do, as 
Ambassador Fried said, with the nature of the regime changing, 
becoming much more autocratic, and it is not a spurious 
correlation that when countries become more autocratic they 
become more belligerent toward liberal democracies like 
ourselves. That is true.
    Under Putin, it is more autocratic than ever before. It is 
more repressive than ever before. And as said in my opening 
remarks, these are criminal activities. I just want to 
associate myself with the way Senator Menendez described it.
    And, by the way, a lot of these things never happened even 
during the cold war. Annexation did not happen during the cold 
war. Assassinating people in foreign countries using chemical 
weapons, maybe that--I do not think that happened in the cold 
war. A lot of this stuff goes well beyond--violating American 
sovereignty during a Presidential election, that did not happen 
during the cold war.
    So I want to underscore I think we are in a fundamentally 
new place. I recently wrote a book about this history, and the 
last chapter is ``No More Resets''. I am intimately familiar 
with the resets, as Ambassador Fried knows. No more resets 
while Putin is in power, and we need to not think that we can 
go back to that.
    So my strategy is--I think there is a lot of agreement 
here--we need to contain belligerent behavior through some of 
the legislation that is here, and when we can, in very narrow 
sets of interests, cooperate where it is in America's national 
interest, just like we did during the cold war, by the way.
    So, for instance, most of Helsinki I think was a complete 
disaster. And, by the way, when people say the President's 
words do not matter, those words mattered to me because it was 
about me and my personal safety. So that notion that he can 
just say things and the policy chugs along, I disagree with 
that. I think his words have consequences for our Russia 
policy, and I dare say Syria and other things. But----
    Senator Cotton. Mr. McFaul, if I could reclaim my time.
    Mr. McFaul. Sure, please.
    Senator Cotton. The only thing I have in response to what 
you said, with which I largely agree, is that they have taken 
some steps beyond what happened under the Soviet regimes, but 
most of the techniques remain the same: assassination, 
disinformation, subterfuge, so on and so forth.
    Mr. McFaul. I disagree, Senator. I do not----
    Senator Cotton. So they had not targeted a Presidential 
election perhaps, but they----
    Mr. McFaul. Yes, that is new.
    Senator Cotton. ----did target, though, for instance, the 
deployment of mid-range nuclear missiles to Europe in 1983, we 
now know.
    Mr. McFaul. That is true.
    Senator Cotton. I want to read something into the record. I 
think it is very important. It goes back a little bit earlier 
than most reports. It is ``Democracy in America.'' So the last 
page of the first book of ``Democracy in America,'' which was 
written 100 years before the cold war started, concludes like 
this: ``There are two great peoples on the Earth today who, 
starting from different points, seem to advance toward the same 
goal. These are the Russians and the Anglo-Americans. Both have 
grown larger in obscurity, and while men's regards were 
occupied elsewhere, they have suddenly taken their place in the 
first rank of Nations, and the world has learned of their birth 
and of their greatness at the same time. All other peoples 
appear to have nearly reached the limits that nature has drawn 
and to have nothing more to do than to preserve themselves. But 
these two are growing. All the others have halted or advanced 
only with a thousand efforts. These alone march ahead in an 
easy and rapid pace on a course whose bounds the eyes cannot 
yet perceive. The American struggles against the obstacles that 
nature opposes to him. The Russian grapples with men. The one 
combats the wilderness and barbarism; the other, civilization 
vested with all its arms. Thus, the conquest of the American 
are made with the plowshare of the laborer; those of the 
Russian, with the sword of a soldier.''
    ``To attain his goal, the first relies on personal interest 
and allows the force and the reason of individuals to act 
without directing them; the second in a way concentrates all 
the power of society in one man. The one has freedom for his 
principal means of action; the other, servitude. Their point of 
departure is different. Their ways are diverse. Nonetheless, 
each of them seems called by a secret design of providence to 
hold the destinies of half the world in its hands one day.''
    That suggests that the tension and conflict we have with 
Russia go a lot deeper than any one American or Russian 
administration, and the sanctions response and policy responses 
we have discussed here are all meritorious and should be 
pursued to the greatest extent. I do not anticipate much change 
in Russian behavior either, Mr. McFaul, but we can draw a set 
of boundaries to increase the cost for that behavior and 
hopefully deter it.
    Thank you.
    Chairman Crapo. Thank you, Senator Cotton.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. And I agree with a 
lot of the comments made by my colleague from Arkansas. It is 
great to see the whole panel, but particularly you, Ambassador 
McFaul. Thank you for your great service.
    One of the things, I do want to go back a little bit to the 
Helsinki episode. What I have seen from Congress is one of the 
few times we have truly been unified in terms of sanctions 
against Russia. What I have actually even seen from most of Mr. 
Trump's appointees in the intel community and the defense 
arena, uniform agreement that Russia attacked us, that they 
will be back to attack us again, and this is an ongoing threat.
    Through pure happenstance, Senator Rubio and I had engaged 
with the Atlantic Council to bring together parliamentarians 
from European countries to talk about Russian interference in 
their elections, through both cyber and misinformation/
disinformation. And through pure happenstance, the day we 
gathered was the day that Donald Trump and Vladimir Putin were 
meeting in Helsinki. So we had Ukrainians, Estonians, 
Lithuanians, Swedes, Brits, Canadians, Italians, Czechs, 
Poles--I am going to leave off some, but 15 to 18 countries, 
all who were recounting episodes similar, in some cases in 
Eastern Europe even more sophisticated than techniques used 
against our country. These fellow parliamentarians were aghast 
when they saw in a sense the de facto leader of the West kowtow 
to a Russian President.
    So to your point, Ambassador McFaul, as somebody who served 
in Russia, what kind of message do we send, even when we have 
unity in Congress, even when we have most of Mr. Trump's 
appointees recognizing this is a threat, even when we have 
clearly, as Dan Coats has indicated, all 29 Nations of NATO 
have been interfered with by the Russians, when we have a 
President of the United States that seems to ignore this 
threat, not acknowledge it, and, frankly, I would argue, 
embarrass our country on the world stage by kowtowing to a 
Russian despot?
    Mr. McFaul. You want me to answer that?
    Senator Warner. Yeah.
    Mr. McFaul. And I want my colleagues to--I will try to be 
briefer than I have been, which is to say it is not in 
America's national interest. It is just that simple. I looked 
at that performance, and I wanted--you know, I asked myself the 
question. I was in Helsinki. I work for NBC, so I was there 
covering it. What American national security interest was 
advanced by that summit?
    I am not against engagement, by the way. That is what I 
wanted to say to Senator Cotton. When we engage with Soviets 
and we engage with autocratic regimes and enemies when it is in 
our national interest, sometimes to push back on them, and 
occasionally to cooperate. The one thing that Putin said at the 
summit, by the way, that I agree with him--and Putin and I do 
not agree on much--is that we should extent the new START 
Treaty. I think that is in America's national interest, and you 
can only do that when talking to the Russians. But nothing else 
was advanced. And that should be the criteria that all meetings 
are judged by. What American national interest was advanced? I 
did see very many in that Helsinki----
    Senator Warner. Well, let me try to get a question in for 
Ms. Conley. I think in your testimony you also indicated if we 
ramp up--and I support, for example, Senator Van Hollen's and 
others' efforts on the DETER Act. If we ramp up, though, one of 
the things we have learned is that the Russian ability to 
interfere in our elections, to use misinformation and 
disinformation, is both effective and cheap. We did kind of 
from the intel side a back-of-the-envelope evaluation and said 
if you add up all the costs that Russia spent interfering in 
our elections, in the French Presidential elections, and as 
increasingly clear, in the Brexit vote, you add that all 
together, it is less than the cost of one new F-35 airplane. So 
this challenge is not going to go away.
    I think you made a comment about heightening and making 
sure that we continue to upgrade our election security. In a 
normal White House with this kind of happening, there would be 
someone designated on election security coming out of the White 
House, because that is the only place where you can convene our 
local, State, and Federal officials. And instead we have people 
kind of running off half-baked, well-intentioned but without 
that leadership.
    What should we do? And if you can also comment on a more 
specific area I think you raised as well, and that is--and I 
appreciate the Chairman and the Ranking Member on this. If we 
are going to take on AML reform, one of the areas where we can 
find those oligarchs' funds is the question around beneficial 
ownership. So election security and beneficial ownership, 
please.
    Ms. Conley. Yes, absolutely. Thank you. This is where I was 
speaking about prioritize. Nothing can be more important than 
defending our democracy, and that is exactly what the Russian 
Government would like to erode confidence and credibility in. 
It has to be first principle.
    If the White House and the President will not lead, what we 
are going to have to do is a substitute, which is, as best we 
can stitch together, a whole-of-Government effort. I do not 
think we are organized or fit for purpose for this. If this 
were a normal situation and our country was attacked the way it 
was in November of 2016 and before that, we would have created 
a 9/11 Commission. We would have looked at the structural 
impact, and to bring fusion centers or whatever it is, we did 
none of that. And we are structurally not organized to combat 
this. What the Russians are doing is going through our 
strategic seams, domestic through international, State and 
Federal. Whatever that division line is, they are finding it 
cheaply, and they are pulsing it.
    This is on us. This is less about Russia, and it is more 
about the United States getting its act together, strengthening 
its institutions, and prioritizing this. We just do not have 
the perfect situation, unfortunately. But that is not an 
excuse.
    Senator Warner. My time is up, but I just want to mention 
that there is bipartisan legislation that is not going to solve 
everything, but an Election Security Act. And I sure wish that 
this Senate, that the Majority Leader would move that 
legislation, because I believe it would get 75 votes.
    Thank you, Mr. Chairman.
    Chairman Crapo. Thank you, Senator Warner.
    I will take my question time now. I want to follow up on 
what you just said, Ms. Conley. It seems to me, first of all, 
that there is sort of a consensus in the room that there is an 
opportunity here to increase sanctions on oligarchs and have 
some effect. But before I get to that question, you just seemed 
to talk about some kind of a structural change of our approach. 
Could you describe that a little better?
    Ms. Conley. Yes, sir. Thank you. What strikes me--and this 
appears in legislation, whether we return the Sanctions Office 
to the State Department or put something--we are doing things 
on the margins. This takes a whole-of-Government effort. Where 
my argument is, our research is focused on Russia's economic 
influence and then its political influence. So you can tell 
from my focus on that.
    In some ways our tools lie in different places, which is 
why we have had the Senate Banking Committee, the Senate 
Judiciary Committee, the Senate Foreign Relations Committee, 
the Armed Services Committee--everyone has a piece of this. 
This is a full spectrum that goes from military operations to 
social media and disinformation. It is hard to get your arms 
around, and we are not organized to do this.
    After 9/11, we started reorganizing ourselves because we 
found we were not fit for organization. We have to do the same 
thing on malign influence. It is Russia today. It will be China 
and other adversaries tomorrow. They are watching this 
playbook, and they are taking notes. This is about getting 
ourselves organized for a sustained campaign of malign 
influence by our adversaries, because we are most--as 
democracies, we are most vulnerable when our institutions do 
not work, we are partisan, and we do not have a unified whole-
of-Government effort. I encourage perhaps in the next Congress, 
if possible, to think about the structural differences and to 
put forward a new thought process of oversight as well as 
Administration organization to combat effectively adversarial 
malign influence.
    Chairman Crapo. So have you got a suggested plan?
    Ms. Conley. I can come up with one, Mr. Chairman. I think 
think tanks should be part of that conversation, just like the 
9/11 Commission. Create a high-level bipartisan panel to think 
through those structural impediments.
    Chairman Crapo. I would appreciate your further input on 
that. I think that is a very insightful comment.
    One last question that will probably use up the rest of my 
time, and I put this question out to whoever on the panel would 
like to respond. But it seems to me from what I have heard so 
far that sovereign debt and increased focus on oligarchs are 
two areas which seem to have some broad support for us to look 
at further ratcheting up our responses.
    With regard to oligarchs, are there oligarchs closer to 
Putin whom we have not targeted? Has anyone considered or 
suggested whether sanctions should be imposed against Putin 
himself? Could you, any of you who wish, respond to the general 
question of what does it mean when we say we should have an 
increased focus on oligarchs?
    Mr. Fried. First, I would differentiate, as Ambassador 
McFaul said, between oligarchs. They are not all equal. Some 
are closer to Putin; some are independent of Putin.
    The CAATSA study produced a classified report of those 
oligarchs who are particularly close to Putin. It is 
classified. I have not seen it. But by all accounts, it is a 
first-rate study. It was done by the pros. The Administration 
mishandled the public rollout, but no matter. That is a good, 
that is a solid document.
    Second, one of my favorite provisions in the draft DASKA 
bill is the mandated study of the sources of Putin's wealth. So 
if you put those--if that passes and we have a study of Putin's 
wealth, then we can cross--then the Administration can cross-
reference that with the Putin-connected oligarchs, and you have 
a pretty good target set of people. They are there. There is no 
question that we could escalate the sanctions and put pressure 
on Putin. And the fact that it bothers him is demonstrated by 
the lengths he went to to get the Magnitsky Act repealed. The 
Magnitsky Act, as it turned out, targeted people close to 
Putin. We did not know it at the time, but it bothered him. His 
anxiety suggests opportunity and leverage for us to push back.
    Chairman Crapo. All right. Thank you very much.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    First, a question for the panel. We know that Russia has 
interfered in elections among our NATO allies, and to both 
Senator Corker and Senator Warner's point, it is working, it is 
cheap, and it is asymmetrical in the sense that we cannot 
exactly invoke Article V over cyberinterference. Interfering 
with vote counts would be another matter. Interfering with 
critical infrastructure would be another matter. But just 
messing with an election process, we are in a position right 
now where we do not know really know how to respond except 
kinetically, which is a vast overreaction. And so I am 
wondering whether there is a space here short of invoking 
Article V to work on, in a sanctions package, some kind of 
response to interfering with electoral processes, especially 
among our allies. And I will start with Ambassador McFaul and 
try to go down the line.
    Mr. McFaul. First, again, I just want to underscore I like 
the conceptual idea of prospectively saying if you do this, 
this is what will happen to you. I think that is the first 
thing I would start with.
    But, number two--and I said it at the end of my remarks, 
and I write about it in the testimony--there has got to be more 
instruments of power, right? So high on my list is resilience, 
like with all due respect, we have done next to nothing as a 
country to increase the cost and to defend our election 
infrastructure. I actually do not think we are going to see big 
violations of it in 2018. If we have time, I will go into why. 
But the capacity is still there. That should be number two.
    And, number three, we are wrestling with it--and I know you 
wrestled with it, some of you wrestled with it yesterday with 
some folks from where I lived, but what is the balance between 
our national security interests and our First Amendment? What 
do we do with--let me just make it really concrete. When 
Sputnik International, a company 100 percent controlled by the 
Kremlin--it was actually started by a friend of mine. I know it 
well. When they tweet out ``Crooked Hillary''--that is what 
they did in 2016--is that the press expressing themselves or is 
that a violation of American sovereignty? And I do not think we 
have wrestled appropriately with that question. I like the 
progress we have made, and I think some of the things that both 
Google, Facebook, and to a lesser extent Twitter have done--
well, actually Twitter, too. They have all done some things 
that are moving in the right direction in terms of at least 
information about where this comes from. So RT is incredibly 
popular on YouTube. They know how to do that well. There is a 
little information thing. But that balance I think needs to be 
the third component of how to get it right before 2020.
    Senator Schatz. OK. Ambassador Fried, let us focus on NATO 
and what we can do sort of inbetween kinetic and nothing.
    Mr. Fried. I agree with Ambassador McFaul, prospective 
sanctions, putting your escalation in the window and letting 
them see what you are prepared to do is a good idea. That is 
what I like particularly about the DETER Act, its focus.
    Second, there is plenty of room to use sanctions against 
bad cyberactors. If you talk to European Governments, a lot of 
them are angry about the Russian electoral interference. I am 
convinced that there is a constituency out there for common 
action with us.
    I was in Madrid recently. They are not happy about the fact 
that the Russians were messing around in the Catalonia 
referendum. That is another particular for us to make common 
cause instead of bashing the Europeans.
    Senator Schatz. Thank you.
    Mr. Fried. Second, in the disinformation space, it is a 
false choice to say we have to go after--weaken the First 
Amendment to go after disinformation. That is nonsense. The 
Honest Ads Act and other forms of transparency requirements 
would actually help expose Russian disinformation. The 
Administration--this is what Heather Conley said, and I agree 
completely--ought to organize itself and probably have--just as 
we developed after 9/11 an interagency counterterrorism center, 
we ought to have a counterdisinformation center. That center 
should also be working with the Europeans, who are moving 
forward in this space while we are doing whatever it is we are 
doing.
    Senator Schatz. I am going to run out of time. I will take 
the next two answers for the record because I wanted to say to 
Ambassador McFaul, first of all, we stand with you, and we did 
that with our bipartisan resolution. I know there are 
continuing concerns for you and your safety and the misuse of 
the INTERPOL process with Russia-friendly regimes. If there is 
anything that the U.S. Senate or the U.S. Government could be 
doing that it is not doing, I want you not to hesitate to 
contact any or all of us instantly, because your safety is 
absolutely essential in terms of respecting your public 
service, but also in terms of our geopolitical position. So 
thank you for your service. We are sorry for this difficulty, 
but we certainly stand with you.
    Chairman Crapo. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    First, let me thank the panel not only for your comments 
today but for your extraordinary service to the Nation in so 
many ways.
    Ms. Conley, I agree with you, we are not organized, et 
cetera, but let me focus on the upcoming 2018 election. We are 
looking at it in terms of preparing our electoral system, 
avoiding disinformation, making sure of the integrity of the 
vote. There is another effect, though. I think the Russian 
approach is to constantly keep us upset, confused, et cetera. 
Whatever happens in the election, my sense is they have a plan 
to exploit that. So there could, in fact, be a situation where 
they would question through disinformation the integrity of the 
vote, whether people voted, whether illegal people were voting, 
et cetera, et cetera, et cetera.
    One, and I will start with the Ambassador, how credible is 
that? And, two, it goes back to the point that Ambassador Fried 
made, that we would need someone with authority and facts to 
stand up almost immediately on election day or the next day and 
say, ``No, we verify the accuracy of the vote.'' The worst 
thing for us would be to have that message trumpeted by figures 
in the United States.
    So with that prelude, your comments, Mr. Ambassador.
    Mr. McFaul. Let me be brief so I can get everybody else in. 
I think those are very appropriate concerns, and I think it is 
a good reminder that the Russian strategy is a very 
sophisticated strategy. It is not just about helping one 
candidate or the other. It is about exacerbating polarization 
already in our society. To me, the research on that is as clear 
as day, and that we are divided and fighting amongst ourselves 
and talking already about whether the elections are legitimate 
or illegitimate. Those are all wins for Vladimir Putin.
    I also think, at least as a hypothesis, that he may sit the 
next electoral cycle out so that we all are complacent and we 
all say, ``Oh, sanctions solved it. They are afraid of our 
sanctions. We do not have to do any of these other things that 
we were just talking about.'' That is one of my greatest 
concerns, and then we just all forget about the things we are 
talking about and we do not do anything. And then 2020 comes 
along, and in 2020 my greatest fear is not about Crooked 
Anybody, that that will happen. My greatest fear is exactly to 
your point about them questioning the integrity of the election 
and somehow being an actor in the integrity of the election. 
And all it takes is a few thousand votes where people say, 
``Hey, this did not work the way it was supposed to,'' and we 
have got a big crisis on our hand in terms of the integrity of 
our democracy. And it is very, very easy to do, and we have not 
done--we have done next to nothing to prevent it from 
happening.
    Senator Reed. Ambassador Fried, other comments?
    Mr. Fried. I agree with what was said. I think that we face 
a challenge, but we have the tools to combat it if we focus.
    Senator Reed. Thank you.
    Ms. Ziemba.
    Ms. Ziemba. Yeah, I think the important thing to stress has 
been the broader damage to the institutions and the question 
that I would be less concerned--I think echoing what Ambassador 
McFaul was saying, in some ways I might be less concerned about 
direct Russia standing up and statements around the results and 
more about what we might see at home. And I think taking that 
sort of dynamic and continuing to build back up respect for the 
institutions that are protecting our democracy is very 
important. So there is the work that we can do to make sure we 
are targeting Russian resilience, but I do think what is coming 
out here is what we need to do at home.
    The other challenge, I think, more generally--and just to 
echo what has been talked about--we can look at examples 
throughout Europe of the ways in which Russia took advantage, 
and China to some extent, but especially Russia took advantage 
of divides within countries. And that is where I think one of 
the things I liked in the DETER Act was the emphasis on working 
with European allies.
    Now, the details of that obviously we do not have time to 
go into at this point, but I think that is very important. 
Thank you.
    Senator Reed. Ms. Conley, there are a few seconds left.
    Ms. Conley. Yes. Russia is constantly adapting its tools. 
They will look less Russian and more American and to be more 
divisive, and we have to be very vigilant on that.
    The second question, I think, on the cyberimpact, the 
Russians follow our political system very closely. They know it 
is a handful of swing States and a handful of swing counties 
that sometimes can determine. If there is, I think, a focused 
penetration of cyber, it will be in those swing areas, and I 
think that we have to prioritize those critical areas for 
cyberprotection of our election infrastructure.
    Senator Reed. Let me thank you, but just a final point. I 
think even though in 2018 they might take, as the Ambassador 
suggested, a timeout so they can get really ready for 2020, I 
think we have to be ready--and we are not--to have someone when 
the polls close everywhere be in a position to verify the 
accuracy of the vote from a standpoint of a credible source, 
because I think they will not miss the opportunity and it will 
be echoed by some people in the United States, maybe they will 
echo people in the United States, that this was not fair, that 
the votes were not counted right, et cetera, and we could have 
a huge problem in 2018 if we do not today identify that person 
in the Administration who will stand up and said, ``I have 
validated these. Every Secretary of State has reported in. We 
had no problems.''
    Chairman Crapo. Senator Warren.
    Senator Warren. Thank you. Thank you, Mr. Chairman, and 
thank you to all of our witnesses.
    Ambassador McFaul, I am very sorry about the threats that 
you have had to endure. I assure you Congress has your back. 
You were our Ambassador in Moscow, and it was your job to deal 
with an increasingly aggressive Russia. We do not permit other 
countries to punish our diplomats for doing their job.
    You know, President Trump seems to love photo ops with 
dictators and summits that do not produce real results. In a 
recent article, you wrote that the Trump administration 
``should not pursue engagement as an end in itself. Good 
relations with Russia or a friendly summit with Putin should 
not be the goal of U.S. diplomacy, but the means to achieve 
concrete national security ends.''
    So, Ambassador McFaul, briefly--because we are limited for 
time--when it comes to our relations with Russia, is the Trump 
administration making enough progress on the most urgent 
national security goals?
    Mr. McFaul. First of all, thank you for your initial 
remarks, and I just want to remind everybody that I was not the 
only one on that list. I was there with a dozen other U.S. 
Government officials and one staffer up here, Kyle Parker, and 
they were Democrats and Republicans. So, remember, this is 
about us all. But I really appreciate the support. I did in 
July, and it made a difference most certainly. More work to do 
on INTERPOL if we have time on that, but I will come back to 
that in a minute.
    My general answer is the Administration I think is doing a 
pretty good job. Just the President of the United States does 
not seem like he supports their policy. And that has 
consequences for the policy. It is not just they can do 
everything on their own and then the President will not mess it 
up, and we saw that in Helsinki. When Putin came out and set 
him up to create this false moral equivalency between the 
people that Mr. Mueller indicted and the 11 or 12 of us that 
Putin put on, and he said it was a great idea, that is not 
advancing America's national interest. And so I think 
generally, you know, if I were advising the President, I would 
say just focus on one thing to get done, and, you know, new 
START Treaty, extend it. And then do not do all the other 
stuff, because I honestly--thank you for quoting my article. I 
learned that from George Shultz, by the way. I do not want to 
take credit for that idea. He is a colleague of mine at 
Stanford. But I think he just does not understand that. I think 
he defines so many bilateral relationships, not just Russia, as 
getting along with the leader. Mostly they are autocratic 
leaders he is concerned with, and that in my view does not 
serve America's national interest.
    If there was a deliverable out of Helsinki and, you know, 
if he actually was friendly to Putin and he said, yeah, OK, I 
am going to get out of Eastern Ukraine, then I would celebrate 
it. But I see no evidence of that strategy succeeding.
    Senator Warren. Well, you know, Congress wants to push 
harder against Russia. Last summer, we overwhelmingly passed 
tougher sanctions on Russia, and over a year later, the Trump 
administration has not implemented seven mandatory sections of 
this Russia sanctions law.
    Ambassador McFaul, do you believe there is any legitimate 
excuse for the Trump administration's failure to follow the law 
and to implement mandatory Russia sanctions that were passed by 
this Congress?
    Mr. McFaul. No.
    Senator Warren. You know, I think you are right on this, 
and you rightly point out that President Trump's own National 
Director of Intelligence said publicly that Russia keeps trying 
to undermine our electoral process, our energy grid, and other 
critical infrastructure. On the same day that President Trump 
signed the Russia sanctions law last year, he said, ``It 
disadvantages American companies and hurts the interests of our 
European allies to enforce these sanctions.''
    So let me pose that as a hypothetical here. Ambassador 
McFaul, in the long run, which hurts American companies and our 
European allies more--the Russia sanctions law passed 
overwhelmingly by Congress or Russia's cyberattacks, 
disinformation, and other destabilizing activities?
    Mr. McFaul. I think that is a great way to think about it, 
because we never do--we do not think about the nonevents from 
our successful activities.
    For instance, back in 2014, Putin had other ideas. He 
wanted to take all of a place called Novorossiya, and first and 
foremost, Ukrainian soldiers stopped that idea. But maybe 
Ambassador Fried's work had something to do with that as well. 
If we did not take those actions, things would be a lot worse, 
and I think that is a really important concept to think about 
the negative--including economic consequences. You know, I got 
lots of phone calls from lots of people who do business in 
Russia in anticipation of this hearing, as you can well 
imagine, and I like this argument that in the long run this 
could be more costly to us all if we are in a confrontation. So 
remember the nonevents that we do not know that maybe we are 
deterring that are beneficial to us and Europeans.
    The last thing I would say, I am sorry, you cannot have 
effective sanctions with zero cost for the ones that are 
implementing sanctions. I do not know of a case in history that 
there were effective sanctions that did not somehow affect 
those that are doing the targeting. That is part of doing it, 
and you have to do that in the national interest, not just the 
individual interest of one company or one individual.
    Senator Warren. Thank you. You know, Congress can only do 
so much to confront Putin. We need a strong leader in the White 
House who clearly understands this threat and is willing to 
confront it. And right now we do not have one.
    Thank you.
    Chairman Crapo. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Thank you and 
the Ranking Member for having these hearings. I know he is not 
here anymore, but I want to thank Senator Corker, Chairman of 
the Foreign Relations Committee, and Senator Menendez. They had 
hearings, as Senator Corker mentioned, yesterday with some 
witnesses, including Ambassador Nick Burns, who worked on a lot 
of these issues, and the President of the Council on Foreign 
Relations, Richard Haass. So I think it is really important 
that both the committees, all committees be working together, 
along with the Intelligence Committee, Senator Warner and 
others.
    I want to thank all of you for your testimony, and, Ms. 
Conley, you pointed out that we have a lot of things we want to 
focus on when it comes to U.S.-Russia relations, but we do have 
to prioritize. And I do agree that priority number one needs to 
be defending the integrity of our democracy and our election 
system as we continue to pursue those other issues. And that is 
exactly why Senator Rubio and I introduced the DETER Act, 
because we heard testimony from Secretary Pompeo in the Senate 
Foreign Relations Committee that we have clearly not deterred 
Russian efforts to interfere in our elections. The Trump 
administration national security team, everybody other than 
President Trump himself, has been very clear that the Russians 
continue to try to interfere. And the idea behind the DETER Act 
is simply to say up front and in advance to Vladimir Putin, 
``If you cross this threshold, you will face these penalties.'' 
Deterrence has been part of our strategy when it comes to, you 
know, our military strategy against the Russians, and that is 
why we introduced this.
    Ambassador McFaul, thank you for your service and for your 
testimony today in support of the DETER Act. Could you just 
elaborate a little bit more on your experience with Putin and 
why you believe that if you say up front here is the price you 
will pay if you engage in that conduct, that it probably has a 
better chance of success than if you after the fact take action 
where for him there is no way he can necessarily change his 
behavior to get out of it?
    Mr. McFaul. Well, again, I do not want to exaggerate my 
interactions with him. I have been in summits with him a half-
a-dozen times. I met him first in the spring of 1991, so we go 
way back. I would not say we are exactly Facebook friends right 
now.
    I think it is very hard for him to move back from a 
position. I mean, you just alluded to it. He is a very stubborn 
guy that way. He is going to lose face, and he will dig in. And 
I am very struck by even in the moment of euphoria--at least in 
Russia there was euphoria about a new beginning with President 
Trump--he has not done one thing for U.S.-Russia relations to 
help out President Trump. To my mind, not one single positive 
thing in U.S.-Russia relations. I could give you half-a-dozen 
he could have done to help that. He has not done that. So that 
is not the way he behaves. He expects us to lose interest, us 
to fade away, our European allies--I just want to associate 
with what everybody else said. Nothing we do is any good if it 
is not with them.
    Whereas, the other way around, the prospective this is what 
will happen if he does this, that creates tension within his 
inner circle, within his Government. It creates an opportunity 
for deliberation about cost-benefit analysis behind closed 
doors that I think gives more prospect of a positive, in terms 
of our interest, deterring him. And I think ``deter'' is 
exactly the right word.
    Senator Van Hollen. Ambassador Fried, you and I have 
talked. We are in the process of having discussions on Capitol 
Hill between Republicans, Democrats, and others about changes 
that we can make obviously to the DETER Act. No bill is perfect 
as introduced, and Senator Rubio and I are very open to making 
those changes. But could you also comment on the overall sort 
of structure of the DETER Act, laying out these clear, bright 
lines? As you pointed out, President Putin needs to know that 
we believe what Trump's national security advisers have been 
saying, and that we should not let President Putin think he 
can--I think you said ``sweet talk''--sweet talk President 
Trump. And the way to do that, as Ambassador McFaul says in his 
written testimony, is for the Congress and President Trump to 
``sign into law preemptive sanctions that would trigger 
automatically in response to future malign behavior,'' 
including election interference. Do you support that overall 
structure?
    Mr. Fried. Just as Mike McFaul said, I like the notion of 
hanging out the prospective sanctions. I think that works as a 
deterrent. Senator Menendez had a point when he said, look, the 
Russians have already done bad things. So then the challenge is 
to sort out the different tools we have to put pressure on the 
Russians because of their various tracks of malign behavior.
    So where do we want to increase the sanctions now? Where do 
we want to hold sanctions back for future, you know, 
prospective malign behavior? That needs to be sorted out, and 
we have to think it through in a disciplined way so that there 
is clarity. Easier said than done. But I like the DETER Act's 
focus. I like a lot of the individual sanctions provisions in 
DASKA. And I am cognizant of the fact that for Ukraine you both 
want to deter future bad Russian actions, but you also want to 
increase the pressure on Russia so that they fulfill the terms 
of Minsk, because that is a decent framework for a solution.
    Now, that is complicated stuff, and it is made more 
complicated by the fact that we do not--that the Administration 
cannot hold to a consistent line on Russia policy mainly 
because of, frankly, the President, not because of the people 
in the Administration. But that undercuts the value of what the 
Congress is trying to do. So hard but not insolvable.
    I am also heartened by the fact that so many of the actors 
in Congress, in the Administration, and outside are basically 
moving in the same direction trying to do the right thing.
    Senator Van Hollen. Thank you. And it is complicated, but 
here is what is simple and straightforward: As you all have 
said, if we do not take action and we do not make it clear what 
the consequences of action are, they are going to run all over 
us. And so we better do that sooner rather than later.
    Mr. Fried. Yes, sir. I agree.
    Chairman Crapo. Senator Jones.
    Senator Jones. Thank you, Mr. Chairman.
    Ambassador McFaul, let me add my appreciation for 
everything, and I was glad to be at least part of your--I did 
not join the Senate until January, but I was glad to be part of 
the Senate resolution with your support and the others. And I 
appreciate everybody for being here today.
    Ambassador McFaul, I want to go back a little bit because I 
wanted to go where Senator Reed and you went earlier, and that 
is about whether or not we are really going to see a lot of 
interference in these elections.
    We have got two sets of sanctions. Crimea and Ukraine are 
one set. But everybody is concerned about 2018, and my real 
concern is that they are just going to lay low and declare 
victory by laying low and we do not do anything.
    What is it that we can do right now in which we start 
preparing for the possibility that there is only a small amount 
of interference that we do not see a whole lot and that this 
Administration can then say, ``See what we have done,'' and 
that we let our guard down for 2020? Which I think is the more 
important election that the Russians will focus on. What can we 
start doing now in this Congress to try to make sure that we 
inoculate ourselves from that possibility as well as a 2018 in 
which we have got all manner of interference as obvious as it 
was in 2016? And anybody can answer that, by the way.
    Mr. McFaul. I will go first, but I will try to be quick. 
Number one, I want to underscore it is a hypothesis I have 
about Putin. I do not know it to be true, but I am worried 
about it because of complacency. And so to me there are four 
elements, but let me just focus on three.
    One, I think the DETER Act is a great way to get ready for 
2020 so that they can have a deliberative idea about whether it 
is worth it or not to get involved to the same extent they did 
in 2016. And I think that will be a bigger, more healthy 
debate, because I know of people around Putin--not in his inner 
circle--that do not think that that intervention was such a 
great thing for Russia's long-term national security interest 
and economic interest.
    Number two, resilience, we have talked about it. I 
completely agree with what my colleague said. We missed an 
opportunity to have a 9/11-like Commission and to have a whole-
of-Government, and all the things we did after September 11th 
we should have done after 2016. That boat has left. But focus 
on resilience for 2020. Basic things, really basic things like 
paper ballots, dual authentication for anybody that works on a 
computer that counts votes. I do not need to go through the 
list, you know them, but they are really, really basic.
    We have people working on these things at Stanford to test 
them, and they are frightened by how little has been done.
    Senator Jones. So we do not let up.
    Mr. McFaul. We do not let up, no. We have got a lot of work 
to do on the resilience.
    Senator Jones. And I completely agree, it is a total 
hypothesis. But everything that I have heard from everyone here 
and in my time in the Senate is that Putin is very 
opportunistic, and if he sees an opportunity to lay low for a 
little bit in order to get sanctions relieved or not have 
anything down the road, I think he will do it.
    But let me go real quick, because we have alluded to it a 
couple times. As an old prosecutor, I would like to just go 
ahead and get it on the record. Let us talk a little bit about 
the abuses at INTERPOL and are there things that we could do in 
this Senate right now that we could strengthen that up? But I 
would like to just go ahead--we have talked about it, and we 
have talked around it. What is going on and what can we do? 
Anybody.
    Mr. McFaul. Well, I have become a big expert on INTERPOL 
lately, not by choice, and what I would just say is there are 
many countries in the world, not just Russia--they tend to be 
autocratic countries--that abuse the INTERPOL system, and they 
do not do red notices, by the way. This is what I have learned. 
They use this diffusion system, which is a lot--it is easier to 
do. It is bilateral, and, therefore, it is much harder for--it 
does not go through Lyon. And using that for political 
purposes--usually, it is against, you know, opposition leaders. 
You know, it is usually against Ukrainians, by the way, and not 
many Americans. But more attention to that, and just say, you 
know, Russia needs to be kicked out of INTERPOL. That is one 
thing one could say if they continue to abuse the INTERPOL 
system. I like the language that is in Section 707 to say that 
there will be sanctions about it.
    But, third, it really has to be the Administration, a very 
strong message to Vladimir Putin that says, ``If you ever stop 
any of our people in any third country, just even for a couple 
hours, there will be consequences.'' And then say to those 
third countries that participate in this schema that there will 
be detrimental relations in our bilateral relationship, right? 
Both of those need to be targets of our diplomacy to stop this 
abuse. And it is not just Russia, but Russia is a major abuser 
of that system right now.
    Senator Jones. All right. I think my time is up. I 
appreciate it. I may have some more, Mr. Chairman, for the 
record.
    Let me say given Russia's ability to produce misinformation 
in this country, you might want to go ahead and check your 
Facebook page. You may very well be friends with Putin today.
    [Laughter.]
    Mr. McFaul. Good point.
    Senator Jones. Thank you, Mr. Chairman.
    Chairman Crapo. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman. I would like to 
thank all the witnesses for your service to the country. 
Ambassador, thank you for everything you have done for our 
country and for all of those people that you talked about. 
Please know--and I know that it has been mentioned before--we 
are on the same team, and we have your back.
    Mr. McFaul. Thank you.
    Senator Donnelly. And we will continue to do so. For 
anybody who is listening, please know we have his back.
    The first tranche of mandatory sanctions for Russia's use 
of chemical weapons in the U.K. has recently been imposed. A 
stronger round of sanctions that potentially includes further 
export and import restrictions, a downgrading or a suspension 
of diplomatic relations, and a termination of landing right is 
supposed to take place in just under 3 months.
    This goes for all of you. Are any of you aware of any 
efforts within the Administration to discuss this issue with 
Russia?
    Mr. Fried. I cannot speak from direct knowledge, but I 
suspect that the Administration has tried to have a dialogue 
with the Russians. I think that the Russians would have blocked 
it and it will go nowhere. That is a pretty safe prediction. So 
I think we will end up with the Administration grappling with 
the second tranche of sanctions under the CBW Act.
    Senator Donnelly. What is your opinion on how the Russians 
are going to react to these sanctions, including the second 
round?
    Mr. Fried. Well, their instant reaction will be to scoff at 
them in public, dismiss them and belittle them. But this is a 
general point worth making. We should look past the initial 
tranche of Russian bluster and denial that sanctions have any 
impact. I remember the 1980s and the dynamics. The Soviets then 
went from denying that any of the pressure the Reagan 
administration would have the slightest effect on them to 
acknowledging that they could not go on like that.
    When I was a young diplomat in the Soviet Union in the 
early 1980s----
    Senator Donnelly. You still look like a young diplomat to 
me, sir.
    Mr. Fried. Well, I had hair then.
    [Laughter.]
    Mr. Fried. What you heard were Russians looking around and, 
when they thought nobody was listening, saying, ``We cannot go 
on like this.'' It was the early 1980s. I am starting to hear 
the same thing, and I think Mike McFaul may have heard it more. 
Russians quietly are beginning to have greater doubts about 
where Putin is leading them.
    Pressure tactics can have a cumulative impact, and they can 
bring results when you do not expect it. We did not know that 
the Berlin Wall was going to fall, you know, before it fell. I 
do not want to be extravagant, but because there has been so 
much emphasis in these hearings about Russian strength and the 
weakness of our response for various reasons--which I get. I am 
not arguing with that. There is a larger strategic point----
    Senator Donnelly. Well, I apologize. I only have so much 
time. What do you think--this is for all of you--is the number 
one action Congress and the White House can take in the next 6 
months to change Putin's calculus?
    Mr. Fried. I think strong, carefully crafted sanctions 
legislation, combining DASKA and DETER, would be a good, strong 
signal.
    Senator Donnelly. Ambassador.
    Mr. McFaul. I agree. I actually agree. And I base that 
assessment on the very strong reaction that you got from the 
Prime Minister and many other actors about this pending 
legislation. They are watching very closely what you are doing.
    Senator Donnelly. Ms. Ziemba.
    Ms. Ziemba. I agree as well. The broader importance, 
though, I think becomes making sure that in those sanctions and 
in the implementation, the enforcement, which is obviously the 
Administration level, that there is a focus on actors who--that 
it is not necessarily just all Russians, and differentiating 
and linking it to the behaviors. I recognize there is a whole 
part of the sanctions literature that can argue for targeting 
an entire country. My worry is if all of Russia was targeted, 
then that would increase the power of some of those who have 
been benefiting from sanctions.
    Ambassador Fried is definitely correct that there can be 
vulnerabilities built up over time. We do not know. I just fear 
we are not at that tipping point yet.
    Senator Donnelly. Ms. Conley.
    Ms. Conley. President Putin is under the mistaken belief 
that democracy is for sale. We have to make sure that Russian 
illicit financing has no safe home in Europe or the United 
States or any enabling services that that money provides. That 
we can do right now.
    Senator Donnelly. Mr. Fried, one last question, and that is 
in regard to North Korea. What do you think Putin's goal is 
there? Is it to make it as difficult for the United States in 
relations with North Korea as he possibly can?
    Mr. Fried. Yes.
    Senator Donnelly. Well, that is a succinct answer.
    [Laughter.]
    Senator Donnelly. And I appreciate it. Thank you, Mr. 
Chairman.
    Chairman Crapo. You might get the record, Ambassador Fried, 
and you, Senator Donnelly, for the most succinct questioning of 
the Committee.
    Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman, and thanks to 
all of our guests today. You guys are presenting really 
thought-provoking and important testimony and questioning.
    You know, I wonder where he got the idea democracy is for 
sale. Huh, I wonder. That is a rhetorical question.
    You know, when we look at Putin--and I had someone school 
me early on as we looked at kind of long-term Russian politics, 
and he reminded me, this young man, that Putin's position, you 
have to kind of look at him like the czar. You know, we kind of 
think about our democracies and political leadership, but he 
really holds the cards to all the financial ability for people 
to be successful, and that puts him in a very powerful 
position.
    The ability to interfere with that kind of power seems to 
me to be the pressure point that we want to exert when we look 
at sanctions, the things that threaten the internal stability 
of Putin to continue to wield the kind of czar-like authority 
that he has.
    So if we were going to be very strategic and very surgical 
about focusing our attention, where would we put it? And I want 
to start with you, Ms. Conley. What do you think? You seem to 
have a pretty good idea of what happens within the Russian 
economy.
    Ms. Conley. Well, thank you, Senator. I think, again, it 
is--President Putin has really consolidated his inner circle 
and his strength. In fact, the last 4 years of these sanctions 
have proved a bit of a loyalty test, which is why I find it 
striking that many of his inner circle have their funds not in 
Russian banks but to be protected overseas so they cannot be 
used for higher purposes in this State.
    I think if we can apply pressure to the inner circle that 
he relies on very closely to stabilize the security services, 
his national guard led by his former bodyguard, we can get very 
specific to those individuals that allow Mr. Putin to continue. 
That is not harming the Russian people. That is minimizing the 
sacrifice that our companies and our allies have to take for 
higher principles. If we can focus like a laser beam on those 
individuals that sustain his own personal power structure, that 
could make an important difference. But these are very 
targeted, they are very specific.
    So, for instance, with Mr. Deripaska, it is not going after 
Rusal. It is going after Mr. Deripaska very specifically and 
where his financings are.
    Senator Heitkamp. If I can just comment on that, I found it 
very interesting that we gave him enough advance notice so he 
could divest his interest. You know, it just did not seem to me 
to be a very strategic response.
    I would like everyone to answer that question, if you 
could, but I wanted to make sure that we understood maybe the 
economic implications. Ms. Ziemba.
    Ms. Ziemba. I think, again, back to targeting some of those 
in the inner circle and who end possibly some smaller--you 
know, not State banks necessarily, but some banks that are 
actually involved in the transfers of illicit finance and the 
like. I remain somewhat concerned about the effectiveness of 
targeting sovereign debt just because of the limits and because 
it could be another example of that sort of loyalty test that 
Ms. Conley just mentioned. And I think we have seen some of the 
bluster in the Russian press, even this morning has suggested 
that there is cash available in that context. So I think 
focusing where it hurts and enforcing some of the divides 
within Russia, just as Putin has been trying to do within our 
society.
    Senator Heitkamp. Ambassador Fried.
    Mr. Fried. I think you have heard echoes of a debate in the 
Russia and sanctions community about what works best. I think 
everybody agrees--and you have heard it on this panel--that we 
ought to be going after the bad actors, the cronies close to 
Putin. There is a difference about how much we should go after 
the sectors like cyber and finance. So far we have done both. I 
think that we ought to be pushing harder on the individual 
sanctions for the reasons that you have heard, and I agree with 
my colleagues. I am not willing to give up on sectoral 
sanctions because I think if we finally craft it, that can also 
be useful.
    I think that there will be a rallying around the flag 
effect, but I do not think that will last. And in the end I 
think that there are advantages to pressure. But the advice you 
have heard from other members of the panel strikes me as sound, 
so I think being discrete about sectoral sanctions and 
aggressive about going after bad actors is the way I would move 
the sanctions policy.
    Senator Heitkamp. Ambassador McFaul.
    Mr. McFaul. Well, the first point, I just want to 
underscore a very important analytic point you made, Senator, 
and I think some people get confused about the nature of 
Putin's rule. We think that there are these capitalists, these 
owners, and these sanctions hurt them, and then they go lobby 
Putin to change the policy.
    What is wrong about that analytic framework is they are all 
rich because of Putin. They are dependent on Putin. So they 
cannot go to him and say, ``Hey, make me richer, you know, you 
have got to change your policy in Ukraine.'' And he is, like, 
``What do you mean, man? You are a billionaire because of me.'' 
That is number one.
    Number two----
    Senator Heitkamp. He is Santa Claus.
    Mr. McFaul. And he has got leverage on them. They cannot go 
to a court to protect their property rights. They protect their 
property rights by being in good standing with Putin. That is 
the inner circle.
    The paradox of sanctions is that the outer circle, the 
people that are actually doing business in the international 
world, including Mr. Deripaska, including Mr. Vekselberg, are 
the ones that are more susceptible to our sanctions--right?--
and also are the ones that are least connected to Putin. And so 
we have got to get our head around the fact that we are not 
going to have this causal effect as quickly as we want, and 
that then leads me to the last thing I want to say about this. 
Even if you are not going to change his behavior, you do the 
sanctions on the people that are responsible for all this 
egregious behavior because it is the right thing to do. And do 
not forget that Ukrainians are watching that, that Estonians 
are watching that, and that Russians, who are against this 
regime, are also watching that.
    So when it has the causal effect--I think Ambassador Fried 
made a good point. We are not very good--by the way, the 
Government is not very good at predicting when these things 
happen. Neither is academia, I can tell you that. But we should 
not underestimate the kind of churning that happens there. So 
sometimes just doing the right thing, you do it because it is 
the right thing to do, not because you think you are going to 
change the behavior.
    Senator Heitkamp. I am completely out of time, but, 
otherwise, I would ask the effect of belittling or in some way 
diminishing the effect of Article V, what that has done in 
terms of internal politics. We cannot take that off the table, 
and that goes to speaking with one voice.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman Crapo. Thank you, Senator Heitkamp, and thank you 
to all of our witnesses. That concludes the testimony. We have 
had a very helpful discussion here today, and I also think that 
the written testimony provided has been very helpful as well. 
We appreciate, again, the help that all of our witnesses have 
brought to us as we deal with this issue.
    For Senators, questions for the record are due Thursday, 
September 13th, and you probably will get some questions 
following the hearing. We ask that you respond to those 
questions as quickly as you possibly can.
    With that, the hearing is adjourned.
    [Whereupon, at 12 p.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    The Committee meets today for its second of three hearings on 
sanctions against the Russian Federation for its malign activities 
directed against the United States, its allies and spheres of 
influence.
    I thank our panel of outside expert witnesses today, most of whom 
are former Administration officials, who will help the Committee better 
understand the current U.S. posture toward Russia.
    Testifying today will be Ambassador Dan Fried, now at the Atlantic 
Council, but who capped off a 40-year State Department career as the 
Obama administration's sanctions coordinator; Stanford Professor 
Michael McFaul, also at the Hoover Institution, who was U.S. ambassador 
to the Russian Federation for the 2 years leading up to Putin's 
invasion of Crimea, and Heather Conley, now with CSIS, but who was also 
on the Russia desk in the Bush administration's State Department.
    Rachel Ziemba, our sole Government outsider, now with the Center 
for New American Security, will share her particular expertise on the 
interlinkages between economics, finance, and security issues, with 
regard to sanctions, Russia's economic resilience and the role of 
sovereign wealth in all of this.
    Two weeks ago, current Administration witnesses informed the 
Committee of efforts to implement the Countering America's Adversaries 
Through Sanctions Act, or ``CAATSA'', which was enacted in August 2017 
and largely crafted by this Committee, and what political and economic 
effects of that implementation have had.
    Basically, the Administration reported that over the last year it 
had sanctioned some 230 individuals and entities through its use of 
CAATSA and its own administrative authorities.
    Those targeted include the heads of major State-owned banks and 
energy companies, as well as some of Putin's closest associates or 
oligarchs.
    On the issue of electoral interference, the Homeland Security 
official reported that malicious cyberoperations are not just State-
run, not just run by a single actor and remain one of the most 
significant strategic threats to the United States.
    Beyond any use of sanctions, which Treasury imposed against several 
Russian actors for interference in the 2016 elections, Homeland 
Security further testified that it is working aggressively to support 
State and local efforts to secure the 2018 elections.
    They also made clear that this work must not only continually 
evolve, but never become complacent because those seeking to interfere 
and disrupt are on the cutting edge of technology.
    A number of the Members on this Committee, on both sides of the 
dais, encouraged the Administration to do more, and soon.
    Whatever the economic effects of these sanctions have had over the 
last year, it has escaped no one's attention that Russia is still in 
Crimea, and the Kremlin still exercises violently destabilizing 
activities in Ukraine and Syria.
    Moreover, since CAATSA implementation began, Putin has ordered the 
use of chemical weapons to attack citizens of U.S. allies at home, and 
continues his efforts to subvert the democracies of the United States 
and its European allies through complex disinformation campaigns and 
outright cyberattacks.
    Getting sanctions `right' is a difficult exercise for Congress and 
the Administration alike.
    It took decades for sanctions to take real effect in Iran. And, 
Putin's Russia is not like Iran or North Korea, for that matter, at 
least, not in any way other than its penchant for engaging in malicious 
behaviors at home and abroad.
    In the case of Russia, any constructive use of sanctions is 
complicated further by the level of Russia's integration into the 
global economy and all the attendant unintended consequences, 
contagions and spill-overs that come with it and which threaten to 
destroy the potential for needed multilateral application of sanctions 
against an economy like Russia's.
    There is no question that Putin must pay for his actions and that 
the United States has the ability to impose real costs against Moscow, 
even as it increases its own defenses against future attacks.
    The only question is how the United States will go about imposing 
those costs.
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Today we gather to further assess Russia's persistent efforts to 
attack the U.S. and our allies via cyber, influence and other campaigns 
directed at our most critical infrastructure; and to develop ways to 
strengthen U.S. responses to those attacks.
    In our first hearing, senior Administration officials testified on 
sanctions and the protection of critical infrastructure. Directly 
following that hearing, all Senators had an opportunity to be briefed 
at a classified level on preparations by the Federal Government, 
working in cooperation with State and local authorities, to secure our 
electoral process for the upcoming midterm elections.
    Today we'll hear outside perspectives on the effectiveness of U.S. 
sanctions, and on new tools, including new sanctions authorities that 
might usefully be deployed against Russian attackers. Bolstering that 
sanctions toolbox--and then ensuring the tools are actually used to get 
the job done--is critical.
    We'll hear from those outside the Administration--including 
witnesses with extensive and distinguished diplomatic experience in 
dealing with Russia under Republican and Democratic Administrations 
over decades--what they think will most likely dissuade the Russians 
from continuing these attacks.
    While sanctions have had some effect on Russia's economy, as they 
have been applied it's not clear they are doing much to actually change 
Russian behavior. And that, after all, is the goal. Sanctions are a 
means to an end, not an end in themselves. We seek real and immediate 
changes in Russian behavior, and we are not yet seeing it.
    There is little dispute sanctions are not yet having their intended 
effect: Russia remains in Crimea, its proxies are still in eastern 
Ukraine, it continues to support Assad in Syria, and to attack our 
elections and other critical infrastructure using sophisticated 
cyberweapons. It has attempted to assassinate British citizens with a 
chemical weapon, and killed an innocent bystander in the process. It 
has fostered sanctions evasion and other illicit activity around the 
world.
    Some of today's witnesses--including those with deep bipartisan 
experience in U.S.-Russia relations--have been critical of the 
Administration's efforts to date, arguing they have been inadequate and 
are undercut by President Trump's reluctance to criticize Putin and his 
Government.
    President Trump's efforts to try to undermine what are established 
conclusions of fact by the U.S. intelligence community about Russia's 
involvement are well documented. And Russian attacks on our elections 
and critical infrastructure like energy plants, utility systems, 
aviation, manufacturing and private sector business systems are 
continuing.
    As our next elections approach, it is long past time for the 
President and Congress together to send a much more powerful and direct 
message to Putin and those within his circles: If you continue 
cyberattacks against us, you and your Government will pay a heavy 
economic, diplomatic, and political price.
    As Ambassador McFaul notes in his testimony today, there's a 
tension between what sanctions professionals at Treasury and State are 
doing and saying, and what the President is doing on Russia.
    Our Government needs to speak with one voice. The President should 
clearly state how he will use CAATSA to forcefully respond to Russian 
attacks, issue an executive order that clearly outlines the sanctions 
consequences for continuing attacks, and implement that order if 
attacks continue.
    In addition to urging the Administration to use CAATSA more 
effectively, I think most of us agree Congress should also do more. 
Congress crafted these tough Russia sanctions, enacted last August by 
overwhelming majorities in both chambers. We should build on that 
bipartisan consensus.
    Today we should focus with these experts on the broader strategic 
questions: What active cyberattacks are the Russians directing against 
our elections and critical infrastructure? And what range of powerful 
economic, trade, financial, diplomatic, and political tools can we 
deploy now to deter those threats?
    What will it take to actually deter Putin, by sharply increasing 
the price he must pay for them? I know those are the questions my 
constituents are asking. Our large Ukrainian community in Ohio knows 
firsthand the dangers of Russian aggression.
    This hearing should be an opportunity to get answers from those 
long involved in U.S.-Russia policy. I especially welcome our 
distinguished former Ambassador to Russia Michael McFaul, who has had 
his own recent political and legal struggles with Mr. Putin, but has 
acquitted himself gracefully throughout.
    I welcome Ambassador Fried, former sanctions coordinator at State 
with a distinguished record of decades of bipartisan service in U.S.-
Russia policy. Ms. Rachel Ziemba has done extensive economic research 
on sanctions policies and their effects, as has Ms. Heather Conley of 
CSIS. I look forward to hearing what effects you think current 
sanctions are having on Russia's economy and behavior, and your ideas 
on how we should more forcefully confront the threats posed by Russia.
    Thank you Mr. Chairman.
                                 ______
                                 
                PREPARED STATEMENT OF MICHAEL A. MCFAUL
   Peter and Helen Bing Senior Fellow at the Hoover Institution, and 
   Professor of Political Science, Director and Senior Fellow at the 
    Freeman Spogli Institute for International Studies at Stanford 
University, and Former U.S. Ambassador to the Russian Federation (2012-
                                  14)
                           September 6, 2018
    In the last several years, the Russian Government has taken 
increasingly belligerent actions abroad, threatening not only American 
national interests but also violating international laws, norms, and 
values. Russia has not always behaved as a rogue or outlaw State. Under 
Soviet leader Mikhail Gorbachev and Russian President Boris Yeltsin, 
the Kremlin adopted a different, more cooperative approach towards the 
United States and the West and adhered more closely to the rules of the 
game of the international system. Under the leadership of President 
Vladimir Putin, however, especially after his return to the Kremlin in 
2012, Russia has moved in the opposite direction, defying the West, 
challenging international rules, and aggressively undermining American 
national interests. In parallel, Putin has consolidated autocratic rule 
inside Russia, a lamentable trend that correlates with Russia's growing 
belligerency abroad.
    While Putin remains in power, Russian foreign policy is unlikely to 
change. But that fact should not lead to the erroneous conclusion that 
the United States--together with our allies--cannot constrain, contain, 
or deter Putin's bad behavior. By developing a sustained, multipronged 
strategy of containment regarding most issues, combined with engagement 
on a limited agenda, the United States and the West can begin to reduce 
Russia's disruptive, dangerous, and damaging actions in the world. Part 
of that strategy must include a new and improved sanctions regime.
The Facts on Putin's Belligerent, Criminal Behavior
    Tragically, Russian foreign policy has become increasingly 
belligerent and rogue during the almost 20 years of Putin's rule.
    In August 2008, Russia invaded Georgia. \1\ In the wake of that 
war, Moscow recognized Abkhazia and South Ossetia as independent 
countries, changing de facto by force the borders of the sovereign 
country of Georgia. This Russian action violated international laws and 
norms and adversely affected American national interests.
---------------------------------------------------------------------------
     \1\ Dmitry Medvedev had been inaugurated as Russian president 
months before this war, but Prime Minister Putin assumed operational 
control of this military intervention.
---------------------------------------------------------------------------
    In February 2014, Russia invaded Ukraine. Russia first seized 
control and then annexed Crimea. Annexation is illegal and taboo in the 
international system. \2\ After annexation proved easy and cheap, Putin 
fomented separatist movements in eastern Ukraine, sparking a civil and 
interstate war, since Russian soldiers and intelligence officers have 
been directly involved in the fighting. Putin also provided the rocket 
that shot down MH17 over Ukraine, killing all 283 passengers and 15 
crewmembers on board, another criminal act. \3\ Since the fighting 
began in eastern Ukraine, over 10,000 people have died and roughly two 
million Ukrainian citizens have been displaced. During World War II and 
before, dictators annexed territory in Europe. But during the Cold War 
and after, annexation ceased to be a practice in European politics, 
until 2014.
---------------------------------------------------------------------------
     \2\ Turkey invaded and seized control of part of Cyprus in 1974, 
but never annexed this territory, instead, recognized the Turkish 
Republic of Northern Cyprus (TRNC) in 1983, similar to Russia's 
recognition of independence of Georgian regions, Abkhazia, and South 
Ossetia.
     \3\ After a joint investigation was completed, the Dutch 
Government announced that they will seek to prosecute those responsible 
in Dutch courts after an effort to set up an international tribunal had 
failed. ``Statement by the Minister of Foreign Affairs on MH17, 5 July 
2017'', Government of the Netherlands, July 5, 2017, https://
www.government.nl/latest/news/2017/07/05/statement-by-the-minister-of-
foreign-affairs-on-mh17-5-july-2017.
---------------------------------------------------------------------------
    In September 2015, Putin deployed the Russian military to Syria 
with the mission to prop up a ruthless dictator, Mr. Assad. Russia's 
ally in Syria used illegal chemical weapons to kill innocent civilians 
in a violent campaign of suppression that started against peaceful 
protestors and then metastasized into a civil war. Many external 
observers have labeled Assad use of chemical weapons and other military 
actions against civilians as crimes against humanity, \4\ yet Putin 
continues to back him. Some of Russia's own military operations in the 
Syrian war, including the carpet-bombing of Aleppo, also have been 
portrayed as crimes against humanity. \5\
---------------------------------------------------------------------------
     \4\ ``Amnesty Slams Syrian Regime for Crimes Against Humanity'', 
DW, November 13, 2017, https://www.dw.com/en/amnesty-slams-syrian-
regime-for-crimes-against-humanity/a-41352848; and Lizzie Dearden, 
``Syria Conflict: U.N. Report Accuses Assad Regime of Massacres and 
Crimes Against Humanity'', Independent, August 27, 2014, https://
www.independent.co.uk/news/world/middle-east/syria-conflict-un-report-
accuses-assad-regime-of-massacres-and-crimes-against-humanity-
9694116.html.
     \5\ Human Rights Watch, Syria 2017, https://www.hrw.org/world-
report/2018/country-chapters/syria; and ``Russia/Syria: War Crimes in 
Month of Bombing Aleppo'', Human Rights Watch, December 1, 2016, 
https://www.hrw.org/news/2016/12/01/russia/syria-war-crimes-month-
bombing-aleppo.
---------------------------------------------------------------------------
    In 2016, Putin violated American sovereignty. The Russian president 
used several instruments--including theft and then publication of 
private data, deployment of Russian State-owned and State-controlled 
conventional media, social media, bots, trolls, and fake accounts, as 
well direct engagement with the Trump campaign--to try to help Donald 
Trump win the 2016 presidential election. Russian State-sponsored 
actors also sought to exacerbate American political polarization more 
generally. Putin and his proxies also may have used other means, 
including money and ``kompromat,'' to sway the outcome of the election 
and influence subsequent actions by President Trump. We must wait for 
the outcome of the Mueller investigation to understand the full extent 
of the Russian operation to influence our vote and subsequent politics 
and policies. But we know already that Putin's actions in 2016 
adversely affected American interests and violated international norms. 
During the Cold War, the Kremlin never violated American sovereignty so 
illegally, aggressively, and audaciously.
    Since the 2016 presidential election, the Russian State and its 
proxies continue to use traditional and social media to spread 
disinformation and sow division in American society. Russian Government 
officials and their allies also continue to seek partnerships and 
cooperation with like-minded Americans. \6\ This Russian campaign 
inside the United States is part of a global effort by Putin to win 
over ideological allies within democracies as a means to change their 
policies towards Russia. Putin has anointed himself as the global 
leader of nationalist, nativist, conservative (as defined by him) 
movement fighting against the decadent, liberal West. Putin also 
cultivates an image of a strong, virile ruler--bare chested fishing, 
hunting, horseback riding and all that--in contrast to weak democratic 
leaders in chaotic democratic societies. Putinism has attracted 
ideological allies sometimes in the Government and sometimes in the 
opposition in Hungary, Italy, Czech Republic, Turkey, the Philippines, 
Austria, the Netherlands, Germany, France, the United Kingdom, and the 
United States. \7\
---------------------------------------------------------------------------
     \6\ Casey Michel, ``The Kremlin's California Dream'', Slate, May 
4, 2017, http://www.slate.com/articles/news--and--politics/foreigners/
2017/05/why-russia-cultivates-fringe-groups-on-the-far-right-and-far-
left.html; and Sharon LaFraniere, Adam Goldman, ``Maria Butina, 
Suspected Secret Agent, Used Sex in Covert Plan, Prosecutors Say'', The 
New York Times, July 18, 2018, https://www.nytimes.com/2018/07/18/us/
politics/maria-butina-russia-espionage.html.
     \7\ Bob Dreyfuss, ``Is Steve Bannon Trump's Link to Putin and the 
European Far Right?'' The Nation, March 19, 2018, https://
www.thenation.com/article/is-steve-bannon-trumps-link-to-putin-and-the-
european-far-right/; Timothy Snyder, The Road to Unfreedom. Russia, 
Europe, America. Penguin Random House, 2018; Fabrizio Tassinari and 
Miguel Poiares Maduro, ``Why European Populists Idolize Putin and 
Trump'', The Washington Post, July 16, 2018, https://
www.washingtonpost.com/news/theworldpost/wp/2018/07/16/trump-putin/
?utm_term=.f4daad0f11fc; Ronald Brownstein, ``Putin and the Populists, 
The Roots of Russia's Political Appeal in Europe and the United 
States'', The Atlantic, January 6, 2017, https://www.theatlantic.com/
international/archive/2017/01/putin-trump-le-pen-hungary-france-
populist-bannon/512303/; Jon Stone, ``Italy Breaks With European Allies 
and Voices Support for Russia After Populist Party Takes Power'', 
Independent, June 6, 2018, https://www.independent.co.uk/news/world/
europe/italy-prime-minister-giuseppe-conte-russia-sanctions-end-
populist-five-star-vladimir-putin-crimea-a8385626.html; and William 
Galston, ``The Rise of European Populism and the Collapse of the 
Center-Left'', Brookings Institution, March 8, 2018, https://
www.brookings.edu/blog/order-from-chaos/2018/03/08/the-rise-of-
european-populism-and-the-collapse-of-the-center-left/.
---------------------------------------------------------------------------
    In March 2018, the U.S. State Department assessed that the Russian 
Government attempted to assassinate Sergei Skripal, a former Russian 
intelligence officer living in the United Kingdom. Russian operatives 
used illegal chemical weapons, violated British sovereignty, injured 
innocents, and served notice to everyone around the world that the 
Kremlin can come after you anywhere.
    Skripal is not the only Kremlin foe attacked overseas. The tragic 
assassination of Kremlin critic, Pavel Sheremet, in Kyiv, Ukraine on 
July 20, 2016, remains officially unsolved. Others Putin considers foes 
of his regime, like Boris Berezovsky (found dead in 2013 in London in 
suspicious circumstances) and Alexander Litvinenko (killed in 2006), 
which, a British inquiry concluded nearly 10 years later, was ordered 
by the Kremlin, were similarly violations of British sovereignty. Even 
in the United States, former Russian press minister Mikhail Lesin died 
mysteriously in 2015 in Washington, DC. On occasion, Soviet leaders did 
assassinate dissidents abroad, including most famously Leon Trotsky in 
Mexico in 1940. But for many decades of the Cold War and post-Cold War 
era, these practices were considered taboo, until recently.
    In addition, the true perpetrators of several assassinations inside 
Russia remain unresolved, including most recently the murder of former 
first deputy prime minister Boris Nemtsov, in February 2015. Those 
responsible for the wrongful death of Sergei Magnitsky in November 2009 
have never faced justice. Nor has anyone gone to jail for the 
assassination attempts against opposition activist Vladimir Kara-Murza. 
Especially troubling are the number of Russian journalists who have 
been murdered mysteriously, including most famously Anna Politkovskaya 
in 2006, and most recently, Nikolai Andrushchenko and Dmitry Popkov in 
2017. \8\ American journalist Paul Klebnikov also was killed in 2004; 
those behind his tragic murder have never ben arrested.
---------------------------------------------------------------------------
     \8\ The Committee to Protect Journalists count 38 Russian 
journalist who have been murdered between 1992-2018 in Russia. See 
Committee to Protect Journalists website, https://cpj.org/data/killed/
europe/russia/?status=Killed&motiveConfirmed%5B%5D=Confirmed&type%5B%5D
=Journalist&typeOfDeath%5B%5D=Murder&cc-fips%5B%5D=RS&start-
year=1992&end-year=2018&group-by=location.
---------------------------------------------------------------------------
    In July 2018, at his Helsinki summit with President Trump, Putin 
called for the interrogation and arrest of several former U.S. 
Government officials (including me) and one currently serving staffer 
here at the U.S. Congress, Kyle Parker. For performing our jobs in the 
U.S. Government, we are accused falsely of violating Russian law. 
Again, in a now familiar pattern, by calling for the interrogation and 
hinting as his Government plans to indict American officials without 
any evidence about illegal activities, Putin's action violated 
international norms. \9\ Unfortunately, Russia has a long track record 
of violating INTERPOL procedures and practices in seeking to detain 
innocent people in third countries. Putin's ``incredible offer'' 
proffered in Helsinki obviously served no American national interest 
but also violated basic diplomatic protocol. During the height of the 
Cold War, no Soviet leader sought to interrogate or arrest American 
Government officials.
---------------------------------------------------------------------------
     \9\ Alexander Kurennoi, the spokesperson for the Prosecutor 
General, gave more details about the alleged crimes these Americans had 
committed, in a conspiracy with Bill Browder, in his press conference 
the day after the Helsinki summit. You can watch the press conference 
here: https://www.youtube.com/watch?v=he4RInnq44w&feature=youtu.be; See 
also, ``Russian Officials Want To Question Former Ambassador Michael 
McFaul and Other U.S. Officials in Their Investigation of Bill 
Browder'', Meduza, July 17, 2018, https://meduza.io/en/news/2018/07/17/
russian-officials-want-to-question-former-ambassador-michael-mcfaul-
and-other-u-s-officials-in-their-investigation-of-bill-browder.
---------------------------------------------------------------------------
    I could go on. But the point of this long but impartial list is to 
remind this Committee that Putin is not only acting against American 
national interest across several issue domains, but is also audaciously 
violating international laws and norms. Many of these actions are 
criminal. He should not be embraced; he must be deterred.
The Necessity of Sustaining and Expanding Economic Sanctions
    For crimes, there must be punishments. Economic sanctions are a 
blunt, but necessary tool for punishing illegal, belligerent Russian 
Government behavior.
    In 2012, the U.S. Congress rightly passed and President Obama 
rightly signed the Russia and Moldova Jackson-Vanik Repeal and Sergei 
Magnitsky Rule of Law Accountability Act, followed by the Global 
Magnitsky Act in 2016. In 2014, the Obama administration rightly 
sanctioned Russian individuals and companies in response to the 
annexation of Crimea and Russian military intervention in eastern 
Ukraine, and then 2 years later added additional sanctions in reaction 
to Russia's interference in our 2016 presidential elections. In July 
2017, the U.S. Congress rightly passed (and President Trump reluctantly 
signed the following month) the Countering America's Adversaries 
Through Sanctions Act in response to Russia's interference in the 2016 
U.S. election, violation of human rights, annexation of Crimea and 
military operations in eastern Ukraine. \10\ In April 2018, the Trump 
administration implemented additional sanctions against seven Russian 
oligarchs and twelve companies they own or control, 17 senior Russian 
Government officials, and a State-owned Russian weapons trading company 
and its subsidiary, a Russian bank. In August 2018, the Trump 
administration rightly implemented additional sanctions in accordance 
with the Chemical and Biological Weapons Control and Warfare 
Elimination Act of 1991 (CBW Act), after issuing a finding that the 
Russian Government used illegal chemical weapons to try to assassinate 
Sergei Skripal and his daughter Yulia in the United Kingdom. The United 
States Government has now sanctioned several hundred Russian 
individuals and entities. \11\ Never in the history of U.S.-Russian 
relations, including the most charged moments of the Cold War, have so 
many Russians (and Americans, including me) been on sanctions lists.
---------------------------------------------------------------------------
     \10\ H.R. 3364--Countering America's Adversaries Through Sanctions 
Act, U.S. Congress website, https://www.congress.gov/bill/115th-
congress/house-bill/3364/text.
     \11\ As Assistant Secretary of State for European and Eurasian 
Affairs A. Wess Mitchell testified last month that Trump administration 
actions include ``217 individuals and entities sanctioned, 6 diplomatic 
and consular facilities closed or kept closed, and 60 spies removed 
from U.S. soil.'' See Statement of A. Wess Mitchell, Assistant 
Secretary of State for European and Eurasian Affairs, Senate Foreign 
Relations Committee, U.S. Strategy Towards the Russian Federation, 
August 21, 2018, https://www.foreign.senate.gov/imo/media/doc/
082118_Mitchell
_Testimony.pdf.
---------------------------------------------------------------------------
    And yet, superficially, sanctions do not appear to have changed 
Putin's behavior at home or abroad. Some, therefore, argue that 
sanctions don't work, and should be abandoned in favor of other more 
cooperative strategies of influence. I disagree.
    First and foremost, sanctions are the right, moral punishment to 
take in response to egregious, illegal actions even if they do not 
change Putin's behavior. The United States must respond to annexation, 
or violations of our sovereignty, or the use of chemical weapons. For 
moral reasons, we believe as a Nation that crimes committed within the 
United States must be met with punishment, even if the punishment does 
not deter future crimes. The same principle must apply regarding 
international behavior. Moreover, we must think of the counterfactual; 
doing nothing would encourage even more belligerent behavior. 
Demonstrating resolve to defend international laws, rules, and norms is 
essential for the long-term preservation of international order.
    In addition, sanctions implemented by the United States, Europe, 
and other countries have produced negative effects on the Russian 
economy.
    Starting in the third quarter of 2014, the Russian economy 
contracted for nine quarters; sanctions contributed to this decline. 
\12\ By some estimates, sanctions were responsible for one-and-a-half 
percent of GDP contraction in 2014. \13\ Others estimate that the 
impact of sanctions, independent of falling oil prices, was as much as 
2-2.5 percent for the first few years after Russia's intervention in 
Ukraine. \14\ Hardest hit were Russian companies and banks seeking to 
raise capital on international markets. In turn, according to the 
EBRD's chief economist, Sergey Guriev, ``Russia's inability to borrow 
has led to a dramatic depreciation of the ruble and a fall in real 
incomes and wages.'' \15\ Capital outflows had also been steady for 
years and then accelerated after sanctions, jumping from $61 billion in 
2013 to $151.5 billion in 2014. \16\ In the wake of sanctions, foreign 
direct investment also slowed, though numbers are now moving slowly in 
positive direction again. Some future investment planned, we know, has 
been canceled, including most dramatically Exxon-Mobil's decision to 
suspend its joint investment projects with Rosneft, at one time 
estimated to total $500 billion. Other potential foreign investments 
that did not occur because of sanctions is harder to track--it's hard 
to measure a nonevent--but anecdotally Western investors and companies 
doing business in Russia have stated publicly and privately that 
uncertainty about future sanctions has squelched interest in attracting 
new investors to the Russian market. Most of those already in Russia 
will fight to stay; those who may have thought about investing in 
Russia market are now looking for less risky opportunities.
---------------------------------------------------------------------------
     \12\ ``39 Russia Economic Report'', The World Bank, May 2018, p. 
4, http://pubdocs.world
bank.org/en/162681527086868170/RER-39-Eng.pdf.
     \13\ Isolating the independent causal impact of sanctions is 
difficult to measure, especially when energy prices were also declining 
at the same time. One-and-a-half percent is a conservative estimate 
suggested by Russia's own prime minister, Dmitry Medvedev. ``Russian 
Economy Shrinks 2 Percent as Sanctions Bite--Medvedev'', BBC News, 
April 21, 2015, https://www.bbc.com/news/world-europe-32396792; The IMF 
estimates ``sanctions and countersanctions could initially reduce real 
GDP by 1 to 1\1/2\ percent. Prolonged sanctions, could lead to a 
cumulative output loss over the medium term of up to 9 percent of 
GDP'') Russia Country Report #15/211, International Monetary Fund, 
August 2015, https://www.imf.org/external/pubs/ft/scr/2015/cr15211.pdf.
     \14\ Evsey Gurvich, ``[How To Properly and Incorrectly Respond to 
Sanctions]'', Vedomosti, May 16, 2018, https://www.vedomosti.ru/
opinion/articles/2018/05/16/769605-otvechat-sanktsii; For a 
comprehensive assessment of the economic and political consequences of 
sanctions against Russia, see Nigel Gould-Davies, ``Economic Effects 
and Political Impacts: Assessing Western Sanctions on Russia'', 
(Helsinki: Bank of Finland, BOFIT Policy Brief No. 8, 2018).
     \15\ Sergei Guriev, ``Russia's Constrained Economy'', Foreign 
Affairs, May/June 2016 issue, https://www.foreignaffairs.com/articles/
russia-fsu/2016-04-18/russias-constrained-economy.
     \16\ ``UPDATE 1--Russia's Capital Outflows Reach Record $151.5 bln 
in 2014 as Sanctions, Oil Slump Hit'', Reuters, January 16, 2015, 
https://www.reuters.com/article/russia-capital-outflows-
idUSL6N0UV3S320150116.
---------------------------------------------------------------------------
    The Russian economy did grow last year. \17\ But the IMF, World 
Bank, and even some in the Russian Government predict a sluggish 
recovery of 1.5-1.8 percent over the next several years, far below the 
world average of 3 percent and well below other major emerging market 
countries and even other countries to emerge from the collapse the of 
Soviet Union. \18\ In his address to the Federation Assembly in 2018, 
Putin stated explicitly, ``our economic growth rates should exceed 
those of the world's. This is a difficult task but not instance case of 
wishful thinking. This is a fundamental condition for a breakthrough in 
resolving social, infrastructure, defence and other tasks.'' \19\ 
Western sanctions have frustrated Putin's ability to achieve this goal.
---------------------------------------------------------------------------
     \17\ Henry Foy, ``Russian Economy Grows in 2017 for First Time in 
Three Years'', Financial Times, February 1, 2018, https://www.ft.com/
content/707f64b8-0752-11e8-9650-9c0ad2d7c5b5.
     \18\ Andrey Biryukov and Anna Andrianova, ``Russia To Lower 
Forecast of Economic Growth'', Bloomberg, June 27, 2018, https://
www.bloomberg.com/news/articles/2018-06-27/russia-said-to-lower-view-
of-economic-growth-on-planned-tax-hike; and ``Russia Economic Report'', 
The World Bank, issue 39, May 2018, http://www.worldbank.org/en/
country/russia/publication/rer.
     \19\ Vladimir Putin, ``Presidential Address to the Federal 
Assembly'', Official Kremlin website Kremlin.ru, March 1, 2018, http://
en.kremlin.ru/events/president/news/56957.
---------------------------------------------------------------------------
    The negative effects on the Russian economy from sanctions have not 
compelled Putin to quit his war in eastern Ukraine, leave Crimea, 
abandon Assad, or stop sowing division in American society. Russia is 
not a democracy, so societal pressure for policy change is difficult to 
achieve at all and most certainly not very quickly. In all targeted 
countries, the feedback loop from sanctions to economic downturn to 
foreign policy change is a long and indirect one. In Iran, for 
instance, it took several years (and a presidential election producing 
a new leader) before sanctions deployed in 2010 helped to pressure the 
theocratic regime to negotiate a nuclear deal. Similarly, sanctions 
against apartheid South Africa took several years to yield changes in 
Government policy, even though the South African economy was much more 
dependent on the West than either Iran or Russia. Russia's economy is 
much bigger than Iran's and arguably has more immunity to the highly 
targeted Western sanctions imposed to date and that do not go nearly as 
far as those implemented against Iran. \20\ Moreover, Putin and his 
media outlets have portrayed Western sanctions as a policy to weaken 
Russia and foment regime change. That alibi compels Russian patriots to 
endure economic suffering in the defense of the Motherland.
---------------------------------------------------------------------------
     \20\ On the effectiveness of economic sanctions more generally, 
see Daniel Drezner, ``Targeted Sanctions in a World of Global 
Finance'', International Interactions, 41-4, (2915), pp. 775-764; and 
Rosenberg, Elizabeth, Zachary K. Goldman, Daniel Drezner, and Julia 
Solomon-Strauss, The New Tools of Economic Warfare: Effects and 
Effectiveness of Contemporary U.S. Financial Sanctions. (Washington: 
Center for a New American Security, 2016); and Robert Blackwill and 
Jennifer Harris, War by Other Means: Geoeconomics and Statecraft. 
(Cambridge: Harvard University Press, 2016).
---------------------------------------------------------------------------
    And yet, there are increasing signs of Russian societal 
dissatisfaction. Putin's approval rating has fallen to its lowest level 
in several years: in July 2018 Putin's approval rating was 67 percent, 
a drop from 82 percent in April of this year or from 87 percent in July 
2015. \21\ Putin's unpopular pension reform is the main driver of these 
falling numbers, but economic sluggishness is also part of the 
equation. Economic elites show incremental but growing signs of 
division, especially between those who need access to the global 
economy to prosper (that is, those who need access to international 
markets, especially capitals markets, as well as trade, foreign 
investment, and technology) and those more focused on Russia's domestic 
economy. If Russia's economy continues to grow at anemic rates, we 
should expect these anxieties about Putin's current foreign policy 
course to grow.
---------------------------------------------------------------------------
     \21\ [Odobrenie Institutov Vlasti, Levada-Center], July 31, 2018, 
https://www.levada.ru/2018/07/31/odobrenie-institutov-vlasti-3/.
---------------------------------------------------------------------------
    We also do not know about nondecisions or nonactions by the Kremlin 
that may have been influenced by sanctions. For instance, in the spring 
of 2014, Putin appeared ready to annex even more territory in eastern 
Ukraine--a region called Novorossiya. But he stopped. Ukrainian 
soldiers played the central role in stopping this more ambitious land 
grab, but sanctions may also have helped to deter this bigger military 
operation. In the run up to the American midterm elections in November 
2018, Russian cyberactors and propagandists seem less active than in 
2016. Have sanctions helped to diminish this activity? We do not know, 
but we cannot assume that sanctions played no role in Putin's thinking 
regarding disruption of these elections. (The real test will come in 
2020.)
    Finally, perhaps the best evidence that sanctions are working is 
Putin's irritation with them and his efforts to lift them. The Russian 
Government has continued to denounce American sanctions. Putin may even 
have tried to help Trump to win the presidential election, in part 
perhaps because candidate Trump said he would look into lifting 
sanctions. \22\ On June 9, 2016, a Russian delegation met with Trump 
campaign officials to discuss, among other topics allegedly, the 
lifting of sanctions on Russian individuals and companies implicated by 
the Magnitsky Act. At the Helsinki summit in July 2018, Putin made 
clear his obsession with the Magnitsky Act, and its main champion, Bill 
Browder, by devoting several minutes of the joint press conference to 
spinning a crazy, fabricated tale about how U.S. Government officials 
helped Browder launder money out of Russia to help finance the Clinton 
campaign. This summer, on August 10, 2018, in response to press reports 
about new sanctions legislation, Prime Minister Medvedev stated most 
aggressively that new sanctions against Russian banks would be 
``declaration of economic war'' and that Russia would retaliate 
``economically, politically, or, if needed, by other means''. \23\ If 
sanctions were so ineffective, why are all of these Russian Government 
officials working so hard to lift them? Clearly, sanctions matter.
---------------------------------------------------------------------------
     \22\ Aaron Blake, ``The Other Remarkable, Pro-Russia Thing That 
Donald Trump Just Said'', The Washington Post, July 27, 2016, https://
www.washingtonpost.com/news/the-fix/wp/2016/07/27/the-other-remarkable-
pro-russia-thing-that-donald-trump-just-said/
?noredirect=on&utm_term=.97f9cf06bce2.
     \23\ ``U.S. Curbs on Russian Banks Would Be Act of Economic War--
PM Medvedev'', Reuters, August 10, 2018, https://uk.reuters.com/
article/uk-usa-russia-sanctions-moscow-reaction/u-s-curbs-on-russian-
banks-would-be-act-of-economic-war-pm-idUKKBN1KV0FM.
---------------------------------------------------------------------------
Principles for Applying Future Sanctions
    Because economic sanctions have produced a tangible impact on the 
Russian economy and concrete reactions from the Russian Government but 
have not yet changed fundamentally Russian foreign policy, new 
sanctions are necessary. Economic pressure must be increased until 
Putin changes course. Because President Trump continues to send mixed 
signals to Putin about American resolve, the U.S. Congress must pass 
new legislation to compel the Trump administration to increase pressure 
on the Russian Government. Trump's lavish praise of Putin, including 
most recently at the Helsinki summit, keeps alive in Moscow the hope 
that President Trump can be cajoled into lifting sanctions without 
insisting on any meaningful change in Russian policy. The U.S. 
Congress--in concert with liked-minded officials in the Trump 
administration--must disabuse Putin of that hope.
    Several principles should guide the implementation of new sanctions 
and the adoption of new laws mandating new sanctions.
    First, ongoing Russian illegal activity must be met with new 
sanctions. Sanctions must escalate if Putin does not change Russian 
behavior. For instance, every day that Russia supports the separatist 
war in eastern Ukraine should be understood as new illegal Russian 
action. \24\ Instead of just maintaining the originally implemented 
sanctions in response to Russia's intervention in eastern Ukraine, U.S. 
lawmakers should lock into place by law a timetable for ratcheting up 
sanctions if the Russian Government continues illegal, belligerent 
activity.
---------------------------------------------------------------------------
     \24\ The analogy here is parking illegally for many days. The 
owner of an illegally parked car does not receive just one ticket on 
the first day the car is violating law but accumulates a new ticket for 
every day the car is parked illegally. Russia is parked illegally in 
Ukraine.
---------------------------------------------------------------------------
    Second, the U.S. Congress and President Trump must sign into law 
preemptive sanctions that would trigger automatically in response to 
future malign behavior by the Russian Government. By spelling out 
explicitly future American sanctions in response to specific possible 
Russian actions before they occur, the United States would help to 
clarify for Putin his cost-benefit analysis. This deterrence strategy 
should be applied to defend our sovereignty during elections as in the 
``Defending Elections from Threats Establishing Redlines Act of 2108'' 
(the DETER Act), but also should be applied to other policy domains, 
such as deterring the arrest of American Government officials, past and 
former, in third countries through the abuse of the INTERPOL system, or 
deterring cyberattacks on critical infrastructure in the United States.
    Third, sanctions should be implemented in response to concrete 
Russian actions or future actions, so that a specific sanction can be 
lifted when a Russian specific action has been reversed. Implementing 
sanctions in response to a general bundle of bad behavior makes it 
difficult for Kremlin officials and their proxies to know what they 
need to do in order to get those sanctions lifted. \25\ The tighter the 
link between the American sanctions and the Russian actions, the more 
effective new sanctions will be.
---------------------------------------------------------------------------
     \25\ In April 2018, the Treasury Department issued new sanctions 
on several Russian business people and their companies as well as 
Russian Government officials. (``Treasury Designates Russian Oligarchs, 
Officials, and Entities in Response to Worldwide Malign Activity'', 
U.S. Department of the Treasury, April 6, 2018, https://
home.treasury.gov/news/press-releases/sm0338) The direct role of these 
individuals in the Russian State's bad behavior, however, was not 
spelled out. In announcing this new round of sanctions, the Treasury 
Department listed ``a range of malign [Russian] activity around the 
globe, including continuing to occupy Crimea and instigate violence in 
eastern Ukraine, supplying the Assad regime with material and weaponry 
as they bomb their own civilians, attempting to subvert Western 
democracies, and malicious cyberactivities.'' Because this list is so 
long, it is not obvious what the newly sanctioned individuals would 
have to pressure the Russian Government to do differently to be removed 
from these sanctions lists.
---------------------------------------------------------------------------
    Fourth, although easy to state in theory and difficult to do in 
practice, future sanctions should primarily target Russian Government 
officials, State organizations, debt instruments issued by the Russian 
Government, enterprises owned or controlled by the Russian State, and 
traditional and social media entities owned or controlled by the State. 
Since roughly 60 percent of the Russian economy is effectively State-
owned or State-controlled, the State sector is a rich target 
environment for future sanctions and also the segment of the economy 
closest to and valued by Putin. Genuine private-sector individuals and 
companies should not be sanctioned unless their direct support of 
egregious Russian foreign policy behavior can be documented. To the 
extent possible, private Russian citizens not involved with Russian 
foreign policy should not be the targets of sanctions. Collateral 
damage to nongovernmental actors and organizations only reinforces 
Putin's claim that the United States is out to weaken Russia and 
impoverish the Russians.
    Fifth, to the extent possible, private American interests--
individuals, companies, and shareholders--should not be adversely 
affected by new sanctions. Our aim should be to deter and punish Putin, 
his Government, and their proxies, not American traders and investors 
engaging in the Russian private sector. The growth of the Russian 
private sector--autonomous from the Russian State and cooperating with 
the American private sector--still serves American national interests, 
as actors in this sector of the Russian economy are most likely to 
pressure Putin to stop isolating Russia through aggressive foreign 
policy actions. In practice, this principle is difficult to navigate 
since private American companies invest, trade, and cooperate with 
Russian State-owned enterprises (i.e., Sberbank, Rosneft). In these 
cases of overlap between the private and public sectors, experts 
implementating new sanctions will have to determine if the Russian 
entity in question is behaving more like an instrument of Russian 
foreign policy or more like a profit-maximizing company. If the former, 
then the Russian actors could be targeted even if American investors 
also suffer. If the latter, then the United States Government should 
not sanction them and explain this rational for nonaction.
    Sixth, greater transparency about Russian investments and economic 
activity abroad serves American national interests. Russian citizens 
should know how and where their leaders hide their money abroad, 
especially if laundered into the United States. Americans and our 
allies also should know. In the United States, new legislation should 
be adopted that eliminates anonymous ownership of corporations and real 
estate, and the transfer of funds abroad through law firms. \26\
---------------------------------------------------------------------------
     \26\ See for instance, S. 1717, The Corporate Transparency Act of 
2017: https://www.congress.gov/bill/115th-congress/senate-bill/1717. 
Anders Aslund details how these mechanisms are used to launder money 
from Russia to the United States in ``How the United States Can Combat 
Russia's Kleptocracy'' (Washington, DC: The Atlantic Council, July 31, 
2018): http://www.atlanticcouncil.org/images/publications/How-the-
United-States-Can-Combat-Russia-s-Kleptocracy.pdf.
---------------------------------------------------------------------------
    Seventh, the Kremlin's abuse of INTERPOL--through the inappropriate 
use of both red notices and red diffusions--must be stopped. INTERPOL's 
constitution forbids the use of the organization for political 
purposes, yet the Russian Government has attempted to use red notice 
and red diffusion mechanisms to silence and threaten critics. The U.S. 
Congress and the Trump administration should codify in law the specific 
sanctions that the U.S. Government will implement in response to future 
abuses of INTERPOL's red notice and red diffusion mechanisms.
Beyond Sanctions: The Need for a Grand Strategy To Contain (and 
        Sometimes Engage) Russia
    Sanctions--even a more robust sanctions regime--are only one 
instrument of American foreign policy needed to be deployed to confront 
Putin's Russia. To contain or deter Putin's belligerent behavior abroad 
requires that the United States and our allies use our full arsenal--
multiple instruments of diplomacy, including coercive diplomacy--to 
implement and sustain a bipartisan, grand strategy of containment.
    The United States must lead in articulating and implementing such a 
grand strategy, and then work with our allies and partners in the world 
to execute it. Alone, we will not succeed.
    For instance, to reduce the probability of Russian belligerent acts 
against NATO members in Europe, the United States and our NATO allies 
must threaten sanctions in response to new acts of aggression, but also 
strengthen our defensive posture and cyber-resilience, especially in 
frontline States. In June 2014, in response to Russia's invasion of 
Ukraine, President Obama rightly announced the creation of European 
Reassurance Initiative (ERI), a multibillion dollar project designed to 
increase America's military presence in Europe. The Trump 
administration has increased support for ERI. In subsequent NATO 
summits in 2014, 2016, and 2018, the alliance has taken significant 
steps to enhance deterrence, including the NATO Readiness Initiative, a 
pledge in 2014 to spend two percent of the GDP on defense, and Forward 
Presence, and the deployment of four new battalions, totaling roughly 
4,500 soldiers, in Estonia, Latvia, Lithuania, and Poland. These 
advances in capabilities must now be matched with credible commitments 
in intention from the United States. Above all else, President Trump 
must signal more credibly that the United States will respond to an 
attack on any NATO ally (including Montenegro). \27\
---------------------------------------------------------------------------
     \27\ Helena Smith, ``How Trump Destabilized Montenegro With a Few 
Words'', The Guardian, July 19, 2018, https://www.theguardian.com/
world/2018/jul/19/how-trump-destabilised-montenegro-with-a-few-words.
---------------------------------------------------------------------------
    In affirming our commitments to the alliance, President Trump and 
his Administration should also remind Putin that NATO is a defensive 
alliance that has never attacked Russia and would be insane to ever do 
so. Enhanced NATO military capacity within allied countries bordering 
Russia only threatens the Russian armed forces if they attack a NATO 
ally. Making that Russian military option more costly preserves peace; 
as President Ronald Reagan said, ``peace through strength.''
    To increase the costs of Russia's military intervention in Ukraine, 
the United States and our partners must maintain and expand economic 
sanctions, but also increase economic, political, and military 
assistance to the Government in Kyiv and the people of Ukraine. Sending 
lethal weapons of a defensive nature to Ukraine has helped to increase 
the costs of Russian military escalation in Ukraine, since these 
weapons only threaten Russian armed forces who are or might be in the 
future in Ukraine illegally. More important than lethal military 
assistance, however, is continued American support for Ukrainian 
economic and political reform. Ukraine faces a pivotal challenge during 
presidential elections next year. A free and fair election will mark a 
major milestone in the consolidation of Ukrainian democracy. An 
election influenced by Russian disinformation or worse yet, 
cybermanipulation of election results, will set back Ukraine's already 
fragile democratization process. Providing loud public support and 
increased financial assistance for free and fair elections (election 
monitors, cybersecurity, NGOs exposing disinformation, international 
election observers, etc.) is an immediate, tangible way to push back on 
Putin. The Russian president fears nothing more that an independent, 
democratic, market-oriented, and Western-leaning Ukraine.
    To increase the costs of Russian intervention in our electoral 
process, the U.S. Government must threaten new sanctions in response to 
future Russian meddling, and at the same time increase the 
cybersecurity resilience of the entire infrastructure used for 
conducting elections and counting election results. In parallel, the 
U.S. Government must develop clearer rules and regulations for 
constraining foreign activities of influence--especially through 
traditional and social media--during our elections and more generally. 
Progress has been made. American social media companies independently 
have taken a series of measures to reduce disinformation and increase 
transparency. \28\ But the norms, rules, and laws for defending 
American sovereignty are still poorly developed. Sanctions alone will 
not deter Russia, or other hostile State actors, from seeking to 
influence our domestic politics.
---------------------------------------------------------------------------
     \28\ ``Defending Democracy Program'', Microsoft, https://
news.microsoft.com/on-the-issues/topic/defending-democracy-program/; 
``Making Ads and Pages More Transparent'', Facebook Newsroom, April 6, 
2018, https://newsroom.fb.com/news/2018/04/transparent-ads-and-pages/; 
``We're Making Our Terms and Data Policy Clearer, Without New Rights To 
Use Your Data on Facebook'', Facebook Terms Update, https://
www.facebook.com/about/terms-updates; ``Hard Questions: What Is 
Facebook Doing To Protect Election Security?'' Facebook Newsroom, March 
29, 2018, https://newsroom.fb.com/news/2018/03/hard-questions-election-
security/; Michee Smith, ``Introducing a New Transparency Report for 
Political Ads'', Google Blog, August 15, 2018, https://www.blog.google/
technology/ads/introducing-new-transparency-report-political-ads/; 
``Transparency Report, Political Advertising on Google'', Google, 
https://transparencyreport.google.com/political-ads/overview; Vijaya 
Gadde and Bruce Falck, ``Increasing Transparency for Political 
Campaigning Ads on Twitter'', Twitter Blog, May 24, 2018, https://
blog.twitter.com/official/en_us/topics/company/2018/Increasing-
Transparency-for-Political-Campaigning-Ads-on-Twitter.html; Ads 
Transparency Center, Twitter, https://ads.twitter.com/transparency; 
Bruce Falck, ``Providing More Transparency Around Advertising on 
Twitter'', Twitter Blog, June 28, 2018, https://blog.twitter.com/
official/en_us/topics/company/2018/Providing-More-Transparency-Around-
Advertising-on-Twitter.html.
---------------------------------------------------------------------------
    To increase the difficulty of conducting Russian intelligence 
operations in the United States, the Obama and Trump administrations 
rightly have used other means, in addition to sanctions, including 
expelling Russian intelligence officers and closing Russian consulates 
in San Francisco and Seattle. Sanctions alone were not enough to deter 
Russian intelligence operations inside our country. At the same time, 
our Government must continue to deter and reduce Russian intelligence 
operations without fueling anti-Russian hysteria within our society. 
Russian diplomats must be able to meet with all kinds of Americans, 
including Government officials, business leaders, civil society 
organizations, and scholars. Similarly, Americans should be allowed, 
even encouraged, to travel to Russia and meet with their counterparts 
and not be accused automatically of malicious intent.
    To deter the Russian Government from trying to detain American 
officials, past and present, in third countries for invented crimes, 
sanctions are an effective tool. However, the threat of sanctions must 
be accompanied by diplomatic engagement--at the highest levels--warning 
Putin and his Government of the deleterious consequences for our 
overall bilateral relationship of any attempt to detain American 
officials. Third countries also should be warned of the negative 
consequences of responding favorably to red notice or red diffusions 
mechanisms initiated by the Russian Government against American 
officials.
    While seeking to contain and deter Russian aggression along many 
fronts, the United States generally, and the Trump administration in 
particular should also engage the Russian Government and Russian 
society to advance American national interests. For instance, the Trump 
administration should work with the Putin administration to extend the 
New Start Treaty, which expires in 2021. The preservation of that 
treaty--especially the inspections regime--serves American national 
security interests. As a country, we also should seek to maintain and 
expand relations between American and Russian societies, especially 
regarding educational and cultural exchanges. Genuine private sector 
engagement between Russian and American businesses also should be 
encouraged. The free flow of factual information between our two 
countries also serves long-term American national interests. At the 
same time, President Trump and his Administration must soberly realize 
that the areas for possible cooperation with the Russian Government are 
extremely limited as long as Putin continues to threaten American 
national interests and undermine the international order.
    To signal a credible commitment to this long-term strategy of 
containing (and at times engaging) Putin's Russia, President Trump and 
his Administration must commit to a single, unified policy. Such a 
commitment would generate bipartisan support in Congress and throughout 
American society. To date, the Trump administration appears to be 
implementing one policy, while the President pursues another. President 
Trump's adulation and support for Putin in Helsinki last July--
especially when he sided with Putin against the assessment of the U.S. 
intelligence community--undermines American national interests. Trump 
should use future meetings with Putin to push back and criticize 
illegitimate, illegal, and threatening Russian actions, just as 
American presidents did during summits with Soviet leaders during the 
Cold War. Trump can engage Putin without embracing him. Likewise, 
Trump's lukewarm reaction to sanctions only encourages Putin to seek to 
overturn sanctions by engaging Trump, rather than changing Russian 
behavior. A unified message will make all of the dimensions of a new 
strategy towards Russia outlined in this testimony more effective.
                                 ______
                                 
                   PREPARED STATEMENT OF DANIEL FRIED
Former Coordinator for Sanctions Policy, Department of State (2013-17), 
and former Assistant Secretary of State for European and Asian Affairs 
                               (2005-09)
                           September 6, 2018
    Mr. Chairman, Ranking Member Brown, I appreciate the opportunity to 
appear before you today. The topic is relevant and timely.
The Russia Problem
    In recent testimony before Congress, Assistant Secretary of State 
Wess Mitchell, Under Secretary of Treasury Sigel Mandelker, and 
Assistant Secretary of Treasury Marshall Billingslea summed up well the 
behavior of Putin's regime: its aggression against Ukraine and Georgia; 
interference in U.S. and European elections; its use of violence 
against opponents at home and abroad, including assassination and 
attempted assassination; and its autocracy and corruption.
    President Trump has noted that it would be nice if the United 
States got along with Russia. Indeed, it would. Both Presidents Bush 
and Obama tried to establish constructive relations with Putin's 
Russia. Both failed, however, and the reasons for those failures are 
instructive. Russia's conditions for good relations with the U.S. are 
those that no U.S. Administration can or should accept: namely, U.S. 
deference to Russian domination of its neighbors, including through 
intimidation and war, and U.S. indifference to Russia's repression at 
home.
    There are those in this country and in Europe who might accept 
these Russian conditions. But hard experience in the 20th century--
through World Wars and Cold War--taught that a country's bad behavior 
inside its borders is a reliable indicator of bad behavior abroad, and 
that spheres of influence established through force and repression, 
Russia's usual methods, are neither stabilizing nor self-limiting.
    Putin's system of rule combines political authoritarianism and 
economic kleptocracy; it is a regime dedicated to enriching its 
members, not the Nation it supposedly serves. Economically, it depends 
on control of raw materials which it can export. Russia's advance over 
the longer term would require, among other things, respect for the rule 
of law, property rights, and freedom of speech and assembly. These are 
reforms that the Putin regime seems unable to accept, because these 
would allow the development of economic and political power independent 
of the regime-connected crony system. Thus, the Putin regime 
essentially condemns Russia to structural stagnation, recalling the 
more reactionary Tsars and the late-Soviet period. Under these 
circumstances, Putinism cannot depend on democratic legitimacy, but 
must rely on repression at home combined with chauvinistic campaigns 
directed especially against the United States, which remains the ``main 
enemy.''
    The regime seeks to prevent its democratic rivals--what we used to 
call the Free World--from challenging Putin's regime by the power of 
their example. From this perspective, it is critical for the Kremlin 
that Ukraine not succeed in its attempt to transform itself from a 
Putin-dependent kleptocracy, as it was before 2014, to a free market 
democracy drawing closer to Europe. Should Ukraine succeed, it might 
demonstrate to the Russian people the viability of an alternative to 
Putinism. In like fashion, Putin's policy, like that of the Soviets, 
also aims to weaken the institutions of the Free World, including the 
European Union and NATO, and to discredit the very idea of democracy as 
a potentially appealing alternative for Russia.
    To challenge the Free World's democratic, rule-of-law system, Putin 
seeks to assemble a counteralliance of autocrats and nationalists. The 
Trump administration's national security strategy argues that the world 
has returned to a period of great power rivalry, with Russia and China 
challenging the United States and its allies. The Administration has a 
point, and I hope that it will seek, in a consistent way, to strengthen 
our friends and resist the aggression of our adversaries.
    Given this background, some believe that Russia will always be 
America's strategic rival, that its history condemns it to perpetual 
hostility to the United States and the values which our country has 
championed for at least 100 years.
    I do not share this view. While relations with Russia are currently 
bad and may get worse, Russia's history suggests that if the West 
resists Russia's aggression abroad, Russia may turn to reform at home, 
accompanied by efforts to improve relations with the West to support 
economic reforms and integration with the world.
    A wise U.S. policy toward Russia would, therefore, combine 
resistance to Russia's current aggression, including by working with 
our Allies; efforts to reduce the risks of destabilizing clashes, 
without, however, unwarranted concessions or apologies; cooperation 
with Russia where possible, without expecting too much, too soon; and 
the anticipation of, and planning for, potential better relations with 
a better Russia. A strong, democratic, and peaceful Russia would be an 
asset to the world and a country with which we should seek and could 
sustain better relations.
Current Russia Sanctions
    In the face of Russian aggression in many areas, the 
Administration--and Congress--have turned to sanctions as a principal 
tool of the U.S. response. Launched during the Obama administration, 
these included extensive Ukraine-related sanctions, coordinated with 
the EU and other key allied Governments; human rights sanctions through 
the Magnitsky Act, a few Syria- and DPRK-related sanctions; 
nonproliferation related sanctions; and sanctions related to 
cyberelection interference, announced in late December 2016.
    The Trump administration has continued these, adding new 
designations. It has also used additional authorities, such as a 
significant individual designation under the ``Global Magnitsky'' Act, 
new sanctions under the 1991 Chemical and Biological Weapons Control 
Act (in response to Russia's use of nerve gas in the U.K.), a strong 
set of omnibus sanctions under the framework of the Countering 
America's Adversaries Through Sanctions Act of 2017 (CAATSA), and a 
broad tranche of designations of Russian oligarchs and their companies 
on April 6, 2018. The Administration is reportedly preparing additional 
sanctions, including, according to the Washington Post, a new Executive 
order providing for more sanctions in case of Russian illegal 
interference in the U.S. midterm elections.
    The Office of Foreign Assets Control, part of the Treasury 
Department, has the major responsibility for sanctions within the U.S. 
Government and has done, and continues to do, capable work, supported 
by professionals at the State Department and NSC, both career and 
political appointees. CAATSA has given the State Department increased 
sanctions authorities; given this and the importance of sanctions 
generally, State might wish to strengthen its sanctions policy 
capacity, including by reestablishing the Office of the Sanctions 
Coordinator (which I headed from 2013-2017), led by a senior career 
official.
    Congress last summer passed a major piece of sanctions legislation, 
CAATSA, and is considering additional legislation, including the 
Defending Elections from Threats by Establishing Redlines Act (DETER) 
and the Defending American Security from Kremlin Aggression Act 
(DASKAA).
    The scope of the sanctions programs against Russia, either existing 
or planned, reflects the fact that there are a lot of areas of bad 
Russian behavior.
Sanctions Lessons
    What lessons can the U.S. draw from the use of sanctions against 
Russian targets? What are our next best moves, by the Executive and 
Congress?
    Lesson one: remember what it is we're trying to achieve. Sanctions 
should put pressure on the Russians to change their behavior. Sanctions 
are not themselves a strategy. They are a tool, as good as the policy 
they seek to advance. Specifically, the U.S. Government's (USG) Russia 
sanctions seek to:

  <bullet>  Support a settlement that will get the Russians out of the 
        Donbass and eventually Crimea, while dissuading the Russians 
        from a renewed military offensive or new forms of aggression 
        against Ukraine;

  <bullet>  Deter or limit future Russia's deplorable actions in Syria 
        (though I would keep expectations regarding Syria under 
        control), continued sanctions evasion with respect to the DPRK, 
        and more use of nerve gas to murder its enemies;

  <bullet>  Dissuade the Russians from repeated illegal interference in 
        our elections; and

  <bullet>  Demonstrate that there will be a cost for the regime's 
        gross corruption and human rights violations, including inside 
        Russia.

    Sanctions are not an alternative to diplomacy, as is sometimes 
suggested. They advance diplomacy by giving weight to our proposals, 
credibility to our threats, and leverage from which to negotiate.
    Do sanctions work? They can, if we don't get greedy or impatient. 
Sanctions, combined with other means of pressure, can sometimes bring 
about changes surpassing expectations. In the 1980s, pressure, combined 
with diplomacy and democratic resistance inside the Soviet empire such 
as Poland's Solidarity, helped bring about the end of Communism in 
Europe. But I would caution against outsized expectations. Sanctions 
alone seldom cause their target to surrender, or to admit that it is 
beaten. Sanctions usually work at a pace slower than you want (or have 
promised to your boss or to Congress). Still, if maintained and 
enforced, they can have a cumulative impact over time, especially when 
accompanied by other forms of pressure.
    Nevertheless, when sanctions work, they may bring about an 
imperfect or incomplete outcome, as is often the case with diplomatic 
action and was the case with Iran and the JCPOA (the Joint 
Comprehensive Plan of Action, a.k.a. the Iran nuclear deal).
    In my career, however, I learned not to dismiss imperfect outcomes. 
In the case of Ukraine, the imposition of U.S. and parallel European 
and Canadian sanctions, combined with Ukraine's own determined 
resistance, probably convinced Putin to limit his objectives--including 
by abandoning (for the present) Russia's floated claim of huge areas of 
Ukraine as ``Novorossiya'' or ``New Russia''--and to accept the Minsk 
framework for settlement in the Donbass. The Minsk framework is flawed, 
and it does not include Crimea. But the Minsk framework does signify 
Russia's formal agreement that the Donbass is in fact Ukrainian and 
that a settlement there will include restoration of Ukrainian control 
over its Eastern international border. The Minsk framework can be the 
basis of a settlement that ends at least part of Russia's aggression 
against Ukraine. Imperfect can be good enough.
    Moreover, it is worth doing a thought experiment: what would Russia 
have concluded and what would it have done, had the U.S. and Europe not 
imposed sanctions at all after Russia's invasion of Ukraine in 2014? 
Putin is certainly aware of--and probably follows--Lenin's old dictum, 
``Thrust in the bayonet; when you hit fat, keep pushing; when you hit 
steel, pull back.'' Had we done nothing, Russia might well have 
attempted to do still worse, such as trying to seize the Ukrainian city 
of Mariupol, pushing further West to create a land-bridge to Crimea, or 
opening new fronts in Ukraine.
    Sanctions have costs and risks, and we need to think these through. 
Sanctions should not be imposed for their optics. We should not try to 
prove our commitment to a policy by showing how much pain we're willing 
to absorb ourselves. The point is to impose costs which fall on the 
opponent, at a level minimal to ourselves.
Sanctions Options
    This background suggests the following guide-to next steps:
    Work with Allies. The U.S. imposed sanctions in solidarity with its 
European and other allies, and our allies generally did their part. 
Putin may not have expected that European Governments, given their 
varying views about Russia, would agree to impose sanctions or be able 
to sustain them. But they did. When they did, this international 
solidarity extended the sanctions' power and may have frustrated 
Putin's expectations.
    Moving forward, the U.S. should choose Russian sanctions targets 
aware of the relative impact on the U.S. and European countries, as 
well as Japan, Canada, and other allied Nations. Those impacts are not 
likely to be equal, but the U.S. should strive for some rough equity. 
U.S. and European companies have taken hits from sanctions and should 
not expect immunity in the future; companies should know by now that 
doing business with Russia carries extra risks due to Russian 
aggression. Nevertheless, both the Executive and Congress should be 
aware of the costs to business and countries before making decisions. 
Working with allies also means making clear that we will enforce 
sanctions, including, if warranted, through action against either 
European companies or our own for sanctions evasion. We must play it 
straight, however: we cannot let a narrative develop that U.S. 
companies get off the hook while European companies get hit.
    Prepare credible escalatory options. In the short-term, Putin is 
likely to continue his aggression and he may intensify it, either in 
Ukraine, against the U.S. through election interference, or elsewhere. 
Therefore, the U.S. should have, and the Russians should know that we 
have, escalatory sanctions options that are tough enough to hurt but 
restrained enough to use. Escalatory options can include two types: 
intensified sectoral sanctions targeting specific sectors such as 
finance, energy, defense/dual use technology, and cyber; and additional 
sanctions against individuals, particularly those close to Putin. We 
should escalate sanctions for cause--in response to specific malign 
Russian actions--not as a show of general irritation or as part of a 
domestic-driven political cycle.
    Within sectoral sanctions, there remains plenty of reasonable 
escalatory headroom, especially in finance and cyber. Viable options in 
the finance sector could include steps against new Russian sovereign 
debt, prohibition of new debt financing for all Russian State-owned 
companies, and imposition of full blocking sanctions against selected 
State-run financial institutions such as VEB. However, full blocking 
sanctions against all the major Russian State-owned banks is likely to 
trigger financial blowback that would not be in the U.S. or broader 
Western interest. In the cybersector, the U.S. should be aggressive in 
pursuing financial sanctions against Russian malign cyberactors and 
their sources of funding, and in denying exports of technology relevant 
to the cybersector generally. To strengthen export controls, it may be 
worth reconstituting COCOM, the Cold War-era multilateral forum, to 
coordinate Western export controls to the Soviet Union.
    There may be escalatory room in the energy sector, but the U.S. 
should be careful not to target current energy production or areas 
where U.S. and EU companies could be quickly replaced by less 
scrupulous actors. Doing so could panic markets and drive up prices, 
which might perversely give the Putin regime a windfall, causing little 
harm to Russian companies and effectively transferring western 
investments to Asian or other energy players. DASKAA Sections 601/236 
and 237, imposing mandatory sanctions and similar DETER Act sanctions 
on large energy or oil projects are probably too broad. There is much 
to be said against Nord Stream II. But sanctions explicitly targeting 
that project would risk political blowback in Germany, which has 
otherwise been key in upholding a strong European stance in support of 
Russia sanctions generally.
    Instead, in the energy sector the U.S. could intensify targeting of 
future Russian oil production. This could include banning the export to 
Russia of exotic technology such as fracking or all enhanced oil 
recovery (EOR) technologies for all new energy projects. As an 
additional escalation in response to additional Russian aggression, the 
U.S. should explore the impact of banning EOR technologies, even for 
existing and conventional fields. As a yet further escalation, we 
should with our allies explore targeting the gas sector, focusing on 
future (not existing) liquified national gas (LNG) projects.
    There is also room to target additional individual Russians close 
to Putin. CAATSA Section 241--a smart provision--instructed the 
Executive branch to produce a study identifying these people (sometimes 
called the ``The Kremlin Report''). The mere preparation of the Kremlin 
Report triggered consternation last fall within elite circles in 
Moscow, suggesting that its potential impact was significant. In fact, 
using the Kremlin Report to target Putin's circle of cronies and agents 
can demonstrate the costs of being close to Putin. The Administration 
mishandled the rollout of the Section 241 unclassified report last 
January, but appears to have drawn on the classified report, said to be 
of high quality, in preparing its April 6 package of sanctions. The 
Kremlin Report may well have considerable potential as a source of 
future sanctions. Still, discretion in picking targets will be 
required. When the Administration last April 6 imposed full blocking 
sanctions against the aluminum magnate Oleg Deripaska, a justified 
target given his actions and closeness to Putin, that required the 
sanctioning of all the companies Deripaska owns or controls, and all 
their subsidiaries, including companies located in EU member States. 
The Treasury Department has been struggling since to mitigate the 
spillover consequences while denying benefit to Deripaska, the target 
of those sanctions.
    Maintain operational flexibility. The Executive branch should make 
clear that the USG is prepared and able to remove sanctions should 
Russian behavior improve. The U.S., for example, needs to be able to 
fulfill its commitment to remove most of the Ukraine-related sanctions 
should there be an agreement that restores effective sovereignty of the 
Donbass and Ukraine's Eastern international border to Ukraine (the 
Crimea-related sanctions should remain in place while Russia occupies 
Crimea). Given the limitations imposed by CAATSA, this could be a 
challenge. Congress must be ready and willing to approve lifting 
sanctions if Russia's actions warrant it. Happily, the DETER Act 
outlines conditions for lifting sanctions imposed for Russian election 
interference.
    As it considers legislative options, Congress should allow the 
Executive branch sufficient flexibility to administer sanctions, 
especially by keeping OFAC's licensing authority intact. Licenses are 
not a tool to weaken sanctions; on the contrary, they enable bolder, 
faster action on sanctions by allowing the Executive flexibility to 
rapidly deal with unintended consequences or excessive spillover.
    Advance good legislative ideas. CAATSA Section 241 (mandating the 
Kremlin Report) was a good idea. Other good ideas from pending 
legislation include provisions targeting corrupt officials and their 
family members (DASKAA Section 601/235), restricting U.S. persons from 
dealing in new Russian sovereign debt (DASKAA Section 601/238; DETER 
has parallel provisions), allowing the U.S. to designate persons 
operating in the cybersector generally (DASKAA Section 601/239), and a 
provision that would identify beneficial owners in high-end real estate 
deals (DASKAA Section 702). This latter provision (especially if 
focused on foreign beneficial owners) would restrict the ability of 
corrupt oligarchs and others generally to easily disguise their 
purchase of expensive real estate in Miami, New York, and elsewhere. 
That said, this provision is relatively narrow and other legislation 
has been introduced that seeks on a broad basis to get at the problem 
of corrupt money flowing into the United States. Perhaps inspired by 
CAATSA Section 241, DASKAA (Section 623) mandates a study of Putin's 
wealth, which could generate additional sanctions targets.
    Timing and conditions are important. Some legislative provisions, 
such as those targeting corrupt officials or imposing greater 
transparency on real estate markets, could be put into effect now. A 
study of Putin's wealth should be launched as soon as possible and, in 
combination with the Kremlin Report, used to provide material for 
future sanctions. Preparing such a study could have deterrent value. 
Other measures, such as escalation in the financial sector, might best 
be held for future response to new acts of Russian aggression. Congress 
(and the Administration) should try, as much as is practical, to tie 
different sanctions to different aspects of bad Russian behavior, 
rather than lump all sanctions together as a response to collective 
malign actions. Advertising potential future sanctions can have 
deterrent value, and the Obama administration used this technique. If 
done thoughtfully, contingent sanctions authorities, whether in law or 
in Executive orders, can be useful, especially when they are credible 
and done in coordination or at least consultation with Europe.
    As a veteran of the Executive branch, I generally support maximum 
discretion for the Administration. If Congress chooses mandatory 
sanctions, it should weigh each action to make sure that the U.S. and 
its allies come out ahead in the balance. The current Administration 
would strengthen its case for discretion in sanctions if its overall 
message on Russia is steady; if it uses existing sanctions authorities 
well and not minimally; and if, as needed, it extends its authorities, 
such as through one or more new Executive orders, to deal with Russian 
aggression such as continued election interference.
Strategic Context
    This leads to a final thought: sanctions will have more power if 
they are embedded in an overall policy that works, is credible, and is 
consistently expressed. Russia policy has been a challenge for this 
Administration, given some of the President's remarks, including during 
his press event with President Putin in Helsinki earlier this summer. 
Nevertheless, the Administration has significant tools, and through 
wise legislation the prospect of more, to advance a strong policy of 
resisting Russian aggression, defending U.S. interests and values, and 
setting the stage for better days to come.
    A strong Russia policy should be linked to an American Grand 
Strategy which recognizes that a rules-based world which favors 
democracy is in America's national interest. For the past 100 years, 
American Presidents have advanced such a Grand Strategy, and America 
and the world have benefited thereby. Putin, and like-minded 
nationalists and despots, stand for nothing more than power. America 
can do better. At the end of our current national debate about 
America's role in the world, I hope and believe that we will recall the 
values and purposes which have propelled American world leadership.
    Mr. Chairman, Ranking Member Brown, I appreciate the opportunity to 
appear before you to discuss these issues and look forward to your 
questions.
                                 ______
                                 
                  PREPARED STATEMENT OF RACHEL ZIEMBA
Adjunct Senior Fellow, Energy, Economics, and Security Program, Center 
                      for a New American Security
                           September 6, 2018
    Thank you, Chairman Crapo and Ranking Member Brown, for giving me 
the opportunity to testify before this Committee on the effectiveness 
of sanctions on Russia and potential next steps.
    Russia's economy has largely adjusted to sanctions imposed by the 
U.S. and Europe, despite recurrent pressures on its financial markets 
when new measures are imposed. This adjustment has sparked debate about 
whether existing tools are insufficient and need to be extended or 
merely implemented more stringently. Given the significant measures 
being considered by Congress, I will lay out some of the factors that 
have shaped the impact of sanctions on Russia's economy and the drivers 
of Russian economic resilience to sanctions, in the hope of better 
targeting measures to achieve political, rather than just economic, 
objectives.
    Given the sources of resilience and adjustment in Russia's economy, 
there are grave potential consequences to the global economy and key 
U.S. allies from significantly tighter broad-based sectoral sanctions 
on Russia. These could include risks to global energy supply and 
spillover effects on other financial markets, especially in emerging 
economies. Russia has become more resilient to U.S. and European 
sanctions in the last 3 years, thanks to higher global oil prices and 
output, sound management of Russian macroeconomic policy (fiscal, 
currency, banking, and monetary), and the deepening of Russia's supply 
and financing channels at home and abroad, particularly from China and 
the Middle East.
    Paradoxically, many of the factors that cap Russian long-term 
economic growth potential at around the current 1.5-2 percent pace have 
contributed to its resilience to economic sanctions. These include 
concentration of assets in its State banks, inefficiencies of selected 
State-owned enterprises, and difficulty attracting long-term capital. 
At the same time, Russia has used the last 4 years to build up its 
domestic resilience, maintaining a tighter fiscal stance to reduce its 
reliance on foreign capital markets, liberalizing its currency regime 
to allow the currency to be part of its adjustment toolkit, and 
deepening relationships with other State-led economies, including China 
and Saudi Arabia. These countries have fewer governance or other 
demands on Russia and empower those in Russia who are more focused on 
self-reliance and extending State capitalism. The combination of 
sanctions and the oil price shock helped Russia indigenize and bring 
home selected financial assets and supply chains. Russia's economy may 
not be thriving, but it is surviving. This increases the challenge of 
imposing broad-based sanctions, as it diminishes U.S. leverage. Russian 
resilience suggests that the sort of blunt measures that might impose 
meaningful economic stress on Russia might also create damaging global 
spillovers, primarily by increasing energy prices. This, in turn, could 
dampen global consumption, spread contagion to emerging markets, and 
extend U.S. dollar strength that challenges U.S. exports. Such measures 
are also more likely to be seen by the Russian Government as acts of 
war, and by others, including U.S. allies, as disproportionate, thus 
limiting their impact.
    That said, Russia does have vulnerabilities that proposed financial 
sanctions would target. It has drawn down much of its sovereign wealth 
savings, has many structural rigidities, and has low potential for 
growth. The main source of vulnerability for Russia's economy lies in 
its dependence on natural resource exports, especially oil and gas, but 
also agriculture and metal production, which collectively account for 
the bulk of Government revenues, trade revenues, and performance of its 
financial markets. This implies that the sort of severe economic shock 
that would prompt a recession in Russia might require significant 
reductions in demand for Russian resources, including oil and gas. A 
shock severe enough to force significant quantities of Russian oil and 
gas off the market (a much more aggressive outcome than being 
considered by current legislation), would come with significant global 
costs, including potential sharp increases in energy prices for U.S. 
and global consumers. These energy-price spikes, in turn, could provide 
a potential windfall to Iran, undercutting U.S. policy toward that 
country. Such measures should not be considered now given their 
significant costs to the global economy and potentially international 
stability.
    The Russia sanctions program, at its most effective, has been 
targeted and coordinated with allies, traits that contributed to its 
initial economic and financial impact. This Committee, and Congress 
more broadly, have an opportunity to refocus on targeting those 
responsible for malign behavior by the Russian State, rather than broad 
punitive actions, which would be less effective in achieving U.S. 
policy with respect to Russia and could undermine the effectiveness of 
future sanctions tools.
Impact of Past Economic Sanctions and Sources of Russian Resilience
    The main macroeconomic impact of the financial sanctions 
implemented since 2014 has been a financing shock that contributed to 
capital outflows and more restrictive policy. Pressure on Russian 
capital markets increased risk premiums, exacerbated capital outflows, 
and amplified the economic pressures of the coincident oversupply of 
global oil markets. Together these trends contributed to a rise in 
inflation and contraction in real gross domestic product and earnings 
in 2014-15. Russia gradually exited recession in 2016, economic 
activity began to expand modestly in 2017, helped by the revival in 
energy prices, and more recently volumes. Further sanctions, including 
some of those implemented this year, have again triggered pressure on 
the exchange rate and other securities, though these impacts have 
tended to fade, due to Russia's by-the-book macroeconomic policy 
choices and the stronger resource environment. The coincidence of these 
shocks provided domestic political cover for Russian Government 
officials who wanted to take tough decisions including fiscal cuts, 
pension reform, and restrained investment.
    U.S. and EU sanctions contributed to a major shock to Russia's 
financial markets in 2014 and 2015, amplifying the impact of the sharp 
decline in oil and gas prices in 2014, which weakened Russia's nominal 
GDP, and lead to a contraction in economic output. Sanctions to 
restrict the duration of finance, high interest rates at home to retain 
capital, and austere fiscal policy all contributed to a mild recession 
and left Russia reliant on financing from China and the Gulf States. 
However, the economic output loss was much milder than it had been 
during the global financial crisis or the Russian crisis of 1998, both 
of which had sharper financial pressure, liquidation of inventories and 
uncertainty about global demand. Several reasons explain the relative 
resilience of Russia's economy to the twin shocks of sanctions and 
falling energy prices. These include the lack of inventory rebuilding 
by firms after the global financial crisis, the decision not to control 
the exchange rate, and the availability of domestic financing to avoid 
defaults. The Russian Government's adherence to orthodox macroeconomic 
policies, while surprising to some at the time, helped it emerge from 
this crisis and adjust to the economic sanctions over time.
    Energy, and to a lesser extent other commodities (metals and 
agriculture), remain key transmission channels of global shocks to the 
Russian economy and financial markets. This trend holds, despite the 
diversification of the economy, because export revenues and Government 
funding remain based on commodities. Oil and natural gas prices and 
demand, which hit Russian revenues, remain critical drivers of Russian 
macroeconomic and market performance. Orthodox economic policymaking, 
including tight fiscal and monetary policy and ample banking-sector 
liquidity, helped Russia adjust to the economic sanctions and avoid 
default. Indeed, Russia's external (foreign currency) debt was much 
lower than most emerging-market peers (Turkey, Brazil) in 2014, and it 
stands even lower today.
    Depreciation of the ruble was a major tool of adjustment, 
facilitating a drop in imports and helping to maintain the domestic 
value of most resource exports. As the global energy market rebalanced, 
due in part to the pact between Russia, OPEC, and other energy 
producers, oil revenues began to increase. Now in 2018, Russia is one 
of the few countries which has spare capacity to deploy to meet 
increased global demand. As Brent crude currently approaches $80/
barrel, up from a low in the mid-$30s in late 2014, Russian global and 
local revenues have increased significantly. Indeed, periods of weaker 
ruble value due to sanctions uncertainty actually can increase the 
local currency value of these exports, helping the Russian Government 
meet its local spending needs and gain higher revenues for its 
nonenergy exports (including other resources, military equipment, and 
technology). Such unintended consequences may limit the effectiveness 
of sanctions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Russian economic growth has averaged a lackluster 1.5 percent for 
the last 3 years after exiting recession. The 2017 pace of 2 percent 
was above what economists estimate to be its potential suggesting that 
continued growth at that level is not sustainable without incurring a 
major inflation shock, or unless there is a major change that prompts a 
productivity jump. While not a high rate of growth, 1.5 percent is not 
far from the Russian Government's admittedly conservative estimates of 
growth from the mid-2010s. \1\ This suggests that Russia adjusted to 
sanctions (and the oil price shock) and that some of the weak growth 
reflects limited capital investment, productivity, and low labor force 
participation, all chronic for Russia.
---------------------------------------------------------------------------
     \1\ Alexei Kudrin and Evsey Gurvich, ``A New Growth Model for the 
Russian Economy'', Russian Journal of Economics 1, No. 1 (March 2015), 
https://www.sciencedirect.com/science/article/pii/S2405473915000033 
provide a review of these drivers and propose measures which could 
change the low productivity environment, few of which seem likely to be 
implemented, even in the absence of sanctions. More recently these were 
reviewed in Martin Russell, ``EU Parliament Members Research Service'', 
2018, http://www.europarl.europa.eu/RegData/etudes/IDAN/2018/625138/
EPRS_IDA(2018)625138_EN.pdf and numerous analyses by the EBRD, World 
Bank and IMF.
---------------------------------------------------------------------------
    In addition to the ruble flexibility, other elements of Russia's 
policymaking contributed to its resilience including its textbook 
adoption of restrained fiscal and monetary policy. Russia sped up 
planned implementation of inflation targeting, which kept interest 
rates high and retained capital. It also chose to follow a conservative 
fiscal policy, reducing its need to issue additional debt. Finally, 
Russian State companies and banks faced political pressure to return 
capital and to buy up local assets rather than send it abroad. That 
coordination helped to meet the end of 2014 financing pressures, and 
would likely be used in the Future.
    Russia's increasing financial ties with China and the Middle East 
have provided another important lifeline. Russia's sovereign 
development platform, the Russia Direct Investment Fund (RDIF), has 
been a major vehicle for attracting foreign investment. The RDIF, 
created in 2011 to entice wary foreign capital via coinvestment with 
the Russian Government, has been the means through which most 
greenfield investment has entered Russia in the last 4 years. The RDIF 
has established joint funds with many sovereign funds and pension 
funds, allowing them to access assets not available on public markets 
and to ensure Russian Government skin in the game to reduce 
expropriation risk, another example of a tool created to temper 
Russia's governance vulnerabilities and build its resilience against 
sanctions and other shocks. Pledges include $10 billion coinvestment 
funds with entities like Abu Dhabi's Mubadala, Saudi Aramco, various 
Chinese public and private companies, and smaller funds with European, 
South Korean, and Japanese entities. \2\ Even if not all of these 
measures have been implemented these sovereign-to-sovereign 
coinvestments appear to have helped Russia mitigate the effect of 
sanctions, reinforcing the concentration of financing.
---------------------------------------------------------------------------
     \2\ For a full list of coinvestment vehicles, sub-funds, and 
holdings, please see the RDIF website https://rdif.ru/Eng_Partnership/.
---------------------------------------------------------------------------
Potential Future Economic Effects of Sanctions
    Energy sector sanctions, which included shortening the duration of 
lending to Russia's main energy companies, seem to have had more impact 
on long-term investment than short-term output. The latter already 
benefited from pre-2014 investment programs, high prices, and tax 
changes that incentivized production. The reduction in investment from 
European and U.S. energy companies and servicing firms is likely to 
restrain oil and gas output in Russia beyond 2020. While Russian energy 
companies have been able to find new financing from China, among 
others, enabling them to procure capital and parts, the quality of 
investment has likely declined.
    Looking ahead, now that Russia has mostly recovered from the 
recession of 2014-15, growth is likely to average around 1.5 percent in 
the remainder of 2018 and 2019. What factors might prompt a slowdown? 
The most likely negative shock would be a reduction in oil or natural 
gas export volumes, which would cause a terms-of-trade shock and hit to 
local revenues as well as weaker currency and higher interest rates. A 
sharp decline in the ruble and selloff of Russian sovereign, sub-
sovereign, and financial sector assets would likely increase local 
interest rates, dampening growth. However, local actors (financial 
firms and pensions) would likely be willing to purchase these assets. 
Other foreign actors, including State-linked vehicles in China, 
elsewhere in Asia, and the Middle East might also be interested. The 
net result would likely empower actors in Russia who look inward and 
resent Western influence, and might increase the influence of U.S. 
competitors like China.
Potential Consequences of Proposed Sanctions on Sovereign Debt, the 
        Energy Sector, and the Financial Sector
    This Committee is currently considering several pieces of 
legislation that would give the Administration powers to increase 
sanctions on Russian entities or mandate additional sanctions. As 
written, they would add to the powers present in past legislation (like 
the Countering America's Adversaries through Sanctions Act (CAATSA)) 
which have yet to be fully implemented by the Administration. While the 
economic and financial impact would vary based on implementation and 
enforcement, it is possible to map the transmission mechanisms to 
assess the impacts on Russian entities and potential spillovers to the 
global economy and financial markets.
    Sovereign Debt: Limiting the holding of newly issued Russian debt 
by U.S. persons, either in the primary or secondary market would likely 
reduce local liquidity as well as raising risk premia on other Russian 
assets, State-owned or not. Merely the prospect of U.S. sovereign debt 
sanctions has contributed to recent price pressures and capital 
outflows, though these have been short-lived. Implementing these 
measures would reduce the Russian Government's monetary and fiscal 
policy space, but would be unlikely to cause a major financing 
challenge for Russia given the significant availability of liquidity in 
the banking system, the country's net asset position, and some of the 
savings available both from local actors and Asian/MENA Governments 
that have provided capital.
    In short, imposing sanctions on sovereign debt might further 
increase Russia's reliance on Chinese and GCC funding, as well as 
prompting Government efforts to repatriate capital from the U.S. and 
Europe, including via dedicated sovereign bonds.
    Targeting Russian sovereign debt would also raise some important 
precedents for global markets. Some people have looked to other 
sanctions cases for comparison, especially Venezuela--where sanctions 
were imposed on new sovereign debt--and Iran, which has no foreign-
owned debt and has been excluded from much of the global banking system 
due to sanctions and severe money laundering violations. In Venezuela, 
sovereign bonds were already trading well into default territory and 
thus had very low correlations with other sovereign debt, given the 
idiosyncratic risks of limited payment of debt, sizeable arrears, and 
nationalization. Venezuela by its actions had already cut itself off 
from the global financial markets in a way that Russia has not, 
suggesting that there could be portfolio contagion effects if 
concentrated emerging market investors look to exit Russia quickly, 
selling to local actors. This in turn could add to volatility (rallies 
and selloffs) of a range of mostly European, Middle Eastern, and 
African higher-yielding assets, adding to political uncertainty.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As such, sovereign debt sanctions would likely imply some spillover 
risk, as investors look to sell some of their other emerging market and 
European, Middle Eastern, and African assets to compensate for losses 
in Russia. While the U.S. itself might be relatively resilient to these 
trends, the net result might be a weaker global economy, greater 
uncertainty for U.S. exports, and greater impetus towards new payment 
systems. In turn these might increase safe-haven flows toward USD-
denominated assets, strengthening the dollar and reducing these 
countries' purchasing power and ability to maintain purchases including 
of U.S. goods.
    The Russian Government has also acted to build its resilience: 
issuance of new sovereign debt has been falling due to its conservative 
fiscal stance, with the bulk of the issuance in rubles rather than U.S. 
dollars or euros. Conservative Russian fiscal policy suggests that the 
country has the ability to reduce its issuance further if needed. This 
might not be an ideal sustainable long-term solution, but could temper 
the short-term impact on Russia. Foreign investors, including U.S. 
actors and financial actors in Europe and Asia, who are more likely to 
have U.S. persons among their investors and counterparts, would bear 
the brunt, something Members of this Committee may want to consider and 
weigh against possible damage to Russia.
    Another possible unintended consequence might be increased pressure 
to develop new payments and clearing systems, including measures that 
China and Russia have been considering. While these measures are far 
from being realized at this point, new sanctions on sovereign debt 
might accelerate their development.
    Banking Sector Measures: Proposed legislation would extend and 
increase measures to restrict finance to Russia's major banks, 
especially State-owned banks, in the hope that this would prompt policy 
change and reduce cash flow. Some of these banks already face 
restrictions issuing debt in European and U.S. markets, but have 
largely been able to continue to finance themselves. Targeting the 
larger banks not only would increase global counterparty risks but 
might also be seen as a disproportionate act, reducing the willingness 
of third-party States to comply.
    Russian banks continue to operate in a liquidity surplus, 
especially the big banks, and are cautious about lending to local 
actors, especially the private sector. This liquidity surplus reduces 
the need of State banks to issue debt locally or abroad as they are 
funded with local deposits. Private sector banks are more vulnerable 
due to domestic reasons. Since the global financial crisis, Russian 
State banks like Sberbank have been winning the war for deposits and 
loans over their smaller counterparts, who are struggling to grow 
profits. Foreign banks too, have struggled to attract deposits, and 
tend to be subject to more restrictions. Russian authorities might 
respond to new sanctions with greater regulatory burdens on global 
banks in retaliation.
    The large State-owned banks like Sberbank have increased their 
assets, liabilities, and share of the local market since 2008, and have 
been a beneficiary of the Government's efforts to close down selected 
small- and medium-sized banks. These smaller banks tend to have more 
money-laundering allegations, terror financing risks and in some cases 
related party lending to the conglomerates to which they are linked. 
The central bank has been effective in dealing with a series of bank 
failures, including some of the medium-sized private banks which were 
more involved in high-risk lending, but the net result has been modest 
credit growth due to supply and demand of credit restraints, which has 
limited the willingness of local banks to pass on the additional 
liquidity. As a result, restrictions on their foreign finance would 
likely dent but not cripple Russia's banks who would likely be able to 
find local finance. If so, the net result could be a further 
consolidation of Russia's bank finance domestically and in the hands of 
State actors.
    It is worth briefly discussing the potential impacts of excluding 
select Russian entities from the SWIFT payments system, something that 
I believe is not currently being considered due to the potential risk 
to this payment system. I share a concern about their potential risks, 
which reflects Russia's role as a significant global counterparty, its 
domestic financing notwithstanding. Looking to restrict Russian banks 
from SWIFT would likely cause a real challenge for U.S.-EU relations, 
potentially increasing the costs and uncertainties if the transatlantic 
stance becomes less aligned. The heavy integration between the U.S. and 
European banking systems argues against imposing new regulations that 
would boost counterparty risk, hamper efforts to monitor money 
laundering and terrorist finance violations and assess systemic risks. 
Such divides could again encourage the development of new payments 
systems, not only from entities like China and Russia, but also 
eventually from Europe for select transfers, resulting in barriers that 
might increase costs for U.S. actors, and make it harder for U.S. 
policymakers to assess financial risks or impose sanctions. These are 
not near-term risks, but could undermine the long-term leverage of the 
United States not only on Russia but also other entities.
    Energy Sector: Proposed energy sanctions under consideration would 
extend existing measures to limit investment in and access to capital 
for Russian energy firms, which are mostly State-owned. As with other 
sanctions, the impact would be more likely to come in medium-term 
production as underinvestment and lack of access to State-of-the-art 
equipment might make it more difficult for Russia to replace depleting 
fields.
    Russia has been a major beneficiary of the recent rebalancing of 
the global oil market, which stems in part from supply collapse in 
Venezuela, smaller outages elsewhere, including in Africa, and, more 
recently, the reduction in Iranian crude oil and product exports. \3\ 
Russia, along with Saudi Arabia and other oil producers in the Gulf 
Cooperation Council, are among the few countries with sufficient spare 
capacity to increase production, which has boosted Russia's U.S. dollar 
and local currency earnings. This suggests that measures to temper 
investment in the energy sector might have limited impact on Russian 
policy decisions. This Committee would need to weigh several objectives 
and risks to U.S. security, including the impact of even greater 
Chinese influence on the Russian, Central Asian and Middle East/North 
Africa energy sectors, as well as the priority placed on countering 
Russian activity versus Iranian activity. Measures to counter Russian 
energy sector finance might increase the incentive of Russian actors to 
become involved with smuggling operations in Iran.
---------------------------------------------------------------------------
     \3\ Ziemba, Rachel, Edoardo Saravalle, and Elizabeth Rosenberg, 
2018, ``The Trump Administration's Iran Strategy May Be High-Cost, Low-
Return'', Center for a New American Security, https://www.cnas.org/
publications/commentary/the-trump-administrations-iran-strategy-may-be-
high-cost-low-return.
---------------------------------------------------------------------------
    Proposed legislation does not seem to aim at measures that would 
restrict current energy production, which I see as the most meaningful 
potential shock to the Russian economy, and also to the global economy 
through the risk of increased costs to consumers. Efforts to restrict 
energy exports and revenue would likely be viewed by Russian officials 
as a disproportionate response to U.S. concerns about Russian policy. 
Moreover any efforts to restrict energy output would likely undermine 
the already difficult task of restricting Iranian oil output. Russia, 
along with the Gulf Cooperation Council and the U.S. are among the few 
countries likely to increase oil production meaningfully in 2018-19. I 
would see a high risk of damaging unintended consequences of any moves 
to sharply restrict Russian resource exports, on U.S. consumers and on 
U.S. allies in Asia and Europe, who are the primary buyers of Russian 
supplies. Given the tightening balance of global oil supplies, and the 
fact that OPEC+ is struggling to replace production declines in 
Venezuela and Iran, the United States might need to choose among its 
priorities or risk sharp increases in costs to consumers.
Impact of Potential Retaliation and Countersanctions from Russia
    Russian countermeasures and policy choices are a major factor when 
assessing the economic and political impact of sanctions. In 2014, 
Russian counter sanctions on European food products contributed to 
nonnegligible declines in EU food production, especially for countries 
like Poland and Finland. \4\ These countermeasures amplified the impact 
of the ruble depreciation (which would have discouraged imports to some 
extent on its own) and helped to support a previously stated Russian 
objective of deepening its domestic production on food production and 
manufacturing sectors. Funding to support greater local production in 
these areas was one of the few areas of increased Government funding in 
the austere budget of 2015. Despite the increase in trade-related 
inflows, Russian import growth has remained soft, growing much more 
slowly and perpetuating its trade and current account surplus. While 
trade ties between the U.S. and Russia remain very small and investment 
flows have fallen, European firms and those in Korea could bear some 
increased costs.
---------------------------------------------------------------------------
     \4\ Iikka Korhonen, Heli Simola, and Laura Solanko, 2018, 
``Sanctions, Counter-Sanctions and Russia--Effects on Economy, Trade, 
and Finance'', Bank of Finland, https://helda.helsinki.fi/bof/
bitstream/handle/123456789/15510/bpb0418.pdf?sequence=1.
---------------------------------------------------------------------------
    This trend of import substitution (replacing imports with local 
production via new policies and boycotts) remains a major Russian 
policy priority. There is more evidence of success in the military 
production and energy technology sectors. Efforts that look to 
eliminate Russia's access to global markets would be welcomed by some 
members of the Putin Government and Russian officials who are looking 
to make Russia more self-sufficient, and thus would be unlikely to 
prompt policy change.
    One area of recent concern has been Russia's holdings of U.S. 
Treasurys and other U.S. assets. While any sharp drop in foreign 
holdings would be meaningful and concerning, if it sparked a broader 
trend among larger holders like China or the pension funds of Europe 
and Japan. Official U.S. data suggested holdings fell from a recent 
peak of $98 billion in early 2018 to $48 billion in April 2018 and $9 
billion in May 2018--the biggest 2 month drop since the global 
financial crisis, when Russia sold its reserves to prop up the 
currency. The drawdown in U.S.-denominated assets may reflect outflows 
following the implementation of sanctions on Rusal and other designees 
in April. The data may overestimate the drop, though. \5\ Even if 
Russia did sell its holdings, the volume is small compared to the 
monthly treasury issuance (which is set to increase in 2019) and small 
compared to potential Fed action should there be a notable sign of 
yields rising. Holdings at their peak were $144 billion in 2011 and 
fell to $108 billion at the end of 2014 due to currency intervention, 
capital outflows and diversification of reserves to better match 
Russian trading partners. The Russian sales would more meaningful 
impact if they sparked a greater sales by China or other actors, but do 
not seem to be a major concern for U.S. financial stability on their 
own. China has several reasons not to sell its Treasurys including 
concern about the resulting appreciation of their own currency and 
domestic financial stability, a topic better addressed in another 
venue.
---------------------------------------------------------------------------
     \5\ The U.S. Treasury (TIC) data does not report holdings through 
overseas custodians, something that complicates monitoring. Russia did 
sell down agency holdings at a pivotal economic and political time 
ahead Benn Steil, Council on Foreign Relations, 2018, https://
www.cobdencentre.org/2018/08/benn-steil-did-russia-really-dump-its-u-s-
debt/.
---------------------------------------------------------------------------
Conclusion
    In conclusion, further sanctions would undoubtedly cause pain to 
Russian actors and financial markets, but should take account of the 
growing sources of resilience within Russia, especially the 
stabilization of the global oil market and associated increase in 
revenues. In fact, the recurrent financial and currency shocks 
following sanctions implementation have helped Russia maintain the 
local currency value of exports without meaningfully impacting ample 
domestic liquidity. Furthermore economic stress does not necessarily 
trigger political change, particularly in the case of a country like 
Russia, when sanctions may provide political cover for domestic 
priorities such as deepening of supply chains and reducing foreign 
exposure. This resilience suggests that measures that target Russia as 
a whole may need to be increasingly blunt, increasing the risk to the 
global economy. This suggests that an effort to retarget sanctions to 
the individuals involved in malign behavior may be warranted. This 
would prevent mission creep, more closely tie penalties to the actions 
involved and provide more incentives for compliance. It would also 
limit the risk of empowering the very actors (Russian and foreign) who 
seek to harm U.S. interests and security.
    U.S. policymakers may need to weigh the costs of blunt measures 
towards Russia as they may challenge coincident efforts to choke off 
financing to Iran, or add to price volatility of fuel for American and 
global consumers. Russia's increased reliance on local financing, and 
that from China and Middle Eastern autocracies challenges U.S. 
influence. Efforts to exclude Russia from select global financial 
markets might not only contribute to additional pressure on emerging 
markets economies and the energy markets, but might deepen the common 
interests between Russia and the GCC, Turkey, and China in ways that 
may reduce U.S. influence in all of these countries. The activities 
Russia is involved in are serious and a threat to our institutions, so 
too might be blunt U.S. measures that escalate pressure on Russia. One 
way to temper these risks might be to increase U.S. policy coordination 
with allies in Europe, as well as developed Asia, especially those that 
have been at risk from these policies. Further sanctions targeting of 
Russian actors involved in specific malign activities might assist in 
building this coalition.
    Thank you for your time and attention. I look forward to your 
answering your questions.
                                 ______
                                 
                PREPARED STATEMENT OF HEATHER A. CONLEY
 Senior Vice President for Europe, Eurasia, and the Arctic, Center for 
   Strategic and International Studies, and former Deputy Assistant 
           Secretary of State for Eurasian Affairs (2001-05)
                           September 6, 2018
    Mr. Chairman, Ranking Member Brown, and distinguished Members of 
the Committee, thank you for this important opportunity to testify and 
share my thoughts on the current effectiveness of Russian sanctions and 
next steps. Unfortunately, the sanctions the United States has imposed 
have not been effective, and our next steps must include developing a 
comprehensive and durable U.S. policy framework toward Russia--one that 
focuses like a laser-beam on stopping illicit Russian financing and 
corrupt activities while substantially boosting transparency efforts, 
such as on beneficial ownership.
Sanctions Tools in Search of a Policy
    If my count is accurate, the U.S. currently has 58 separate sets of 
sanctions against Russia across eight broad lines of effort that date 
back to 2011. What have we achieved in 7 years? Very little. Russia has 
not altered its behavior; if anything, the Kremlin has significantly 
accelerated and expanded its malign activities. If something is not 
working for 7 years, it earns the right to be reassessed. I am very 
grateful that this Committee is willing to conduct such an assessment 
as it considers new legislation that increases U.S. sanctions against 
Russia.
    This Committee has oversight and jurisdiction over some of the most 
powerful and punishing tools in the U.S. arsenal: sanctions. But tools 
are used to construct something; they are not sufficient in and of 
themselves. For far too long, the U.S. has imposed sanctions in lieu of 
constructing policy frameworks. When confronted by a State or non-State 
actor that challenges international laws and norms, our first instinct 
is to quickly demonstrate that we are ``doing something'' by sending a 
policy signal through sanctions. But that is often where the process 
seems to come to an abrupt stop and, over time, we accumulate a series 
of sanctions that backs us into a policy rather than working towards 
clear objectives.
    In the case of Russia, we have now stretched this concept to a 
breaking point. To summarize, we are currently sanctioning Russia under 
the following categories:

  <bullet>  Transnational and organized crime

  <bullet>  Human rights violations and corruption

  <bullet>  Illegal annexation of Crimea and violation of Ukraine's 
        territorial integrity and democratic institutions

  <bullet>  Interference in the 2016 U.S. presidential election

  <bullet>  Supporting the Syrian regime and its activities

  <bullet>  Cyberenabled activities

  <bullet>  Violating North Korea sanctions

  <bullet>  Use of chemical weapons

    Curiously, we have never sanctioned Russia for its ongoing 
violation of the Intermediate Nuclear Forces (INF) Treaty, and one 
would think that violating a nuclear arms treaty for the past 10 years 
would have made this list, \1\ but this has not occurred for reasons 
unknown to me.
---------------------------------------------------------------------------
     \1\ Michael R. Gordon, ``U.S. Says Russia Tested Cruise Missile, 
Violating Treaty'', The New York Times, July 28, 2014, https://
www.nytimes.com/2014/07/29/world/europe/us-says-russia-tested-cruise-
missile-in-violation-of-treaty.html.
---------------------------------------------------------------------------
    The only policy framework that is attached to one of these 
sanctions categories and that has benefited from a clear policy path 
and a broader consultative framework with our European allies has been 
the sanctions related to Russia's military incursion in eastern 
Ukraine, the policy framework of the February 2015 Minsk Agreement 
(also known as Minsk II) to which the United States is not party. And 
even with the benefit of a policy framework, for the past 3\1/2\ years, 
not only has there been no meaningful progress on the implementation of 
the Minsk agreement, but cease-fire violations occur regularly, and 
loss of life continues on a near daily basis. It is highly unlikely 
there will be any further progress--rather, it is likely there may be 
greater instability--until next year's presidential election in 
Ukraine, which the Kremlin hopes will produce a more pliant Ukrainian 
leader.
A Policy That Prioritizes
    From this extraordinary list of sanctions, and as you consider 
future sanctions legislation, I fear neither the Administration nor 
Congress can adequately answer these questions: Do we and Moscow have a 
clear understanding of what steps Russia must take (other than to cease 
and desist its activities) to return to an international normative 
framework? Do we understand how these different sanctions interact with 
each other, or are potentially redundant? Do we understand the impact 
of their cumulative effect on U.S. companies, and the economic impact 
on our allies? Do we understand how U.S. sanctions against other 
adversarial regimes such as North Korea and Iran interact with and 
impact U.S. policy toward Russia?
    We do not have answers to these questions, but we continue to 
sanction Russia nonetheless.
    Simply put, looking tough is not a substitute for clear policy.
    In 1947, George Kennan provided the strategic underpinnings of the 
``Sources of Soviet Conduct'' \2\ which formed the basis for an 
overarching U.S. policy toward the Soviet Union that endured for more 
than 50 years. The United States must now craft a similarly enduring 
policy that addresses the global nature of Russia's disruptive and 
malign behavior, which stretches from North Korea and Venezuela to 
Syria, but focuses its most destructive intent on the United States and 
Europe. We must develop a prioritized policy that establishes a clear 
roadmap for Russia to return to international legal norms--to which it 
is legally bound--as well as a clear and consistent path of punishments 
that will escalate should Russia continue to violate these 
international legal norms. The United States has lacked a coherent 
policy toward Russia since the end of the ``reset policy'' in 2011, 
largely after it had achieved its near-term objectives to negotiate the 
new START Treaty, secure Russian support for the Iran nuclear 
agreement, and gain Russian support to increase U.S. supply lines to 
Afghanistan. For the past 7 years, we have needed a comprehensive 
framework of action whose long-term policy direction and consequences 
are understood by both Washington and Moscow, as well as fully 
supported by our allies.
---------------------------------------------------------------------------
     \2\ George F. Kennan (originally published under ``X''), ``The 
Sources of Soviet Conduct'', Foreign Affairs, July 1947, https://
www.foreignaffairs.com/articles/russian-federation/1947-07-01/sources-
soviet-conduct.
---------------------------------------------------------------------------
    One such policy consequence is inadvertently sliding into a larger 
antagonistic posture with Russia as we escalate the imposition of 
sanctions in the absence of a comprehensive policy framework. At some 
point, Russia may view the culminating effect of U.S. sanctions as an 
act of war or a direct threat to the regime's survival, all steps for 
which I believe the U.S. Government is currently ill prepared. Please 
do not take this warning as a signal that we should stop punishing 
Russia for its malign behavior. Far from it. I believe the Russian 
Federation is a pariah State that poses a threat to the United States. 
But because this Committee is examining even more powerful sanctions 
legislation against Russia--an adversary that has repeatedly 
demonstrated it is willing to tolerate punishment and will take 
military action to achieve its political objectives--it is essential 
for us to fully prepare our policy for a time when Russia no longer 
absorbs U.S. sanctions without taking direct action against us.
    To fully prepare, we must prioritize. Our first policy priority 
must be the defense of the homeland and the need to protect the United 
States to the best of our ability against Russia's cyberenabled attacks 
against U.S. voting systems, voter data and other critical 
infrastructure. This also entails thwarting Russia's ongoing 
disinformation campaign and influence operations through greater public 
awareness and proactive deletion of fake social media accounts; and 
ending the illicit use of the U.S. financial system, affiliated 
institutions and U.S. citizens to advance its malign influence and 
subvert our democratic institutions.
    Our second priority must be the Russian Government's return to 
abiding by international legal norms, which includes respect for the 
territorial integrity of neighboring sovereign Nations Ukraine, 
Georgia, and Moldova, and for the U.N. Chemical Weapons Convention and 
current arms control treaties, including the INF Treaty. We must 
modernize the foundations of the Helsinki Final Act, and in particular 
the Vienna Document, to restore the transparency of Russian military 
forces and exercises, and to return to confidence-building measures to 
avoid miscalculation, particularly as there continues to be 
unprofessional conduct by Russian forces near U.S. vessels and 
aircraft.
    Our third priority must be to restore our focus on the human 
dimension and the dignity and rights of the individual because 
ultimately, the success of U.S. foreign and security policy rests on 
this pillar. As President Reagan understood, peace through strength 
meant both a strong U.S. military and a proactive foreign policy that 
promoted democratic values and worked closely with civil society. The 
success of U.S. policy in the Cold War, particularly after 1975, was 
the United States' focus on the human dimension and the whole-of-
Government effort to support democratic impulses wherever they were 
growing. As neo-authoritarianism and illiberalism finds fertile ground 
across Europe, U.S. policy must return to its offensive posture on 
elevating the dignity of the individual and the importance of civil 
society in its relation to the State.
Why Russia Has Not Responded to U.S. Sanctions
    As we develop this overarching policy framework, it is essential to 
understand why we are not seeing any near-term changes in Russian 
behavior after 7 years of U.S. sanctions: the Kremlin has largely been 
able to stabilize economically despite 7 years of increasing sanctions. 
With the recent increase in energy prices and depreciation of the 
Russian ruble, the Kremlin has found an economic equilibrium of sorts. 
Its GDP is anticipated to grow by 1.5 percent in 2018. \3\ Contrary to 
conventional wisdom, Russia is not currently suffering economic 
hardship. Conveniently, Moscow can blame any hardships on Western 
sanctions and not its own long-term economic mismanagement, which is 
beginning to manifest with growing public discontent over the regime's 
timid efforts to reform. By redirecting trade patterns, Russia has 
renationalized portions of its agricultural and energy sectors and 
forced the cannibalization of Russian companies and banks. Russia's 
economy will remain vulnerable to volatility in emerging markets and 
uncertainty in the commodities market but largely, our economic 
sanctions have had little effect on either the regime's economy or 
behavior. At the same time, President Putin has effectively 
consolidated his leadership of a national security State that is 
prepared for a prolonged period of economic stagnation and decline.
---------------------------------------------------------------------------
     \3\ ``World Bank Lowers Russia 2018 Economic Growth Forecast'', 
Reuters, May 23, 2018, https://www.reuters.com/article/us-russia-
economy-worldbank/world-bank-lowers-russia-2018-economic-growth-
forecast-idUSKCN1IO2MM?il=0.
---------------------------------------------------------------------------
    This is not a regime that is tiring; it is a regime that is ready 
for the long haul. We, and our European allies, however, are not ready.
    Interestingly, of all the sanctions that the U.S. has imposed or 
threatened to impose over the past 7 years, what appears to disturb the 
Kremlin the most is the worldwide adoption and spread of the Global 
Magnitsky Human Rights Accountability Act. This Act shines an 
international spotlight on the excesses and corrupt nature of Russia's 
oligarchic capitalism, and how it functions within Russian society. 
Because the Kremlin has based its economic model and its survival on 
kleptocracy, sanctions and other policy instruments dedicated to 
preventing the furtherance of corruption--or worse yet in the minds of 
the Kremlin, to providing accurate information to the Russian people of 
the extent of this corruption--are a powerful countermeasure to 
Russia's malign behavior.
A Better Way To Sanction: End Russian Illicit Financing (and U.S. 
        Complicity With It)
    CSIS's longstanding research into better understanding how Russian 
malign economic influence works to undermine democratic institutions 
and the rule of law in Europe has shown how extensively Russian-backed 
corruption, money laundering, illicit financing and opaque beneficial 
ownership allows Russian malign influence to persist and proliferate. 
The 2016 release of the Panama Papers \4\ exposed extensive levels of 
corruption by Russian Government officials and oligarchs through 
investigative journalism, to the great embarrassment of the Kremlin. 
This was furthered by the 22 million-plus downloads of the ``He Is Not 
Dimon to You'' documentary produced by Russian opposition figure, 
Alexei Navalny, which showed the extraordinary and extravagant wealth 
of Russian Prime Minister Dmitri Medvedev that was reportedly channeled 
through charitable foundations. The documentary motivated spontaneous 
demonstrations across 80 Russian cities in 2017 and 2018. \5\
---------------------------------------------------------------------------
     \4\ Organized Crime and Corruption Reporting Project, ``The Panama 
Paper'', 2016, https://www.occrp.org/en/panamapapers/.
     \5\ Doug Stanglin, ``Rallies in 80 Russian Cities Protest 
President Vladimir Putin on His 65th Birthday'', USA Today, October 7, 
2017, https://www.usatoday.com/story/news/2017/10/07/rallies-80-
russian-cities-protest-president-vladimir-putin-his-65th-birthday/
743050001/.
---------------------------------------------------------------------------
    The most powerful elements of proposed sanctions legislation, such 
as the Defending American Security from the Kremlin Aggression Act of 
2018 among others, is the enhanced financial transparency specifically 
related to domestic title or beneficial ownership. This legislation has 
a vital dual purpose: it simultaneously strengthens U.S. institutions 
and rebuilds trust in these institutions while ending Russia's illicit 
and corrupt activities. I strongly urge this Committee to quickly craft 
and pass legislation enhancing anti- money laundering measures and 
fostering greater transparency in ultimate beneficial ownership with a 
specific focus on Russia. It is essential to substantially elevate and 
empower the Department of the Treasury's Financial Crimes Enforcement 
Network (FinCEN) to trace and prosecute illicit Russian-linked 
financial flows. \6\
---------------------------------------------------------------------------
     \6\ See detailed recommendation in: Heather A. Conley, et al., 
``The Kremlin Playbook: Understanding Russian Influence in Central and 
Eastern Europe'', Center for Strategic and International Studies 
(October 2016), 31.
---------------------------------------------------------------------------
    To my great frustration, if this were an issue of terrorism 
financing, there would be no question about our resolve. But when it 
comes to addressing Russian illicit financing, which is causing great 
damage to our democracy, we hesitate. Why? It is one thing to sanction 
a Russian oligarch on the Forbes list, but it is another to dry up 
their ill-gotten gains which have left the Russian people in greater 
poverty. We must place anti- money laundering on an equal policy 
footing with our advanced financial infrastructure to combat terrorism 
financing.
    This endeavor is also an ideal opportunity for the United States to 
work closely with the European Union, which is currently working on a 
more robust (5th) anti- money laundering directive, as well as with the 
United Kingdom which is also finally getting serious about addressing 
its economic dependency on Russian illicit funds, though there is still 
much to do. As the Foreign Affairs Committee of the U.K. House of 
Commons recently stated, ``associates and allies of the Russian 
President . . . use money laundered through London to corrupt our 
friends, weaken our alliances and erode faith in our institutions,'' 
and noted that it was time to ``close the laundromat.'' \7\ We are 
given daily reminders of our inability to shut down the Western 
``laundromat'' as recent reports of over $30 billion of Russian and 
other post-Soviet Nations' funds that went through the Estonian branch 
of Danske Bank undetected for years attest. \8\ It is time for the 
United States to close the Russian laundromat and affiliated enabling 
services that operates within and through the U.S. financial system, 
and to work closely with our allies to drain this international swamp. 
By doing so we protect the U.S. homeland, as the growing nexus between 
the illicit U.S. and international financial systems and attempts by 
Russia to influence the 2016 presidential election becomes clear. \9\
---------------------------------------------------------------------------
     \7\ House of Commons Foreign Affairs Committee, ``Moscow's Gold: 
Russian Corruption in the U.K.'', Eighth Report of Session 2017-2019 
(HC 932), https://publications.parliament.uk/pa/cm201719/cmselect/
cmfaff/932/932.pdf.
     \8\ Jim Brunsden, Caroline Binham, and Claire Jones, ``Scandals 
Expose Flaws in EU Fight Against Dirty Money, Say Watchdogs'', The 
Financial Times, September 4, 2018, https://www.ft.com/content/
1090520e-b05a-11e8-8d14-6f049d06439c.
     \9\ USA v. Manafort, Jr., et al., Case No. 17-cr-201, October 27, 
2017, http://www.dcd.
uscourts.gov/sites/dcd/files/17-201.pdf.
---------------------------------------------------------------------------
    Decades ago, the United States successfully established a durable 
policy toward the Soviet Union that won the Cold War without direct 
military conflict and helped spread greater security and prosperity for 
over 100 million people in Central and Eastern Europe. Our future 
success therefore does not necessarily lie in imposing new and more 
painful sanctions, but it does rest in our ability to develop a clear 
long-term policy toward Russia which: (1) defends the homeland; (2) 
develops a clear path to return Russia to international legal norms; 
and (3) positions the U.S. to once again promote and prioritize the 
dignity of the individual and the governed over the privileges of the 
State-fed kleptocratic forces in Moscow. We can have the most 
significant impact on all three lines of effort by ending illicit 
Russian transactions through stronger anti- money laundering, greater 
transparency of beneficial ownership, and exposing Russian corruption. 
This is fully within this Committee's scope and writ. When it comes to 
addressing Russia malign behavior today, the Senate Banking Committee 
may be more powerful than the Senate Armed Services Committee.
        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN CRAPO
                     FROM MICHAEL A. MCFAUL

Q.1. Discretion and Flexibility. From your testimony, each of 
you understand that sanctions, are themselves, not a policy, 
strategy, or alternative to diplomacy. In fact, they are a 
powerful tool used to advance that policy or strategy.
    Based on the experience each of you gained from your 
employment with past Administrations, what is your response to 
the idea of imposing automatic mandatory sanctions, generally, 
and giving the authority to make determinations and 
designations to the discretion of the intelligence community?
    Drawing on your professional experience with sanctions, 
generally, and specifically with regard to Iran, North Korea, 
and Russia, how much discretion or flexibility and what kind is 
appropriate for an executive branch to retain in using this 
tool?
    In the context of foreign interference in U.S. elections, 
should the penalties imposed on interference by Russia be any 
different from that imposed against similar interference by 
Iran, North Korea, China, or any other foreign actor?

A.1. Response not received in time for publication.

Q.2. Next Steps and Overuse of Sanctions. The United States is 
currently running about 25 active sanctions programs against 
rogue Nations and other bad actors, and Ms. Conley notes in her 
testimony that there are about 58 separate sets of sanctions 
against Russia, alone, spread across 8 broad categories of 
policy objectives.
    In terms of U.S. policy or strategic objectives, and 
according to each of your testimony, very little has been 
gained, so is the answer, just to pile on more sanctions and 
objectives?
    Do we run the risk of losing the effectiveness of the 
sanctions tool, if we overuse it?

A.2. Response not received in time for publication.

Q.3. Each U.S. Administration since 1991 has sought to improve 
its relationship with Russia, at least at the beginning of its 
term, and the Trump administration is not very different in 
that respect.
    Can there be a path forward to both either preserve or 
intensify sanctions and still improve relations with President 
Putin and the Russian Federation?

A.3. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                     FROM MICHAEL A. MCFAUL

Q.1. I'd like to compare what we saw in 2016, and what we are 
seeing today, with Russia's past covert influence efforts. As 
most people are aware, the most detailed accounting of Russia's 
past activities is the Mitrokhin Archive. On page 243 of the 
Mitrokhin Archive, as detailed in ``The Sword and the Shield'', 
it states,

        It was the extreme priority attached by the Centre (KGB 
        Headquarters) to discrediting the policies of the 
        Reagan administration which led Andropov to decree 
        formally on April 12, 1982, as one of the last acts of 
        his 15-year term as chairman of the KGB, that is was 
        the duty of all foreign intelligence officers, whatever 
        their ``line'' or department, to participate in active 
        measures. Ensuring that Reagan did not serve a second 
        term thus became Service A's most important objective.

        On February 25, 1983, the Centre instructed its three 
        American residences to being planning actives measures 
        to ensure Reagan's defeat in the presidential election 
        of November 1984. They were ordered to acquire contacts 
        on the staffs of all possible presidential candidates 
        and in both party headquarters . . . The Centre made 
        clear that any candidate, of either party, would be 
        preferable to Reagan.

        Residences around the world were ordered to popularize 
        the slogan ``Reagan Means War!'' The Centre announced 
        five active measures ``theses'' to be used . . . his 
        militarist adventurism; his personal responsibility for 
        accelerating the arms race; his support for repressive 
        regimes around the world; his responsibility for 
        tension with his NATO allies. Active Measures 
        ``theses'' in domestic policy included Reagan's alleged 
        discrimination against ethnic minorities; corruption in 
        his Administration; and Reagan's subservience to the 
        military-industrial complex.

    So, in 1982, over 35 years ago, we had the KGB using active 
measures in the United States to sow racial discord, try to 
create problems with NATO, discredit our nuclear modernization, 
undercut military spending, highlight corruptions, and try to 
encourage the U.S. to retreat from the world stage.
    How would you compare the themes and tactics the KGB used 
in 1982, to those we saw in 2016, and are seeing in 2018?

A.1. Response not received in time for publication.

Q.2. The Senate Intelligence Committee has heard testimony in 
open session, most notably from then CIA Director Mike Pompeo, 
that the Russians are using active measures to undermine our 
missile defense deployments, nuclear modernization efforts, and 
to try and drive a wedge between the U.S. and NATO on these 
issues. Additionally, we know from Mitrokhin and Bob Gate's 
memoir ``From the Shadows'' (p. 260) that this was part of 
their playbook in the 1980s as well.
    How do you believe that the Russians are attempting to use 
active measures to undermine U.S. missile defense deployments 
and nuclear modernization efforts today?
    How do you believe their tactics in these areas today 
differ from 1982?

A.2. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TESTER
                     FROM MICHAEL A. MCFAUL

Q.1. American Grand Strategy. In his written testimony, 
Ambassador Fried mentioned that a strong Russia policy should 
be linked to an ``American Grand Strategy.'' The 
Administration's National Security Strategy mostly combines the 
threats facing the U.S. in the same categories alongside the 
threats we face from China, North Korea, and Iran.
    Are you aware of any coordinated efforts from this 
Administration, outside of the National Security Strategy, that 
specifically addresses the threats we face from Russia?
    In addition to sanctions, what do you feel would be an 
equivalent response to the actions taken by Russia to interfere 
in U.S. elections and undermine American interests abroad?
    Please provide any examples of what should you feel should 
be included in an ``American Grand Strategy'' that would 
contain Russian aggression against U.S. interests, and protect 
our democracy from further interference?

A.1. Response not received in time for publication.

Q.2. State Department in Russia. Earlier this year, Russia 
expelled 60 U.S. diplomats and closed the U.S. Consulate in St. 
Petersburg in the wake of the expulsion of 60 Russian officials 
from the United States.
    Given your former position as U.S. Ambassador to Russia, in 
what ways did the expulsion of these diplomats from Russia 
affect our mission in Russia?
    In your estimation, how has this action affected the 
implementation of U.S. sanctions, if at all?
    What State Department programs in Russia are, in your 
estimation, currently most effective to advance U.S. interests 
there?

A.2. Response not received in time for publication.

Q.3. INTERPOL. In your testimony, you mention that Russia has 
an extensive history of violating INTERPOL procedures and 
practices in an attempt to detain innocent people in third 
countries. Now, in the aftermath of the Helsinki Conference, I 
am sorry that you now must worry about being harassed by Russia 
through its abuse of INTERPOL.
    In your opinion, how should the U.S. address Russian abuse 
of the INTERPOL system?

A.3. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN CRAPO
                       FROM DANIEL FRIED

Q.1. Discretion and Flexibility. From your testimony, each of 
you understand that sanctions, are themselves, not a policy, 
strategy, or alternative to diplomacy. In fact, they are a 
powerful tool used to advance that policy or strategy.
    Based on the experience each of you gained from your 
employment with past Administrations, what is your response to 
the idea of imposing automatic mandatory sanctions, generally, 
and giving the authority to make determinations and 
designations to the discretion of the intelligence community?
    Drawing on your professional experience with sanctions, 
generally, and specifically with regard to Iran, North Korea, 
and Russia, how much discretion or flexibility and what kind is 
appropriate for an executive branch to retain in using this 
tool?
    In the context of foreign interference in U.S. elections, 
should the penalties imposed on interference by Russia be any 
different from that imposed against similar interference by 
Iran, North Korea, China, or any other foreign actor?

A.1. In general, I am skeptical about legislation that mandates 
sanctions and do not favor giving the intelligence community 
authority to make policy determinations either generally or 
with respect to sanctions designations; such is not its 
responsibility. The intelligence community's responsibility, of 
course, includes making analytic judgments, including about the 
extent of Russian interference in U.S. elections. More broadly, 
the executive branch's argument for policy discretion (and 
legislative restraint) is stronger when its policy is 
understandable and consistent. This Administration, especially 
the President, has struggled to articulate a consistent policy 
with respect to Russia, and has sometimes obfuscated the 
challenge of Russian aggression. Inconsistencies of the 
Administration's Russia policy, particularly at the top levels, 
may have triggered the various sanctions legislation under 
consideration.
    Executive branch flexibility is important both in general 
and with respect to implementation of sanctions programs. The 
Treasury Department's licensing authority is especially 
important to mitigate unintended consequences of sanctions in a 
timely fashion.
    The United States should respond to (and resist) 
interference in U.S. elections from all foreign sources, e.g., 
including the Governments of Russia, Iran, and the DPRK. The 
tools we chose will differ because, among other things, our 
relations with these countries differ, as do the sanctions 
regimes we have developed in response to their behavior.

Q.2. Next Steps and Overuse of Sanctions. The United States is 
currently running about 25 active sanctions programs against 
rogue Nations and other bad actors, and Ms. Conley notes in her 
testimony that there are about 58 separate sets of sanctions 
against Russia, alone, spread across 8 broad categories of 
policy objectives.
    In terms of U.S. policy or strategic objectives, and 
according to each of your testimony, very little has been 
gained, so is the answer, just to pile on more sanctions and 
objectives?
    Do we run the risk of losing the effectiveness of the 
sanctions tool, if we overuse it?

A.2. I do not agree that ``very little has been gained'' 
through sanctions against Russia. Sanctions imposed against 
Russia for its 2014 invasion of Ukraine and illegal attempted 
annexation of Crimea appear to have contributed to Russia's 
decision to limit its aggression (e.g., retreating from a 
trial-balloon claim to even more Ukrainian territory), and may 
have convinced Russia to agree to the Minsk Accords framework. 
If implemented, the Minsk Accords would restore Ukrainian 
sovereignty in the Donbass, a significant success. Additional 
sanctions against Russia--for human rights violations, 
interference in the 2016 U.S. elections, and the use of nerve 
gas in attempted assassinations on U.K. territory--are not a 
piling on, but a measured response to continued Russian 
aggression in separate contexts.
    Misuse of sanctions--for example by failure to work in 
concert with allies, overambitious objectives in the use of 
sanctions, or moving goalposts with respect to sanctions--can 
indeed result in the loss of effectiveness of sanctions. 
Continued coordination of Russia sanctions with U.S. allies in 
Europe and elsewhere is important to maintain (and if necessary 
increase) their impact.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                       FROM DANIEL FRIED

Q.1. I'd like to compare what we saw in 2016, and what we are 
seeing today, with Russia's past covert influence efforts. As 
most people are aware, the most detailed accounting of Russia's 
past activities is the Mitrokhin Archive. On page 243 of the 
Mitrokhin Archive, as detailed in ``The Sword and the Shield'', 
it states,

        It was the extreme priority attached by the Centre (KGB 
        Headquarters) to discrediting the policies of the 
        Reagan administration which led Andropov to decree 
        formally on April 12, 1982, as one of the last acts of 
        his 15-year term as chairman of the KGB, that is was 
        the duty of all foreign intelligence officers, whatever 
        their ``line'' or department, to participate in active 
        measures. Ensuring that Reagan did not serve a second 
        term thus became Service A's most important objective.

        On February 25, 1983, the Centre instructed its three 
        American residences to being planning actives measures 
        to ensure Reagan's defeat in the presidential election 
        of November 1984. They were ordered to acquire contacts 
        on the staffs of all possible presidential candidates 
        and in both party headquarters . . . The Centre made 
        clear that any candidate, of either party, would be 
        preferable to Reagan.

        Residences around the world were ordered to popularize 
        the slogan ``Reagan Means War!'' The Centre announced 
        five active measures ``theses'' to be used . . . his 
        militarist adventurism; his personal responsibility for 
        accelerating the arms race; his support for repressive 
        regimes around the world; his responsibility for 
        tension with his NATO allies. Active Measures 
        ``theses'' in domestic policy included Reagan's alleged 
        discrimination against ethnic minorities; corruption in 
        his Administration; and Reagan's subservience to the 
        military-industrial complex.

    So, in 1982, over 35 years ago, we had the KGB using active 
measures in the United States to sow racial discord, try to 
create problems with NATO, discredit our nuclear modernization, 
undercut military spending, highlight corruptions, and try to 
encourage the U.S. to retreat from the world stage.
    How would you compare the themes and tactics the KGB used 
in 1982, to those we saw in 2016, and are seeing in 2018?
    The Senate Intelligence Committee has heard testimony in 
open session, most notably from then CIA Director Mike Pompeo, 
that the Russians are using active measures to undermine our 
missile defense deployments, nuclear modernization efforts, and 
to try and drive a wedge between the U.S. and NATO on these 
issues. Additionally, we know from Mitrokhin and Bob Gate's 
memoir ``From the Shadows'' (p. 260) that this was part of 
their playbook in the 1980s as well.
    How do you believe that the Russians are attempting to use 
active measures to undermine U.S. missile defense deployments 
and nuclear modernization efforts today?
    How do you believe their tactics in these areas today 
differ from 1982?

A.1. Current Russian disinformation efforts indeed recall 
earlier tactics of Soviet disinformation, including in the 
1980s and even the 1930s.
    Current Russian disinformation campaigns, especially in 
Europe, are aimed at weakening local support for NATO 
deployments to NATO's eastern tier of countries (e.g., the 
Baltic States, Poland, and Romania) and weakening transatlantic 
solidarity generally.
    Russian tactics have evolved with technology. For example, 
in the 1980s, the Soviets planted stories in African newspapers 
that the CIA had created the HIV virus. Within weeks, this 
story had migrated to European media and gradually entered the 
mainstream media network. Today, however, false stories can be 
planted online and given prominence through bots, trolls, and 
cyborgs, and can and do enter the mainstream media within a 
matter of days or even hours.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR TESTER
                       FROM DANIEL FRIED

Q.1. American Grand Strategy. In his written testimony, 
Ambassador Fried mentioned that a strong Russia policy should 
be linked to an ``American Grand Strategy.'' The 
Administration's National Security Strategy mostly combines the 
threats facing the U.S. in the same categories alongside the 
threats we face from China, North Korea, and Iran.
    Are you aware of any coordinated efforts from this 
Administration, outside of the National Security Strategy, that 
specifically addresses the threats we face from Russia?
    In addition to sanctions, what do you feel would be an 
equivalent response to the actions taken by Russia to interfere 
in U.S. elections and undermine American interests abroad?
    Please provide any examples of what should you feel should 
be included in an ``American Grand Strategy'' that would 
contain Russian aggression against U.S. interests, and protect 
our democracy from further interference?

A.1. The Administration has built on the last Administration's 
efforts to resist Russian aggression, including by continuing 
sanctions from the Obama administration and adding new ones. It 
has also continued and even strengthened the Obama 
administration efforts to increase NATO's ability to defend 
countries on its eastern flank most vulnerable to Russian 
aggression. That said, the President's language, e.g., at his 
Helsinki press conference with Russian President Vladimir Putin 
last July, has sent mixed messages, probably weakening the 
impact of otherwise laudable policy steps.
    The United States should lead its allies in Europe and Asia 
in efforts to resist Russian aggression. In addition to 
sanctions, this should include increasing NATO's military 
support for its most vulnerable members, efforts to plan for 
(and potentially counter) Russian hybrid and cyberattacks, and 
development of potential escalatory sanctions and other actions 
to deploy if Russia intensifies its aggression. Finally, the 
U.S. and its allies should support countries not in NATO or the 
EU, such as Ukraine and Georgia which are seeking to strengthen 
their sovereignty against Russian pressure within a framework 
of democratic and free-market reforms. At the same time, the 
U.S. and its transatlantic allies should maintain ties with 
Russian society, keeping in mind that Russia is more than just 
President Putin and the Kremlin power structure.
    American Grand Strategy for the past hundred years has 
sought to advance a rules-based world system which favors 
democracy. First articulated by Woodrow Wilson in 1918, and 
later by Presidents Roosevelt, Truman, Kennedy, and Reagan, 
American Grand Strategy held that our interests would advance 
with our values; and that America would prosper in an open 
world regulated by rules, not a world with closed economic 
empires and spheres of influence. Since 1945 and again since 
1989, the U.S. has led the Nations of the free world to advance 
our mutual values and interests, and resist aggression from 
predatory powers. American Grand Strategy should be built on a 
foundation of free Nations, democracies committed to the rule 
of law, working together, and on that basis should seek to 
contain Russian (and Chinese) aggression and predatory 
behavior.

Q.2. State Department in Russia. Earlier this year, Russia 
expelled 60 U.S. diplomats and closed the U.S. Consulate in St. 
Petersburg in the wake of the expulsion of 60 Russian officials 
from the United States.
    In what ways do you believe the expulsion of these 
diplomats from Russia affect our mission in there?
    In your estimation, how has this action affected the 
implementation of U.S. sanctions, if at all?
    What State Department programs in Russia are, in your 
estimation, currently most effective to advance U.S. interests 
there?

A.2. As was the case with rounds of reciprocal expulsions of 
Soviet and U.S. diplomats in the 1980s, the loss of trained and 
skilled foreign service personnel in our Embassy and Consulates 
in Russia does damage our ability to advance U.S. interests. 
Experience suggests, however, that a strong response to Russian 
aggression (these latest expulsions were a response to Russian 
use of nerve gas in the U.K. in an attempt to murder two 
Russians living there) is worth the cost.
    The loss of U.S. diplomatic personnel in Russia should not 
significantly damage U.S. ability to administer our sanctions 
program, since most U.S. sanctions are administered and 
enforced the U.S. Treasury.
    It is important to maintain regular contacts with the 
Russian Government and Russian society. In a society without a 
free press, which has been the case in Russia for some time, 
direct knowledge of developments is critical. Beyond daily 
diplomatic work and regular contacts with society, the long-
term impact of cultural exchanges and other forms of outreach 
to Russians can advance our interests by helping counter the 
reach of Russian official propaganda. This was one lesson of 
the Cold War and it remains viable today.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN CRAPO
                       FROM RACHEL ZIEMBA

Q.1. Discretion and Flexibility. From your testimony, each of 
you understand that sanctions, are themselves, not a policy, 
strategy, or alternative to diplomacy. In fact, they are a 
powerful tool used to advance that policy or strategy.
    Based on the experience each of you gained from your 
employment with past Administrations, what is your response to 
the idea of imposing automatic mandatory sanctions, generally, 
and giving the authority to make determinations and 
designations to the discretion of the intelligence community?
    Drawing on your professional experience with sanctions, 
generally, and specifically with regard to Iran, North Korea, 
and Russia, how much discretion or flexibility and what kind is 
appropriate for an executive branch to retain in using this 
tool?
    In the context of foreign interference in U.S. elections, 
should the penalties imposed on interference by Russia be any 
different from that imposed against similar interference by 
Iran, North Korea, China, or any other foreign actor?

A.1. Response not received in time for publication.

Q.2. Next Steps and Overuse of Sanctions. The United States is 
currently running about 25 active sanctions programs against 
rogue Nations and other bad actors, and Ms. Conley notes in her 
testimony that there are about 58 separate sets of sanctions 
against Russia, alone, spread across 8 broad categories of 
policy objectives.
    In terms of U.S. policy or strategic objectives, and 
according to each of your testimony, very little has been 
gained, so is the answer, just to pile on more sanctions and 
objectives?
    Do we run the risk of losing the effectiveness of the 
sanctions tool, if we overuse it?

A.2. Response not received in time for publication.

Q.3. Russia's banking interests are powerful, global, and 
certainly not the most transparent. Almost everyone would agree 
that Russian laundering must be stopped as a national security 
priority.
    Is the world prepared to unravel the myriad of networks 
that encompass Russia's nested shell corporations within shell 
corporations to find a true Russian beneficial owner?
    Is this something that can be accomplished by the U.S. 
alone?

A.3. Response not received in time for publication.

Q.4. Russia's Energy Sanctions. When sectoral sanctions were 
first imposed, the energy sector sanctions only targeted deep-
water, offshore Arctic and shale oil exploration.
    Can energy sector sanctions bear expansion, over those 
prescribed in CAATSA and in what way?
    What would be the consequences or costs of expansion?
    In your opinion, would such an expansion lead to a change 
in Putin's behavior?

A.4. Response not received in time for publication.

Q.5. Russian Mitigation Efforts. The Russians are said to be 
taking steps to prepare for a next round of Administration 
sanctions or new legislation that may involve financial, 
energy, and sovereign debt sanctions.
    Could you explain what defensive steps are available to the 
Russians and how successful they might be against that next 
evolution of sanctions?
    How is Russia adapting to mitigate the impact of current 
sanctions, and can the United States counter that mitigation?

A.5. Response not received in time for publication.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF CHAIRMAN CRAPO
                     FROM HEATHER A. CONLEY

Q.1. Discretion and Flexibility. From your testimony, each of 
you understand that sanctions, are themselves, not a policy, 
strategy, or alternative to diplomacy. In fact, they are a 
powerful tool used to advance that policy or strategy.
    Based on the experience each of you gained from your 
employment with past Administrations, what is your response to 
the idea of imposing automatic mandatory sanctions, generally, 
and giving the authority to make determinations and 
designations to the discretion of the intelligence community?

A.1. Mandatory sanctions are appropriate for the most clear and 
heinous violations of international law and for those 
individuals and entities that significantly threaten U.S. 
national security. I do not support giving the sole authority 
to make such determinations and designations to the 
intelligence community (IC). The IC should present its findings 
to the legislative and executive branches, and it is for the 
executive branch to propose and the legislative branch to place 
into law--should that be necessary--the imposition of 
sanctions. Should the executive branch fail to implement the 
law, Congress must hold the executive branch accountable and 
develop legislation that is consistent with U.S. treaty 
obligations and other areas of import to U.S. national 
security.

Q.2. Drawing on your professional experience with sanctions, 
generally, and specifically with regard to Iran, North Korea, 
and Russia, how much discretion or flexibility and what kind is 
appropriate for an executive branch to retain in using this 
tool?

A.2. Discretion and flexibility--like respect--must be earned. 
They are not rights. If there is strong oversight of the 
executive branch's policy actions by Congress and bipartisan 
support for those policies, discretion and flexibility are 
appropriate and very important to policy formation. If, 
however, oversight is lax or partisan in nature and/or the 
executive branch's proposed policies do not achieve the 
promised or anticipated results, it would be appropriate for 
Congress to reduce the degree of discretion and flexibility 
afforded the executive branch over sanctions policy. It is 
equally important that Congress conduct rigorous oversight over 
the implementation of existing sanctions legislation. If 
implementation by the executive branch is found to be lacking, 
further reduction of discretion and flexibility is fully 
warranted, and Congress must step in to develop legislation 
that is consistent with U.S. treaty obligations and the 
protection of U.S. national security.

Q.3. In the context of foreign interference in U.S. elections, 
should the penalties imposed on interference by Russia be any 
different from that imposed against similar interference by 
Iran, North Korea, China, or any other foreign actor?

A.3. There should be a standard penalty for State actors which 
interfere in the U.S. election process. The executive branch, 
in consultation with the legislative branch, should establish 
clear thresholds of behavior that would constitute gross 
interference in the U.S. election process and its institutions 
at the tribal, local, State, or Federal level by any foreign 
actor. This could include a cyberattack on or the implantation 
of malware in election infrastructure, cybermanipulations of 
voter registration data, etc.
    More difficult to counter is the widespread use of 
disinformation and voter suppression efforts by foreign actors 
with the unwitting or witting support of American proxies. The 
U.S. Government can and has sanctioned individuals and entities 
that are involved in disinformation, but it is impossible to 
know the impact that disinformation could have on American 
citizens and their voting or nonvoting preferences. To combat 
disinformation, the U.S. Government must develop a 
comprehensive public education and awareness strategy that 
could consist of public service announcements, bipartisan 
political announcements at the local, State and Federal level 
and news literacy initiatives. This could include national 
awareness campaigns regarding the risk of foreign interference 
from actors such as Russia.

Q.4. Next Steps and Overuse of Sanctions. The United States is 
currently running about 25 active sanctions programs against 
rogue Nations and other bad actors, and Ms. Conley notes in her 
testimony that there are about 58 separate sets of sanctions 
against Russia, alone, spread across 8 broad categories of 
policy objectives.
    In terms of U.S. policy or strategic objectives, and 
according to each of your testimony, very little has been 
gained, so is the answer, just to pile on more sanctions and 
objectives?
    Do we run the risk of losing the effectiveness of the 
sanctions tool, if we overuse it?

A.4. No, piling on is not the answer. The more you randomly 
pile on and the more policy objectives you have, the less 
efficacious the overall effect of sanctions becomes. Sanctions 
must be selectively used for an urgent policy imperative, 
selectively targeted to maximize pressure, and very powerfully 
applied at the beginning of the policy violation rather than 
slowly turning up sanctions pressure over a long period of 
time. This is a change in approach to how sanctions are 
normally applied, i.e. imposed slowly and ratcheted up over 
time.
    The United States is already experiencing the effects of 
sanctions overuse, which will eventually lead to diminishing 
policy returns on U.S. sanctions. Adversaries and allies alike 
are able to resist sanctions more effectively by creating 
parallel and alternative structures to the U.S. financial 
system to avoid the impact of sanctions or secondary sanctions. 
For example, the European Union is establishing a Special 
Purpose Vehicle (SPV)--a clearing house of sorts--to attempt to 
shelter firms from the impact of U.S. secondary sanctions from 
the snap-back of sanctions against Iran. China is creating 
bartering-like systems and separate financial mechanisms to 
prevent interaction with U.S. banks. Thus, there is a clear 
risk of losing the power of sanctions if they are too often 
applied, or without clear objectives and timelines.

Q.5. Russia's banking interests are powerful, global, and 
certainly not the most transparent. Almost everyone would agree 
that Russian laundering must be stopped as a national security 
priority.
    Is the world prepared to unravel the myriad of networks 
that encompass Russia's nested shell corporations within shell 
corporations to find a true Russian beneficial owner?

A.5. Certainly, the political Western world is not prepared for 
the full truth about how much it has enabled illicit Russian 
financial flows or how much of this money runs through 
communities in the United States and in Europe. Like the 
political explosions following the release of the Panama 
Papers, the Paradise Papers, and the Russian Laundromat report, 
Governments may fall, prime ministers and senior officials may 
be forced to resign, political party financing will be 
scrutinized, and high-level individuals may go to jail. There 
will be great embarrassment and careers will be ruined. 
However, shining a full light on the extent of these networks 
is the only way to begin to: (1) restore and rebuild trust and 
confidence in open and free democratic societies, their leaders 
and institutions; (2) shut down a mechanism through which 
foreign adversaries can influence and manipulate a country's 
policies; and (3) place a crippling blow against corrupt 
authoritarians, kleptocrats and murderous regimes. The only 
question is: Why wouldn't the full force and power of the U.S. 
Government be used to expose these networks--unless the U.S. 
itself has grown susceptible to the monied influence of these 
networks?

Q.6. Is this something that can be accomplished by the U.S. 
alone?

A.6. No, the U.S. cannot do this alone. It must work closely 
with like-minded allies and partners because when illicit 
networks are foiled in one place, these networks will 
reconstitute in another environment that is more hospitable to 
illicit financing. Just as the U.S. financial system is an 
extraordinarily powerful tool when it comes to sanctions, it is 
an equally powerful tool when it comes to stopping illicit 
financing of any kind. Examples of this are the closure of the 
Latvian ABLV Bank and the significant fines against Deutsche 
Bank, Societe Generale, and potentially Danske Bank. While the 
U.S. has demonstrated great leadership externally, it has not 
focused enough on its own institutions and affiliated enablers 
of illicit financial transactions such as boutique investment 
firms, as well as tax and legal counsel, and legal support to 
construct opaque shell companies and tax havens that may be 
used for illicit purposes--the so-called `corporate service 
providers' or Designated Non-Financial Businesses and 
Professions as they are classified by the intergovernmental 
Financial Action Task Force. \1\
---------------------------------------------------------------------------
     \1\ Financial Action Task Force Glossary, http://www.fatf-
gafi.org/glossary/d-i/.
---------------------------------------------------------------------------
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR COTTON
                     FROM HEATHER A. CONLEY

Q.1. I'd like to compare what we saw in 2016, and what we are 
seeing today, with Russia's past covert influence efforts. As 
most people are aware, the most detailed accounting of Russia's 
past activities is the Mitrokhin Archive. On page 243 of the 
Mitrokhin Archive, as detailed in ``The Sword and the Shield'', 
it states,

        It was the extreme priority attached by the Centre (KGB 
        Headquarters) to discrediting the policies of the 
        Reagan administration which led Andropov to decree 
        formally on April 12, 1982, as one of the last acts of 
        his 15-year term as chairman of the KGB, that is was 
        the duty of all foreign intelligence officers, whatever 
        their ``line'' or department, to participate in active 
        measures. Ensuring that Reagan did not serve a second 
        term thus became Service A's most important objective.

        On February 25, 1983, the Centre instructed its three 
        American residences to being planning actives measures 
        to ensure Reagan's defeat in the presidential election 
        of November 1984. They were ordered to acquire contacts 
        on the staffs of all possible presidential candidates 
        and in both party headquarters . . . The Centre made 
        clear that any candidate, of either party, would be 
        preferable to Reagan.

        Residences around the world were ordered to popularize 
        the slogan ``Reagan Means War!'' The Centre announced 
        five active measures ``theses'' to be used . . . his 
        militarist adventurism; his personal responsibility for 
        accelerating the arms race; his support for repressive 
        regimes around the world; his responsibility for 
        tension with his NATO allies. Active Measures 
        ``theses'' in domestic policy included Reagan's alleged 
        discrimination against ethnic minorities; corruption in 
        his Administration; and Reagan's subservience to the 
        military-industrial complex.

    So, in 1982, over 35 years ago, we had the KGB using active 
measures in the United States to sow racial discord, try to 
create problems with NATO, discredit our nuclear modernization, 
undercut military spending, highlight corruptions, and try to 
encourage the U.S. to retreat from the world stage.
    How would you compare the themes and tactics the KGB used 
in 1982, to those we saw in 2016, and are seeing in 2018?

A.1. The tactics of Soviet-era active measures are very similar 
to those that the Russian Federation deploys today, with the 
difference being that the Kremlin has harnessed 21st century 
information technologies for much greater and damaging affect. 
But, unlike in 1982, the United States has not developed an 
effective response. Moreover, during the Cold Ward, the 
American people clearly understood that the Soviet Union was 
its adversary, and there was a general national consensus 
regarding Soviet disinformation tactics against the United 
States, such as the use of doctored photographs, documents and 
placement of false stories in newspapers. Unfortunately, this 
national consensus for a new generation of Americans does not 
exist today. There is little bipartisan or national 
understanding of the sophisticated and encompassing nature of 
the threat, and there is no national strategy to combat it. 
Tragically, the many manifestations of Russian malign influence 
have become caught in growing American partisanship to such a 
point where the Kremlin does not need to exert itself much to 
exploit and deepen divisions within American society.
    In 1982, President Reagan understood the leadership 
imperative to combat Soviet active measures: (1) the clarion 
call that the Soviet Union was ``an evil empire'' (although 
this was very controversial at the time); (2) the use all 
Government resources and instruments of power which were 
focused uniquely on one adversary to defeat the Soviet Union at 
home and abroad; and, perhaps most importantly, (3) the issuing 
of a presidential directive that instructed the U.S. Government 
to go on the democratic, civil society, and human rights 
offensive to provide encouragement and hope to those who 
believed in and fought for the dignity of the individual over 
the repression of the State. None of those elements exists 
today. And finally, it would be hard to believe that if anyone 
on Ronald Reagan's campaign--most of whom had served in combat 
or were steeped in the Cold War ethos--had been approached by a 
Russian official or intermediary, they would not have quickly 
alerted Government officials to the approach.

Q.2. The Senate Intelligence Committee has heard testimony in 
open session, most notably from then CIA Director Mike Pompeo, 
that the Russians are using active measures to undermine our 
missile defense deployments, nuclear modernization efforts, and 
to try and drive a wedge between the U.S. and NATO on these 
issues. Additionally, we know from Mitrokhin and Bob Gate's 
memoir ``From the Shadows'' (p. 260) that this was part of 
their playbook in the 1980s as well.
    How do you believe that the Russians are attempting to use 
active measures to undermine U.S. missile defense deployments 
and nuclear modernization efforts today?
    How do you believe their tactics in these areas today 
differ from 1982?

A.2. Again, the Kremlin does not need to exert itself much, 
particularly in relation to the status of the Intermediate-
Range Nuclear Forces (INF) Treaty, because of actions taken by 
the U.S. Government. President Trump's mention of U.S. 
withdrawal from the INF Treaty at a campaign rally on October 
20 without prior consultation with allies and prior to 
Ambassador John Bolton's meeting with Russian leaders, 
significantly undermined alliance unity and led to condemnation 
of the United States for unilateral withdrawal from the treaty, 
rather than where the international condemnation rightfully 
belongs: Russia's material breach of the INF Treaty for at 
least the past 5 years. Therefore, tactics for ``personal 
responsibility for accelerating the arms race'' and 
``responsibility for tensions with NATO allies'' were exactly 
the same mission the Kremlin had in 1982, except that the 
United States is now aiding and abating it. All the Kremlin 
needs to do is amplify American actions and subsequent 
criticism of these actions; it does not need to do much to 
undermine the treaty or nuclear modernization efforts. Their 
work is being done for them.
    Prior to the INF Treaty controversy, the Kremlin had 
frequently used scare tactics regarding nuclear weapons. 
Whether it was the provocative address by President Putin on 
March 1 of this year where he demanded that all countries 
``listen to Russia now'' as it has developed and is willing to 
use new nuclear weapons, senior Russian officials giving 
provocative statements and making threatening comments in the 
press (e.g., the Russian Ambassador to Denmark suggesting that 
Russia could retaliate with nuclear weapons were Denmark to 
join NATO's missile defense shield \1\), or exercising with 
nuclear weapons, \2\ Moscow seems to target those countries 
that are closely working with NATO and the United States 
bilaterally, those who could become NATO members in the future 
(Finland and Sweden), those countries that are hosting 
components of NATO's missile defense system (Poland and 
Romania) or contemplating hosting future missile defense 
components. These tactics are in part meant to reinforce 
Russia's status as a great power ``that will be listened to'' 
by the West, but for the most part they are designed to 
influence public opinion and turn it against cooperation with 
the United States or NATO.
---------------------------------------------------------------------------
     \1\ Adam Withnall, ``Russia Threatens Denmark With Nuclear Weapons 
if It Tries To Join NATO Defence Shield'', The Independent, March 22, 
2015, https://www.independent.co.uk/news/world/europe/russia-threatens-
denmark-with-nuclear-weapons-if-it-tries-to-join-nato-defence-shield-
10125529.html.
     \2\ Robin Emmott and Andrius Sytas, ``Russia's Zapad War Games 
Unnerve the West'', Reuters, September 13, 2017, https://
www.reuters.com/article/us-russia-nato/russias-zapad-war-games-unnerve-
the-west-idUSKCN1BO1OG.
---------------------------------------------------------------------------
    Typically, these heavy-handed tactics have the exact 
opposite effect: Governments seek to work more closely with 
NATO and the United States, like they did during the Cold War. 
However, because of the political fragmentation in Europe as 
well as the spread in Russian malign influence, Russian active 
measures may be much more successful today. The United States 
is also much less focused on Russia as a national security 
challenge in 2018; it has a much-weakened national security 
interagency process and leadership team; and it is in a chronic 
antagonistic posture toward its allies. These are perfect 
conditions for Russian active measures to be much more 
successful than they were in the 1980s.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
